DOCKET NO. ______
OCTOBER TERM 2020

═════════════════════════════════
IN THE
SUPREME COURT OF THE UNITED STATES
LEONARDO FRANQUI,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
═════════════════════════════════

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

═════════════════════════════════
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI

═════════════════════════════════
CAPITAL CASE

Todd G. Scher
Fla. Bar No. 0899641
LAW OFFICE OF TODD G. SCHER
1722 Sheridan Street, #346
Hollywood, FL 33020
TEL: (754) 263-2349
FAX: (754) 263-4147
COUNSEL FOR PETITIONER

INDEX TO APPENDIX
APPENDIX A:

Opinion of Florida Supreme Court Under Review, Franqui v. State, 301
So. 3d 152 (Fla. 2020) (Hialeah and North Miami cases)

APPENDIX B:

Order, Florida Supreme Court Denying Rehearing, Franqui v. State,
Case No. SC19-203 (Sept. 17, 2020) (Hialeah and North Miami cases)

APPENDIX C:

Order Denying Claim to Declare Defendant Franqui Intellectually
Disabled, Circuit Court for the Eleventh Judicial Circuit in and for
Miami-Dade County, Florida, Case No. F92-6089-B (Sept. 18, 2018)
(Hialeah and North Miami cases)

APPENDIX D:

Opinion of Florida Supreme Court Reversing Summary Denial of
Motion for Post-Conviction Relief and Remanding for Evidentiary
Hearing, Franqui v. State, 211 So.3d 1026 (Fla. 2017) (Hialeah and
North Miami cases)

APPENDIX E:

Opinion of Florida Supreme Court Affirming Denial of Second Motion
for Postconviction Relief, Franqui v. State, 118 So.3d 807 (Fla. 2013)
(unpub.) (North Miami case)

APPENDIX F:

Opinion of Florida Supreme Court Affirming Denial of First Motion for
Post-Conviction Relief, Franqui v. State, 59 So.3d 82 (Fla. 2011)
(Hialeah case)

APPENDIX G:

Opinion of Florida Supreme Court Affirming Denial of First Motion for
Postconviction Relief, Franqui v. State, 965 So.2d 22 (Fla. 2007) (North
Miami Case)

APPENDIX H:

Opinion of Florida Supreme Court in Direct Appeal After
Resentencing, Franqui v. State, 804 So.2d 1185 (Fla. 2002) (North
Miami case)

APPENDIX I:

Opinion of Florida Supreme Court in Direct appeal, Franqui v. State,
699 So.2d 1332 (Fla. 1997) (North Miami case)

APPENDIX J:

Opinion of Florida Supreme Court in Direct Appeal, Franqui v. State,
699 So.2d 1312 (Fla. 1997) (Hialeah case)

Franqui v. State, 301 So.3d 152 (2020)

APPENDIX A

45 Fla. L. Weekly S132

301 So.3d 152
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
No. SC19-203
|
May 7, 2020
Synopsis
Background: In first case, after conviction and death
sentence for capital murder were affirmed on direct
appeal, 699 So.2d 1312, death-sentenced defendant filed
motion for postconviction relief, asserting claim that he
was intellectually disabled. The Circuit Court, MiamiDade County, denied relief, and defendant appealed. The
Supreme Court, 59 So.3d 82, affirmed. In separate case,
after conviction and death sentence for capital murder of
police officer were affirmed on direct appeal, defendant filed
separate motion for postconviction relief, again based on
claim of intellectual disability. The Circuit Court denied
relief, and defendant appealed. The Supreme Court, 118 So.3d
807, affirmed. Defendant then filed successive motions for
postconviction relief, contending that prior motions were
denied under standard in Cherry v. State, 959 So.2d 702,
which was subsequently held unconstitutional in Hall v.
Florida, 134 S.Ct. 1986. The Circuit Court, Stanford Blake,
J., denied motions, and defendant appealed. The Supreme
Court, 211 So.3d 1026, reversed and remanded. On remand,
the Circuit Court, 11th Judicial Circuit, Miami-Dade County,
Ellen Sue Venzer, J., denied the motion. Defendant appealed.

The Supreme Court held that defendant was not intellectually
disabled within meaning of statute that prohibited imposition
of death sentence upon intellectually disabled person.
Affirmed.
Canady, C.J., concurred in the result with opinion.
Labarga, J., concurred in the result with opinion.

*153 An Appeal from the Circuit Court in and for
Miami-Dade County, Ellen Sue Venzer, Judge - Case Nos.
131992CF002141B000XX and 131992CF006089B000XX
Attorneys and Law Firms
Todd G. Scher of Law Office of Todd G. Scher, P.L.,
Hollywood, Florida; and Martin J. McClain of McClain &
McDermott, P.A., Wilton Manors, Florida, for Appellant
Ashley Moody, Attorney General, Tallahassee, Florida, and
Lisa-Marie Lerner, Assistant Attorney General, West Palm
Beach, Florida, for Appellee
Opinion
PER CURIAM.
Leonardo Franqui appeals an order denying his claim
of intellectual disability, raised in successive motions for
postconviction relief filed pursuant to Florida Rule of
Criminal Procedure 3.851. We have jurisdiction. See art. V,
§ 3(b)(1), Fla. Const. We affirm the denial of postconviction
relief.

FACTS AND PROCEDURAL BACKGROUND
Franqui was convicted of first-degree murder and sentenced
to death in two separate cases. He was convicted of the 1991
murder of Raul Lopez (the Hialeah case), and the trial court
sentenced him to death after the jury recommended death
by a vote of nine to three. See Franqui v. State, 699 So. 2d
1312, 1316 (Fla. 1997). On direct appeal, this Court vacated
Franqui's convictions for attempted murder but affirmed the
remaining convictions and sentences. Id. at 1329. Franqui was
also convicted of the 1992 murder of law enforcement officer
Steven Bauer (the North Miami case). On direct appeal, this
Court affirmed Franqui's convictions but reversed for a new
penalty phase. See Franqui v. State, 699 So. 2d 1312 (Fla.
1997). On resentencing, the trial court sentenced Franqui to
death after the jury recommended death by a vote of ten to
two. See Franqui v. State, 804 So. 2d 1185, 1190-91 (Fla.
2001). This Court affirmed Franqui's death sentence on direct
appeal. Id. at 1199.
Franqui's initial motion for postconviction relief in the
Hialeah case raised, among other issues, a claim that he is
intellectually disabled. This Court affirmed the circuit court's
denial of postconviction relief. See Franqui v. State, 59 So.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 301 So.3d 152 (2020)
45 Fla. L. Weekly S132

3d 82 (Fla. 2011). Although Franqui's initial postconviction
appeal in the North Miami case raised an ineffective
assistance of counsel claim alleging mental illness, Franqui
did not argue that he is intellectually disabled. See Franqui v.
State, 965 So. 2d 22, 29-30 (Fla. 2007). This Court affirmed
the circuit court's denial of relief, see id. at 26, 38, and Franqui
later raised a claim of intellectual disability in a successive
motion for postconviction relief. The circuit court summarily
denied the claim, and this Court affirmed. See Franqui v.
State, 118 So. 3d 807 (Fla. 2013) (unpublished opinion).
In the wake of the United States Supreme Court's decision
in Hall v. Florida, 572 U.S. 701, 134 S.Ct. 1986, 188
L.Ed.2d 1007 (2014), Franqui filed successive motions for
postconviction relief in both of his capital cases. Relying
on Hall, Franqui's motions asserted that the denials of his
previous claims of intellectual disability were based on an
improper interpretation of Florida's intellectual disability
statute, and that as a result, he was entitled to an additional
evidentiary hearing. The circuit *154 court summarily
denied both motions, and Franqui appealed to this Court.
In 2017, in light of this Court's decision in Walls v. State,
213 So. 3d 340 (Fla. 2016) (holding that Hall v. Florida is
to be retroactively applied), this Court reversed the circuit
court's summary denials of Franqui's claims and remanded
for a single evidentiary hearing on the issue of intellectual
disability. See Franqui v. State, 211 So. 3d 1026, 1032 (Fla.
2017).
Following an evidentiary hearing in 2017, the circuit court
denied Franqui's intellectual disability claim. Franqui now
appeals the circuit court's order. He also argues that his death
sentences are invalid under Hurst v. Florida, ––– U.S. ––––,
136 S. Ct. 616, 193 L.Ed.2d 504 (2016), and Hurst v. State,
202 So. 3d 40 (Fla. 2016), receded from in part by State v.
Poole, 45 Fla. L. Weekly S41, ––– So.3d ––––, 2020 WL
370302 (Fla. Jan. 23, 2020), clarified, 45 Fla. L. Weekly S121,
––– So.3d ––––, 2020 WL 1592953 (Fla. Apr. 2, 2020). As we
explain below, we affirm the denial of postconviction relief
on the issue of Franqui's intellectual disability, and we deny
Franqui's Hurst-related claims.

ANALYSIS
I. Intellectual Disability

The determination of intellectual disability is subject to
a three-prong test: (1) significantly subaverage intellectual
functioning; (2) concurrent deficits in adaptive behavior;
and (3) manifestation of the condition before age eighteen.
§ 921.137(1), Fla. Stat. (2017). Subaverage intellectual
functioning is defined as “performance that is two or more
standard deviations from the mean score on a standardized
intelligence test.” Fla. R. Crim. P. 3.203(b).
Pursuant to Cherry v. State, 959 So. 2d 702, 712-13 (Fla.
2007), in determining significantly subaverage intellectual
functioning, this Court previously applied a bright-line IQ
score cutoff of 70, which is two standard deviations below the
mean IQ score of 100. Under the Cherry analysis, where a
defendant could not establish that he has an IQ of 70 or below,
the circuit court need not reach the remaining two prongs of
the intellectual disability determination. Id. at 714.
However, in Hall, the United States Supreme Court held
that Florida's strict IQ test score cutoff of 70 “creates an
unacceptable risk that persons with intellectual disability
will be executed, and thus is unconstitutional.” 572 U.S. at
704, 134 S.Ct. 1986. The Court stated that when assessing
the subaverage intellectual functioning prong, courts must
take into account the standard error of measurement (SEM)
of IQ tests. Id. at 722-23, 134 S.Ct. 1986. Moreover,
“when a defendant's IQ test score falls within the test's
acknowledged and inherent margin of error, the defendant
must be able to present additional evidence of intellectual
disability, including testimony regarding adaptive deficits.”
Id. at 723, 134 S.Ct. 1986.
Franqui argues that the circuit court erred in not conducting
the holistic analysis of intellectual disability set forth in Hall.
We disagree. In reviewing the circuit court's determination
that Franqui is not intellectually disabled, “this Court
examines the record for whether competent, substantial
evidence supports the determination of the trial court.” State
v. Herring, 76 So. 3d 891, 895 (Fla. 2011). “If the defendant
fails to prove any one of these components, the defendant will
not be found to be intellectually disabled.” Salazar v. State,
188 So. 3d 799, 812 (Fla. 2016) (citing Nixon v. State, 2 So.
3d 137, 142 (Fla. 2009)). “This Court does not reweigh the
evidence or second-guess the circuit court's findings as to the
credibility of witnesses.” *155 Brown v. State, 959 So. 2d
146, 149 (Fla. 2007) (citing Trotter v. State, 932 So. 2d 1045,
1050 (Fla. 2006)).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 301 So.3d 152 (2020)
45 Fla. L. Weekly S132

First, we reject Franqui's argument that this Court should
recede from Salazar, as well as his challenge to the clear and
convincing burden of proof set forth in section 921.137(4),
Florida Statutes. In the proceedings below, Franqui did
not timely present his challenge to the statutory clear and
convincing evidence standard, so this issue was not preserved
for review on appeal.
Second, we reject Franqui's argument that the circuit court
failed to conduct a proper review of his intellectual disability
claim. In its order denying postconviction relief, the circuit
court evaluated each of the three intellectual disability prongs.
Having reviewed the extensive evidence relating to Franqui's
IQ, the court concluded that Franqui's IQ scores, when taking
the SEM into account, did not demonstrate significantly
subaverage intellectual functioning, and did not meet the first
prong, stating: “Mr. Franqui has not shown, by clear and
convincing evidence, that his intellectual functioning is two
standard deviations below the norm of 100.” In a footnote,
the court indicated that it did not consider Franqui's score on
the Revised Beta Test because of expert testimony conceding
that it was not a recommended IQ test. Competent substantial
evidence supports the court's conclusion.
The circuit court continued its analysis and considered the
second prong, whether Franqui exhibited concurrent deficits
in adaptive behavior. The court evaluated the conceptual,
social, and practical domains of adaptive behavior, and
it concluded that Franqui failed to demonstrate adaptive
deficits. Competent substantial evidence supports the court's
conclusion.
The circuit court then considered the third prong,
manifestation of adaptive deficits before age eighteen, and
concluded: “The evidence presented is overwhelming that,
prior to his incarceration, the Defendant functioned normally
in society and, while incarcerated the Defendant has shown
no adaptive deficits. Franqui has failed to prove, by clear
and convincing evidence, any concurrent deficits that would
satisfy the third prong of the intellectual disability test.”
Competent substantial evidence supports the circuit court's
conclusions as to all three prongs of the intellectual disability
analysis.
Third, we reject Franqui's claim that he is entitled to relief
under Moore v. Texas, ––– U.S. ––––, 137 S. Ct. 1039,
197 L.Ed.2d 416 (2017). In evaluating whether Franqui had
significantly subaverage intellectual functioning, the circuit
court accounted for the SEM and concluded that Franqui's

lowest IQ score was a 71. Despite finding that Franqui
did not fall “within the clinically established range for
intellectual-functioning deficits,” 137 S. Ct. at 1050, the trial
court considered other evidence of intellectual disability and
evaluated the second and third prongs of the intellectual
disability analysis.

II. Hurst v. Florida and Hurst v. State
Franqui also argues that he is entitled to relief pursuant
to Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193
L.Ed.2d 504 (2016), and Hurst v. State, 202 So. 3d 40
(Fla. 2016), receded from in part by State v. Poole, 45
Fla. L. Weekly S41, ––– So.3d ––––, 2020 WL 370302
(Fla. Jan. 23, 2020), clarified, 45 Fla. L. Weekly S121,
––– So.3d ––––, 2020 WL 1592953 (Fla. Apr. 2, 2020).
However, neither case provides a basis for relief because
in each of Franqui's cases, a jury unanimously found the
existence of an aggravating factor beyond a reasonable doubt.
See Poole, 45 Fla. L. Weekly at S48, ––– So.3d at ––––,
2020 WL 370302 (“reced[ing] from Hurst v. State except
to the extent it requires a jury unanimously to find the
existence of a statutory aggravating circumstance beyond a
reasonable doubt”); see also *156 McKinney v. Arizona,
––– U.S. ––––, 140 S. Ct. 702, 707, 206 L.Ed.2d 69 (2020)
(stating that under Hurst v. Florida, “a jury must find the
aggravating circumstance that makes the defendant death
eligible,” but a jury “is not constitutionally required to weigh
the aggravating and mitigating circumstances or to make the
ultimate sentencing decision within the relevant sentencing
range”). In the Hialeah case, Franqui was also convicted
of attempted robbery, which was found as an aggravating
factor. In the North Miami case, Franqui was also convicted
of robbery, which was also found as an aggravating factor.
These findings satisfy the requirements of Hurst v. Florida
and Hurst v. State.
Moreover, Franqui's argument that Hurst v. Florida compels
a jury determination of intellectual disability is without
merit. Under Florida law, both the statute and the rule
governing intellectual disability in capital cases provide that
the determination shall be made by a judge, not a jury. See §
921.137, Fla. Stat. (2017); Fla. R. Crim. P. 3.203(e). Further,
intellectual disability is a categorical bar to execution, and
Hurst v. Florida does not address findings that render a
defendant ineligible to be executed.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 301 So.3d 152 (2020)
45 Fla. L. Weekly S132

For the foregoing reasons, we affirm the denial of Franqui's
claim of intellectual disability.
It is so ordered.

POLSTON, LAWSON, and MUÑIZ, JJ., concur.
CANADY, C.J., concurs in result with an opinion.
LABARGA, J., concurs in result with an opinion.
CANADY, C.J., concurring in result.
I agree that the decision of the circuit court should be
affirmed. But I would reject the intellectual disability claim on
the ground that Hall v. Florida, 572 U.S. 701, 134 S.Ct. 1986,
188 L.Ed.2d 1007 (2014), should not be given retroactive
effect. See Walls v. State, 213 So. 3d 340, 350-52 (Fla. 2016)
(Canady, J., dissenting).
LABARGA, J., concurring in result.
I agree that the circuit court did not err in denying Franqui's
intellectual disability claim. I also agree with the denial
of Franqui's Hurst-related claims because this Court held
End of Document

that Hurst v. Florida1 and Hurst v. State2 do not apply
retroactively to cases where the defendant's death sentence
was final when Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428,
153 L.Ed.2d 556 (2002), was decided. See Hitchcock v. State,
226 So. 3d 216, 217 (Fla. 2017).
1
2

Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616, 193
L.Ed.2d 504 (2016).
Hurst v. State, 202 So. 3d 40 (Fla. 2016), receded from in
part by State v. Poole, 45 Fla. L. Weekly S41, ––– So.3d
––––, 2020 WL 370302 (Fla. Jan. 23, 2020).

However, rather than rely on Hitchcock, the majority relies
on State v. Poole, 45 Fla. L. Weekly S41, ––– So.3d ––––,
2020 WL 370302 (Fla. Jan. 23, 2020), clarified, 45 Fla. L.
Weekly S121, ––– So.3d ––––, 2020 WL 1592953 (Fla. Apr.
2, 2020), a wrongfully decided opinion to which I strenuously
dissented. Because I conclude that the denial of Hurst relief
in this case is correctly based on Hitchcock and not Poole, I
can only concur in the result.
All Citations
301 So.3d 152, 45 Fla. L. Weekly S132
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

APPENDIX B

Supreme Court of Florida
THURSDAY, SEPTEMBER 17, 2020
CASE NO.: SC19-203
Lower Tribunal No(s).:
131992CF002141B000XX;
131992CF006089B000XX
LEONARDO FRANQUI
Appellant(s)

vs.

STATE OF FLORIDA
Appellee(s)

Appellant’s Motion for Rehearing is hereby denied.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUÑIZ, JJ.,
concur.
COURIEL and GROSSHANS, JJ., did not participate.
A True Copy
Test:

kc
Served:
MARTIN J. MCCLAIN
TODD G. SCHER
LISA-MARIE LERNER
HON. HARVEY RUVIN, CLERK
HON. ELLEN SUE VENZER
GAIL LEVINE
HON. BERTILA ANA SOTO, CHIEF JUDGE

APPENDIX C

Franqui v. State, 211 So.3d 1026 (2017)

APPENDIX D

42 Fla. L. Weekly S29

211 So.3d 1026
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
Leonardo Franqui, Appellant,
v.
State of Florida, Appellee.
No. SC15–1441
|
No. SC15–1630
|
January 26, 2017
Synopsis
Background: In first case, after conviction and death
sentence for capital murder were affirmed on direct
appeal, 699 So.2d 1312, death-sentenced defendant filed
motion for postconviction relief, asserting claim that he
was intellectually disabled. The Circuit Court, MiamiDade County, denied relief, and defendant appealed. The
Supreme Court, 59 So.3d 82, affirmed. In separate case,
after conviction and death sentence for capital murder of
police officer were affirmed on direct appeal, defendant filed
separate motion for postconviction relief, again based on
claim of intellectual disability. The Circuit Court denied
relief, and defendant appealed. The Supreme Court, 118 So.3d
807, affirmed. Defendant then filed successive motions for
postconviction relief, contending that prior motions were
denied under standard in Cherry v. State, 959 So.2d 702,
which was subsequently held unconstitutional in Hall v.
Florida, 134 S.Ct. 1986. The Circuit Court Stanford Blake,
J., denied motions, and defendant appealed.

on consolidated appeal, the Supreme Court held that
evidentiary hearing was required to determine whether
death-sentenced defendant was intellectually disabled under
standard articulated in Hall v. Florida, 134 S.Ct. 1986.
Reversed and remanded.

*1027 Appeals from the Circuit Court in and for
Miami–Dade County, Stanford Blake, Judge–Case Nos.
131992CF006089B000XX & 131992CF002141B000XX
Attorneys and Law Firms
Todd Gerald Scher of the Law Office of Todd G. Scher, P.L.,
Dania Beach, Florida; and Martin J. McClain of McClain &
McDermott, P.A., Wilton Manors, Florida, for Appellant
Pamela Jo Bondi, Attorney General, Tallahassee, Florida,
and Melissa Jean Roca, Assistant Attorney General, Miami,
Florida, for Appellee
Opinion
PER CURIAM.
In these consolidated appeals, Leonardo Franqui challenges
the summary denial of his successive motions to vacate
judgments of conviction and sentence under Florida Rule
of Criminal Procedure 3.851. This Court has jurisdiction
pursuant to article V, section 3(b)(1), of the Florida
Constitution. Franqui contends he is entitled to an evidentiary
hearing on his claim of intellectual disability1 pursuant to the
decision of the United States Supreme Court in Hall v. Florida,
––– U.S. ––––, 134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014). For
the reasons discussed below, we agree and remand both cases
to the circuit court for a single evidentiary hearing.2
1

2

The term originally used in these proceedings was
“mentally retarded.” This terminology has been changed
to “intellectually disabled,” as recognized in the fifth
edition of the Diagnostic and Statistical Manual of
Mental Disorders (DSM). Both the Florida Statutes and
the Florida Rules of Criminal Procedure have been
modified to conform to the change in terminology.
Accordingly, throughout this opinion, we use the term
“intellectually disabled.”
Franqui also asserts that he is entitled to relief from
his death sentences based upon the decisions in Hurst
v. Florida, ––– U.S. ––––, 136 S.Ct. 616, 193 L.Ed.2d
504 (2016), and Hurst v. State, 202 So.3d 40 (Fla.
2016). Because we are remanding Franqui's cases for an
evidentiary hearing on intellectual disability, we decline
to address this claim at the present time.

Lewis, Canady, and Polston, JJ., dissented.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 211 So.3d 1026 (2017)
42 Fla. L. Weekly S29

FACTS AND PROCEDURAL BACKGROUND
Franqui was sentenced to death for the 1991 murder of Raul
Lopez. See Franqui v. State, 699 So.2d 1312, 1316 (Fla. 1997)
(the Hialeah case). Franqui was separately sentenced to death
for the 1992 murder of law enforcement officer Steven Bauer.
See Franqui v. State, 804 So.2d 1185, 1190–91 (Fla. 2001)
(the North Miami case).3 We affirmed both sentences. See
Franqui, 699 So.2d at 1329; Franqui, 804 So.2d at 1199.
3

For ease of understanding, we refer to each case by the
location where the murder occurred. The Hialeah case is
the subject of case number SC15–1441, and the North
Miami case is the subject of case number SC15–1630.

The Hialeah Case
During the initial postconviction proceedings in the Hialeah
case, Franqui alleged in a supplement that he was
intellectually disabled and, therefore, could not be executed
pursuant to Atkins v. Virginia, 536 U.S. 304, 122 S.Ct.
2242, 153 L.Ed.2d 335 (2002). See Franqui v. State, 59
So.3d 82, 89–90 (Fla. 2011). After the circuit court denied
postconviction relief, Franqui appealed; however, because the
lower court had failed to rule upon the intellectual disability
claim, this Court relinquished jurisdiction so that it could
be addressed. *1028 See id. at 90. Thereafter, the circuit
court summarily denied the claim. See id. After the case was
returned, this Court reversed the summary denial and again
relinquished jurisdiction with directions that an evidentiary
hearing be held. See Franqui v. State, 14 So.3d 238, 239
(Fla. 2009). We directed the lower tribunal to consider the
requirements delineated in Cherry v. State, 959 So.2d 702
(Fla. 2007), for an intellectual disability determination under
the applicable statute, which provided:
As used in this section, the term “mental retardation” means
significantly subaverage general intellectual functioning
existing concurrently with deficits in adaptive behavior
and manifested during the period from conception to age
18. The term “significantly subaverage general intellectual
functioning,” for the purpose of this section, means
performance that is two or more standard deviations from
the mean score on a standardized intelligence test specified
in the rules of the Agency for Persons with Disabilities. The
term “adaptive behavior,” for the purpose of this definition,
means the effectiveness or degree with which an individual
meets the standards of personal independence and social

responsibility expected of his or her age, cultural group,
and community.
§ 921.137(1), Fla. Stat. (2009). Based upon this language, we
explained that
[The defendant] must establish that he has significantly
subaverage general intellectual functioning. If significantly
subaverage general intellectual functioning is established,
[the defendant] must also establish that this significantly
subaverage general intellectual functioning exists with
deficits in adaptive behavior. Finally, he must establish
that the significantly subaverage general intellectual
functioning and deficits in adaptive behavior manifested
before the age of eighteen.
Franqui, 14 So.3d at 239 (alterations in original) (quoting
Cherry, 959 So.2d at 711). In Cherry, 959 So.2d at 712–13,
this Court held that a strict cutoff IQ score of 70 is required for
a defendant to establish the significantly subaverage general
intellectual functioning prong of intellectual disability. Under
Cherry, where a defendant could not establish that he has an
IQ of 70 or below, the court need not consider the remaining
two prongs of the determination. See id. at 714.
Upon relinquishment, the circuit court appointed Dr. Enrique
Suarez to evaluate Franqui for intellectual disability. Franqui
subsequently notified the court that in 2003, Dr. Trudy
Block–Garfield had conducted testing on Franqui at the
request of Franqui's prior collateral counsel. She determined
that Franqui's full-scale IQ score on the Wechsler Adult
Intelligence Scale—Third Edition (WAIS–III) was 75, and
his composite score on the Stanford–Binet Intelligence Scale
was 76. According to the report of Dr. Block–Garfield, “the
DSM–IV does not consider an IQ of 75 as being in the
mentally retarded range, rather it is in the Borderline range of
functioning.” In Dr. Block–Garfield's opinion, it was highly
likely that Franqui's true IQ score fell between 71 and 80. Her
report also touched upon adaptive behavior:
Apart from actual IQ, there is also an adaptive level
of functioning that must be considered. Mr. Franqui's
functioning at the time of his arrest was certainly
somewhat impaired. He had difficulties in maintaining a
job, but the likelihood that this was due to an inability
to function is somewhat limited. Rather this may have
been attributable to his immaturity and general impulsive
behavior. Certainly, he was in some fashion supporting a
family which could not be accomplished by an individual
who is mentally retarded. Immaturity was a factor *1029
and this still seems to be the case to some extent today.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 211 So.3d 1026 (2017)
42 Fla. L. Weekly S29

Dr. Suarez's testing revealed a full-scale IQ score of 75
on the WAIS–IV. However, Dr. Suarez administered five
symptom validity tests to determine if Franqui was giving
his best efforts. He concluded that Franqui's scores indicated
malingering with the intent to perform extremely poorly on
the tests administered and strongly suggested that the score
on the WAIS–IV underestimated Franqui's actual abilities.
Franqui filed a motion asking the circuit court to declare
unconstitutional this Court's interpretation in Cherry of
intellectual disability on the basis that it violates Atkins. In the
motion, he acknowledged that the circuit court was “bound
by the Florida Supreme Court's decision in Cherry and that,
under the analysis of Cherry, he cannot meet the first prong
of the mental retardation test as a matter of law.” He further
recognized that without a declaration of unconstitutionality,
the circuit court would be required to deny his claim under
Cherry.
During a status hearing, counsel for Franqui stated that
while experts could testify on the adaptive deficits prong
of intellectual disability, “if you don't meet [the IQ] prong,
that's the end of the story, that's where we find ourselves
now.” The circuit court denied Franqui's motion to declare
the Court's interpretation in Cherry of intellectual disability
unconstitutional. During the evidentiary hearing, the parties
stipulated into evidence the reports of Dr. Block–Garfield and
Dr. Suarez and also stipulated to the fact that if these experts
were called to testify, they would testify consistently with
the contents of their reports. The circuit court subsequently
denied Franqui's Atkins claim.
Upon return of the case, Franqui asked this Court to revisit the
decision in Cherry and also that of Nixon v. State, 2 So.3d 137
(Fla. 2009), which reached the same conclusion as Cherry on
the strict cutoff IQ score of 70. See Franqui, 59 So.3d at 92.
We affirmed the denial of the intellectual disability claim and
rejected Franqui's assertion that our interpretation of Atkins
was unconstitutional. See id. at 94.

The North Miami Case
In a successive postconviction motion filed in the North
Miami case, Franqui similarly contended that his death
sentence violates Atkins. Franqui asserted, in part, that Dr.
Jethro Toomer testified during the trial in the Hialeah case that
Franqui was intellectually disabled based upon an IQ score of
less than 60.4 The State attached to its response to the motion

the evaluations of Dr. Block–Garfield and Dr. Suarez from the
Hialeah case. After conducting a case management hearing,
the circuit court summarily denied the successive motion. The
court found that the Atkins claim was time-barred, and also
that the issue of intellectual disability had been litigated and
resolved adversely to Franqui in the Hialeah case. As to the
latter conclusion, the circuit court stated that “[the] Defendant
cannot be mentally retarded in one case and not in the other,
as that would defy the definition of mental retardation.”
4

Dr. Toomer also administered to Franqui the WAIS–
Revised in 1993, and Franqui's full-scale IQ score on that
test was 83. See Franqui, 59 So.3d at 91.

On appeal, this Court affirmed the denial of Franqui's
intellectual disability claim, stating:
[T]he only IQ tests that are acceptable for purposes of
proving mental retardation are the Wechsler Intelligence
Scale and the Stanford–Binet Intelligence Scale. See §
921.137(1), Fla. Stat.; Fla. R. Crim. P. 3.203(b); *1030
Fla. Admin. Code 65G–4.011. Here, Franqui alleged that
his IQ score was under 70 based on a report prepared
in 1993, but the test utilized to measure his IQ was
not the Wechsler Intelligence Scale or the Stanford–Binet
Intelligence Scale. His scores on the acceptable IQ tests
were above 70. See Franqui, 59 So.3d at 92 (finding, based
on the same evidence presented here, that the circuit court
had competent, substantial evidence—two separate doctors
found Franqui's IQ was above 75 on the rule-approved
psychological examinations—to find that Franqui is not
mentally retarded). In addition, he did not plead whether
the mental retardation manifested before he was 18 years of
age. Thus, Franqui cannot demonstrate that he is mentally
retarded under Florida law.
Franqui v. State, 118 So.3d 807, 2013 WL 2211675 *2 (Fla.
2013).

The Present Cases
In 2014, the United States Supreme Court held that this
Court's interpretation in Cherry of Florida's intellectual
disability statute was unconstitutional because it created
an unacceptable risk that intellectually disabled individuals
would be executed. See Hall, 134 S.Ct. at 1990, 1994. The
Supreme Court held that the standard error of measurement
(SEM) must be taken into account in determining whether an
individual meets the first prong of intellectual disability. See
id. at 2001 (“[I]n using these scores to assess a defendant's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 211 So.3d 1026 (2017)
42 Fla. L. Weekly S29

eligibility for the death penalty, a State must afford these test
scores the same studied skepticism that those who design and
use the tests do, and understand that an IQ test score represents
a range rather than a fixed number.”). The Supreme Court
further noted that a person with an IQ score over 70 may
have such severe adaptive deficits that his actual functioning
is comparable to someone with a lower IQ score. See id.
at 2001. Therefore, the Supreme Court concluded that the
determination of intellectual disability must be a “conjunctive
and interrelated assessment” and ultimately held that where
a defendant's IQ score is 75 or below, he must be given
the opportunity to present evidence of intellectual disability,
“including deficits in adaptive functioning over his lifetime.”
Id.
Franqui filed successive motions for postconviction relief in
his capital cases contending that this Court's prior rejections
of his claim were based upon Cherry, an interpretation of
the intellectual disability statute which the Supreme Court
found unconstitutional in Hall. Franqui asserted that he was
entitled to an additional evidentiary hearing on his claim. As
previously discussed, the circuit court summarily denied both
motions.5 In the Hialeah case, the court concluded that Hall
has “no effect on the individuals who were previously found
not to be ... intellectually disabled[ ] due to a lack of deficits in
adaptive functioning.” The court noted that, even if Franqui's
IQ score satisfied the first prong of intellectual disability after
taking the SEM into account, Dr. Block–Garfield's report did
not find deficits in adaptive functioning. The circuit court then
stated:
His prior motion was denied by this court for failure to
meet any of the prongs. IQ was only one of [the] factors
considered, as noted by the prior order. Defendant had a
hearing and an opportunity to present evidence on all 3
prongs. His own expert did not find deficits in adaptive
functioning, as he supported his family. Defendant also
failed to meet the third prong. He is not entitled to another
evidentiary hearing.
In the North Miami case, the circuit court concluded that Hall
did not create a new right to bring a claim of intellectual
disability. *1031 The court also held that Franqui's motion
was time-barred. The court attached to its denial order the
report of Dr. Block–Garfield from the Hialeah case.
5

The same judge presided over both cases.

These appeals follow.

ANALYSIS
“Because a postconviction court's decision whether to grant
an evidentiary hearing on a rule 3.851 motion is ultimately
based on written materials before the court, its ruling is
tantamount to a pure question of law, subject to de novo
review.” Marek v. State, 8 So.3d 1123, 1127 (Fla. 2009). As
a preliminary matter, in Walls v. State, 41 Fla. L. Weekly
S466 (Fla. Oct. 20, 2016), we held that the Supreme Court's
decision in Hall is retroactive. Therefore, Hall is applicable
to Franqui. Accordingly, at issue in these cases is whether
the circuit court should have granted Franqui an evidentiary
hearing on his intellectual disability claim based upon the
holding in Hall that where a defendant's IQ score is 75
or below after taking into account the SEM, he must be
afforded the opportunity to present evidence of intellectual
disability, “including deficits in adaptive functioning over
his lifetime.” 134 S.Ct. at 2001. See also Oats v. State, 181
So.3d 457, 467–68 (Fla. 2015) (noting that pursuant to Hall,
“courts must consider all three prongs in determining an
intellectual disability, as opposed to relying on just one factor
as dispositive ... [B]ecause these factors are interdependent,
if one of the prongs is relatively less strong, a finding of
intellectual disability may still be warranted based on the
strength of other prongs.”).
In the Hialeah case, Franqui obtained a range of full-scale
IQ scores from qualifying tests. Those scores are: 75 on
the WAIS–IV conducted by Dr. Suarez in 2009, 75 and
76 on the WAIS–III and the Stanford–Binet conducted by
Dr. Block–Garfield in 2003, and 83 on the WAIS–Revised
conducted by Dr. Toomer in 1993. It is not disputed that
during his initial postconviction proceedings in the Hialeah
case, Franqui received an evidentiary hearing on his claim of
intellectual disability, but he asserts that an additional hearing
is required so that the claim can be reviewed within the
parameters of Hall and in light of the fact that Cherry was
abrogated in that decision. We agree.
The rationale for granting a second evidentiary hearing is
articulated in Walls:
[I]t is clear that although Walls has had an earlier
evidentiary hearing as to intellectual disability and was
allowed to present evidence of all three prongs of the test,
he did not receive the type of holistic review to which he
is now entitled. Also, Walls' prior hearing was conducted
under standards he could not meet because he did not have

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 211 So.3d 1026 (2017)
42 Fla. L. Weekly S29

an IQ score below 70—a fact which may have affected
his presentation of evidence at the hearing. Because Walls'
prior evidentiary hearing was directed toward satisfying
the former definition of intellectual disability and was
reviewed by the circuit court with the former IQ score
cutoff rule in mind, we remand for the circuit court to
conduct a new evidentiary hearing as to Walls' claim of
intellectual disability.
41 Fla. L. Weekly at S469 (emphasis added). In Franqui, 14
So.3d at 239, we specifically instructed the circuit court in
the Hialeah case to hold an evidentiary hearing pursuant to
Cherry, which implemented a strict cutoff IQ score of 70 and
also held that if the first prong of intellectual disability was not
satisfied, the second and third prongs need not be addressed.
See Cherry, 959 So.2d at 713–14.
It appears that during the evidentiary hearing, Franqui may
have significantly limited his presentation because he knew
that he could not meet the first prong of intellectual disability
due to the fact that none of his scores on the approved tests
*1032 was 70 or below. Counsel for Franqui articulated the
belief that reaching the second and third prongs of intellectual
disability would be futile because of Cherry. As previously
discussed, counsel stated that while experts could testify with
regard to the adaptive deficits prong, “if you don't meet [the
IQ] prong, that's the end of the story, that's where we find
ourselves now.” Thus, it appears that Franqui did not offer as
complete a presentation on the second and third prongs of the
intellectual disability determination as he might have under
the standard articulated in Hall.
Further, the circuit court's discussion of the adaptive deficits
prong in its denial order was very brief and relied on Dr.
Block–Garfield's discussion of adaptive deficits, which was
also very brief:
Dr. Block–Garfield's report also states that while his
functioning at the time of arrest was impaired, it was likely
End of Document

due to the Defendant's immaturity and impulsive behavior.
She further states that: “Certainly, he was in some fashion
supporting a family which could not be accomplished by
an individual who is mentally retarded.”
Because the circuit court was aware that pursuant to Cherry,
Franqui's intellectual disability claim failed because none of
his IQ scores on the WAIS and Stanford–Binet tests was
below 70, the circuit court may have determined that it
was unnecessary to consider or discuss the second and third
prongs in detail. If this is the case, then Franqui did not
receive the “holistic” evaluation of his claim that he is entitled
to under Hall. Requiring the circuit court to hold a second
evidentiary hearing will afford Franqui a full opportunity
to present evidence in support of his intellectual disability
claims.

CONCLUSION
Based upon the foregoing, we reverse the circuit court's
summary denials in the Hialeah and North Miami cases and
remand for the court to conduct a single evidentiary hearing
on Franqui's claims of intellectual disability.6
6

Counsel for Franqui agree that only one evidentiary
hearing is necessary to resolve this claim in both cases.

It is so ordered.

LABARGA, C.J., and PARIENTE, and QUINCE, JJ., and
PERRY, Senior Justice, concur.
LEWIS, CANADY, and POLSTON, JJ., dissent.
All Citations
211 So.3d 1026, 42 Fla. L. Weekly S29

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 118 So.3d 807 (2013)

APPENDIX E

118 So.3d 807 (Table)
Unpublished Disposition
(The decision of the Supreme Court of
Florida is referenced in the Southern
Reporter in a table captioned ‘Florida
Decisions Without Published Opinions.’)
Supreme Court of Florida.

Leonardo FRANQUI, Appellant(s)
v.
STATE of Florida, Appellee(s).
No. SC12–182.
|
April 9, 2013.
|
Rehearing Denied July 3, 2013.
Opinion
*1 Leonardo Franqui, a prisoner under sentence of death,
appeals the circuit court's order summarily denying a
successive motion for postconviction relief, which was filed
pursuant to Florida Rule of Criminal Procedure 3.851.
Because the order concerns postconviction relief from a
sentence of death, this Court has jurisdiction of the appeal
under article V, section 3(b)(1), of the Florida Constitution.
On appeal, Franqui contends that: (1) his sentence of death
violates the Sixth and Eighth Amendments under Porter
v. McCollum, 558 U.S. 30, 130 S.Ct. 447, 175 L.Ed.2d
398 (2009), and the failure to apply Porter retroactively is
arbitrary and violates Furman v. Georgia, 408 U.S. 238,
92 S.Ct. 2726, 33 L.Ed.2d 346 (1972), and the Fourteenth
Amendment; (2) the State withheld Brady v. Maryland, 373
U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963), or Giglio
v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d
104 (1972), material or, alternatively, Franqui discovered new
evidence under Jones v. State, 591 So.2d 911 (Fla.1991),
which would have reduced the weight of the prior crime
of violence aggravating circumstance; and (3) the circuit
court erred in summarily denying his mental retardation claim
under Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242, 153
L.Ed.2d 335 (2002).
We affirm the summary denial of Franqui's claim that Porter
is retroactive because this Court decided this precise issue
in Walton v. State, 77 So.3d 639 (Fla.2011), holding that

Porter was not retroactive. Although Franqui argues that this
Court incorrectly decided Walton, this Court is not persuaded.
Franqui also argues that this Court's refusal to apply the
benefit of the “evolutionary refinement” of Porter to his
case, though Porter received that same benefit, is arbitrary
and a violation of due process pursuant to Furman. This
Court, however, stated in Walton that “Porter involved a mere
application and evolutionary refinement and development of
the Strickland analysis, i.e., it addressed a misapplication of
Strickland.” Walton, 77 So.3d at 644. Thus, it is not a violation
of due process and unconstitutionally arbitrary not to apply
Porter to Franqui's claim of ineffective assistance of counsel.
As to his second claim, Franqui argues that he is entitled to
an evidentiary hearing based on newly discovered evidence.
Specifically, Franqui argues that Pablo Abreu, a codefendant
in a Hialeah murder involving Franqui and Pablo San Martin,
see Franqui v. State, 59 So.3d 82, 86 (Fla.2011), signed
an affidavit and provided collateral testimony in collateral
proceedings in San Martin's case which established that the
State did not disclose favorable information in violation of
Brady, or that the State allowed Abreu to provide false
or misleading testimony to go uncorrected in violation of
Giglio. This claim was untimely and thus procedurally barred.
See Fla. R.Crim. P. 3.851(d)(2)(A) (requiring postconviction
motions to be filed within one year after the judgment
and sentence become final unless the facts on which the
claim are predicated were unknown to the movant or the
movant's attorney and could not have been ascertained by the
exercise of due diligence). To be considered timely filed as
newly discovered evidence, Franqui's successive motion was
required to have been filed within one year of the date upon
which the claim became discoverable through due diligence.
See Lukehart v. State, 103 So.3d 134, 136 (Fla.2012). Abreu's
affidavit was executed on March 29, 2000, and he testified in
the postconviction evidentiary hearing in the Hialeah case on
December 18, 2002. Franqui filed his claim on November 29,
2010, at least eight years after the claim became discoverable.
*2 Even assuming otherwise, we find no merit in Franqui's
claim because he cannot demonstrate that “the newly
discovered evidence would probably yield a less severe
sentence.” Schwab v. State, 969 So.2d 318, 325 (Fla.2007)
(citing Jones, 591 So.2d at 915). Franqui argues that the
Abreu affidavit and testimony somehow minimize the prior
violent felony aggravator in this case because the jury would
have heard it was not a premeditated murder. Franqui,
however, was still convicted of first-degree murder in the
Hialeah case. Thus, that conviction could still support

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 118 So.3d 807 (2013)

the prior violent felony aggravator. In addition, the prior
violent felony aggravator was also supported by Franqui's
convictions for multiple counts of armed robbery, aggravated
assault, and attempted armed robbery, and one count of
armed kidnapping. In Franqui v. State, 699 So.2d 1312, 1328
(Fla.1997), this Court noted that the trial court's reliance on
two attempted murder convictions, which this Court reversed,
in finding the statutory aggravator of prior conviction of a
felony involving the use or threat of violence was error. The
Court, however, held that “the error was harmless beyond
a reasonable doubt because the trial court also found that
Franqui had been previously convicted of the crimes of
aggravated assault and attempted armed robbery in one case
and armed robbery and armed kidnapping in another.” See
also Sims v. State, 602 So.2d 1253, 1258 (Fla.1992) (rejecting
Sims' claims that fundamental error occurred when the trial
court aggravated the penalty based on the common law
robbery conviction because Sims had committed a separate,
documented violent crime sufficient to support the trial court's
finding of aggravation). Accordingly, Franqui's successive
postconviction claim regarding newly discovered evidence is
without merit.
Finally, we affirm the circuit court's summary denial of
Franqui's Atkins claim because it is meritless. To establish
mental retardation as a bar to the imposition of the death
penalty, Franqui must prove each of the following three
elements: (1) significantly subaverage general intellectual
functioning as demonstrated by an adult IQ score of 70
or below; (2) concurrent deficits in adaptive functioning;
and (3) manifestation before the age of 18. See Cherry v.
End of Document

State, 959 So.2d 702, 711 (Fla.2007). Further, the only IQ
tests that are acceptable for purposes of proving mental
retardation are the Wechsler Intelligence Scale and the
Stanford–Binet Intelligence Scale. See § 921.137(1), Fla.
Stat.; Fla. R.Crim. P. 3.203(b); Fla. Admin. Code 65G–
4.011. Here, Franqui alleged that his IQ score was under
70 based on a report prepared in 1993, but the test utilized
to measure his IQ was not the Wechsler Intelligence Scale
or the Stanford–Binet Intelligence Scale. His scores on the
acceptable IQ tests were above 70. See Franqui, 59 So.3d
at 92 (finding, based on the same evidence presented here,
that the circuit court had competent, substantial evidence-two
separate doctors found Franqui's IQ was above 75 on the ruleapproved psychological examinations-to find that Franqui is
not mentally retarded). In addition, he did not plead whether
the mental retardation manifested before he was 18 years of
age. Thus, Franqui cannot demonstrate that he is mentally
retarded under Florida law.
*3 Accordingly, for the foregoing reasons we affirm the
circuit court's order summarily denying Franqui's claims.
It is so ordered.

POLSTON, C.J., and PARIENTE, LEWIS, QUINCE,
CANADY, LABARGA, and PERRY, JJ., concur.
All Citations
118 So.3d 807 (Table), 2013 WL 2211675

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 59 So.3d 82 (2011)

APPENDIX F

36 Fla. L. Weekly S1

59 So.3d 82
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
No. SC05–830.
|
Jan. 6, 2011.
|
Rehearing Denied April 11, 2011.
Synopsis
Background: Defendant, who had been convicted of firstdegree murder and sentenced to death, filed a petition for
post-conviction relief. The Circuit Court, Dade County,
Paul Lawrence Backman, J., denied the petition. Defendant
appealed.

Holdings: The Supreme Court held that:
competent, substantial evidence supported determination that
defendant was not mentally retarded;
trial counsel's deficient performance in failing to object
during penalty phase closing arguments when the prosecutor
stated “The lawyers that are arguing here before you this
afternoon are the same lawyers in the other phase of the trial
who told you that their clients confessed to a crime they didn't
commit” did not prejudice defendant;
trial counsel's deficient performance in failing to object
during the penalty phase of capital murder trial when the
prosecutor made comments suggesting that mental mitigation
was make-believe or fantasy did not prejudice defendant;
trial counsel's failure to call defendant's wife to testify at the
hearing on the motion to suppress defendant's confession did
not prejudice defendant;
Any alleged conflict between accomplice's testimony during
the penalty phase of capital murder trial and accomplice's
testimony at the evidentiary hearing was insufficient to
establish a Brady violation; and

competent, substantial evidence supported the trial court's
finding that the prosecutor did not knowingly present false,
material testimony by accomplice.
Affirmed.
Attorneys and Law Firms
*86 Todd G. Scher, of Todd G. Scher, P.L., Miami Beach,
FL, for Appellant.
Pamela Jo Bondi, Attorney General, Tallahassee, FL, and
Sandra S. Jaggard, Assistant Attorney General, Miami, FL,
for Appellee.
Opinion
PER CURIAM.
Leonardo Franqui appeals an order of the circuit court
denying his motion to vacate his conviction of first-degree
murder and sentence of death filed under Florida Rule of
Criminal Procedure 3.850. We have jurisdiction under article
V, section 3(b)(1), Florida Constitution. For the reasons
expressed below, we affirm the circuit court's order denying
postconviction relief.

I. FACTS AND PROCEDURAL HISTORY
A. Background and the Direct Appeal Proceedings
Leonardo Franqui was convicted of the December 6, 1991,
murder of Raul Lopez in Medley, Florida. We affirmed
Franqui's conviction for the first-degree murder of Lopez and
the resulting death sentence in Franqui v. State, 699 So.2d
1312 (Fla.1997). Franqui now appeals the denial of his first
motion, as subsequently amended, for postconviction relief
filed in 1999 under rule 3.850. An evidentiary hearing was
held on two of the claims and relief was summarily denied on
the remaining claims.
The relevant circumstances of the crime and trial are set forth
in the Court's opinion on direct appeal as follows:
Leonardo Franqui and codefendants Pablo San Martin and
Pablo Abreu were charged with one count of first-degree
murder, two counts of attempted first-degree murder with
a firearm, one count of attempted robbery with a firearm,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

two counts of grand theft, and one count of unlawful
possession of a firearm while engaged in a criminal offense.
Prior to trial, codefendant Abreu negotiated a plea with the
State and subsequently testified against Franqui during the
penalty phase of the proceedings.
The following facts were established at the trial of Franqui
and San Martin. Danilo Cabanas, Sr., and his son, Danilo
Cabanas, Jr., operated a check-cashing business in Medley,
Florida. On Fridays, Cabanas Sr. would pick up cash *87
from his bank for the business. After Cabanas Sr. was
robbed during a bank trip, Cabanas Jr. and a friend, Raul
Lopez, regularly accompanied Cabanas Sr. to the bank. The
Cabanases were each armed with a 9mm handgun, and
Lopez was armed with a .32 caliber gun.
On Friday, December 6, 1991, the Cabanases and Lopez
drove in separate vehicles to the bank. Cabanas Sr.
withdrew about $25,000 in cash and returned to the
Chevrolet Blazer driven by his son. Lopez followed in his
Ford pickup truck. Shortly thereafter, the Cabanases were
cut off and “boxed in” at an intersection by two Chevrolet
Suburbans. Two occupants of the front Suburban, wearing
masks, got out and began shooting at the Cabanases. When
Cabanas Sr. returned fire, the assailants returned to their
vehicle and fled. Cabanas Jr. saw one person, also masked,
exit the rear Suburban.
Following the gunfight, Lopez was found outside his
vehicle with a bullet wound in his chest. He died at a
hospital shortly thereafter. One bullet hole was found in
the passenger door of Lopez's pickup. The Suburbans,
subsequently determined to have been stolen, were found
abandoned. Both Suburbans suffered bullet damage—one
was riddled with thirteen bullet holes. The Cabanases'
Blazer had ten bullet holes.
Franqui's confession was admitted at trial. When police
initially questioned Franqui, he denied any knowledge
of the Lopez shooting. However, when confronted with
photographs of the bank and the Suburbans, he confessed.
Franqui explained that he had learned from Fernando
Fernandez about the Cabanases' check cashing business
and that for three to five months he and his codefendants
had planned to rob the Cabanases. He described the use
of the stolen Suburbans, the firearms used, and other
details of the plan. Franqui admitted that he had a .357
or .38 revolver. Codefendant San Martin had a 9mm
semiautomatic, which at times jammed, and codefendant
Abreu had a Tech–9 9mm semiautomatic, which resembles

a small machine gun. Franqui stated that San Martin
and Abreu drove in front of the Cabanases and Franqui
pulled alongside them so they could not escape. Once the
gunfight began, Franqui claimed that the pickup rammed
the Cabanases' Blazer and Lopez opened fire. Franqui then
returned fire in Lopez's direction.
San Martin refused to sign a formal written statement
to police. However, San Martin orally confessed and, in
addition to relating his own role in the incident, detailed
Franqui's role in the planning and execution of the crime.
San Martin admitted initiating the robbery attempt and
shooting at the Blazer but not shooting at Lopez's pickup.
He placed Franqui in proximity to Lopez's pickup, although
he could not tell if Franqui had fired his gun during the
incident. San Martin initially claimed that the weapons
used in the crime were thrown off a Miami Beach bridge,
but subsequently stated that he had thrown the weapons
into a river near his home, where they were later recovered
by the police. San Martin did not testify at trial, but his
oral confession was admitted into evidence over Franqui's
objection.
Franqui, 699 So.2d at 1315–16. The jury found Franqui
guilty as charged and recommended death by a nine-to-three
vote. The trial court followed the jury's recommendation
after finding and weighing four aggravators against two
nonstatutory mitigators. The aggravators found by the trial
court were: (1) Franqui was previously convicted of prior
violent felonies; (2) the murder was committed during the
course *88 of an attempted robbery; merged with (3)
the murder was committed for pecuniary gain; and (4) the
murder was committed in a cold, calculated, and premeditated
manner. The court found no statutory mitigators, but found
two nonstatutory mitigating circumstances: (1) Franqui had
a poor family background and deprived childhood; and (2)
Franqui was a caring husband, father, brother, and provider.1
See Franqui, 699 So.2d at 1316.
1

Franqui was also sentenced to life imprisonment on
the two attempted murder charges, fifteen years for the
attempted robbery and second grand theft, and five years
for the first grand theft and unlawful firearm possession,
all sentences to run consecutively.

Franqui appealed his convictions and sentences to this Court.2
In the direct appeal, we held that although the trial court erred
in admitting codefendant San Martin's written confession
during the penalty phase of the trial, the error was harmless
in light of Franqui's own confession and other extensive
evidence of guilt. Id. at 1328. We reversed the two attempted

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

murder convictions on the authority of Valentine v. State, 688
So.2d 313 (Fla.1996) (citing State v. Gray, 654 So.2d 552
(Fla.1995) (holding that the crime of attempted felony murder

3

no longer existed in Florida)). Franqui, 699 So.2d at 1323.3
We affirmed the remaining convictions and sentences.
2

On direct appeal, Franqui raised four issues and six
subissues in his initial brief. He subsequently raised two
supplemental issues, which the Court also decided in
the direct appeal. The issues considered on direct appeal
were as follows: (1) the trial court abused its discretion in
failing to grant Franqui's motions for severance in light
of the introduction, at the joint trial, of his codefendant's
post-arrest confession which incriminated Franqui; (2)
the trial court erred in failing to exclude portions of
Franqui's robbery confession for which the State failed
to prove the corpus delicti; (3) the trial court abused
its discretion by prohibiting voir dire examination of
the jury as to specific mitigating circumstances and
in denying access to the jury questionnaire; (4) the
trial court erred in sentencing the defendant to death, a
disproportionate, cruel, and unusual punishment under
the Fifth, Sixth, Eighth, and Fourteenth amendments;
(4A) the trial court erred in finding the murder was
cold, calculated, and premeditated (CCP); (4B) the CCP
instruction given to the jury was unconstitutionally
vague, ambiguous, and misleading; (4C) the trial court
erred in failing to credit the nonstatutory mitigating
factors that Franqui had marginal, if not retarded,
intelligence and that he was brain-damaged, in rejecting
impaired capacity and age as statutory mitigating factors,
and in refusing to instruct the jury on the latter; (4D)
death is a disproportionate and unconstitutional penalty
in light of the circumstances of this case; (4E) the
trial court erred in prohibiting Franqui from informing
the jury of the court's power to impose consecutive
sentences and the possibility of lifelong imprisonment
as an alternative to death, as well as in failing to so
instruct the jury upon its own inquiry; (4F) the death
penalty is unconstitutional on its face and as applied to
Franqui under the Fifth, Sixth, Eighth, and Fourteenth
amendments, as well as the natural law; (supplemental
claim 1) the trial court erred in granting the State's
motion in limine and denying Franqui the right to crossexamine about the substance of an exculpatory statement
made after the confession that the State introduced in
its case-in-chief; and (supplemental claim 2) Franqui's
convictions on counts II and III must be reversed due to
the likelihood that they were for the nonexistent crime of
attempted felony murder.

The holding in State v. Gray was superseded by
enactment of a statute creating the offense of attempted
felony murder. We recently explained:
The Legislature in 1996, in response to our decision
in Gray, enacted section 782.051, which created the
offense of “Felony causing bodily injury.” See ch.
96–359, § 1, at 2052, Laws of Fla. In 1998, the
Legislature substantially rewrote section 782.051
and retitled it “Attempted felony murder.” See
ch. 98–204, § 12, at 1970, Laws of Fla. Thus,
attempted felony murder is specifically provided for
by statute.
Coicou v. State, 39 So.3d 237, 240 (Fla.2010).

*89 B. Postconviction Proceedings
On January 15, 1999, Franqui filed his initial rule 3.850
motion, which he amended on April 18, 2000, raising a total
of ten claims.4 After holding a Huff hearing5 on January
8, 2001, the court issued an order on January 7, 2002,
summarily denying all of Franqui's claims except the claim
pertaining to Abreu's penalty phase testimony, which was
presented by the State to support the CCP aggravator. The
Court allowed Franqui to participate in an evidentiary hearing
in codefendant San Martin's case with respect to two claims
raised by San Martin concerning the alleged recantation of
codefendant Abreu's penalty phase testimony. Prior to the
hearing, and after the Supreme Court issued its decisions
in Ring v. Arizona,6 and Atkins v. Virginia,7 Franqui filed a
supplement to *90 his motion on October 18, 2002, raising
a Ring claim and an Atkins claim.
4

Franqui raised the following claims in his rule 3.850
motion: (1) this Court must assess the cumulative impact
of all the new facts in this case whether they are
newly discovered, suppressed by the prosecution, or
ignored due to defense counsel's failings; (2) counsel's
failure to investigate and prepare mitigation and to call
experts at the penalty phase to testify as to Franqui's
mental health constituted ineffective assistance and
denied Franqui a fair trial under Ake v. Oklahoma,
470 U.S. 68, 105 S.Ct. 1087, 84 L.Ed.2d 53 (1985);
(3) counsel's failure to move for a change of venue
rendered Franqui's convictions materially unreliable, and
the court's failure to provide for such a change violated
his constitutional rights; (4) Franqui was deprived of his
right to adversarial testing and effective assistance of
counsel at the penalty phase, thus rendering his death
sentence unreliable and unconstitutional; (5) Franqui's
convictions are materially unreliable because counsel

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1
failed to present the testimony of Franqui's wife, Vivian
Gonzalez, at the hearing on the motion to suppress his
confession to support his claim of invocation of counsel
and at trial to testify to his condition during interrogation;
(6) Franqui's convictions and sentences are materially
unreliable because of counsel's failure to investigate
and the State's intentional failure to disclose material
concerning Abreu's testimony in violation of Franqui's
rights under Brady v. Maryland, 373 U.S. 83, 83 S.Ct.
1194, 10 L.Ed.2d 215 (1963), and the constitution, later
amended to include a claim under Giglio v. United States,
405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972), that
the prosecutor knowingly presented false testimony; (7)
Franqui was denied his federal and Florida constitutional
rights to effective assistance of counsel in pursuing his
postconviction remedies because of the rule prohibiting
his lawyers from interviewing jurors to determine if
constitutional error was present; (8) Franqui is being
denied his rights to due process and equal protection,
and cannot prepare an effective postconviction motion,
because access to the files and records pertaining to his
case in the possession of certain state agencies has been
withheld in violation of chapter 119, Florida Statutes; (9)
the jury was misled in the penalty phase by comments,
questions, and instructions that unconstitutionally and
inaccurately diluted the jury's sense of responsibility in
the sentencing process, and trial counsel was ineffective
for not properly objecting; and (10) Franqui's sentence
of death is premised on fundamental error because
the jury received inadequate guidance under Florida's
capital sentencing statute concerning the aggravating
circumstances to be considered, and trial counsel was
ineffective in failing to object to these errors.

5

6

7

Huff v. State, 622 So.2d 982, 983 (Fla.1993) (holding
that the judge must allow the attorneys the opportunity
to be heard on an initial 3.850 motion in a capital case
for the purpose of determining whether an evidentiary
hearing is required and to hear legal argument relating to
the motion).
Ring v. Arizona, 536 U.S. 584, 122 S.Ct. 2428, 153
L.Ed.2d 556 (2002) (holding that under the Sixth
Amendment right to trial by jury, aggravating factors that
operate as the functional equivalent of an element of a
charged offense must be found by a jury).
Atkins v. Virginia, 536 U.S. 304, 122 S.Ct. 2242,
153 L.Ed.2d 335 (2002) (holding that execution of
the mentally retarded is prohibited under the Eighth
Amendment to the United States Constitution). On
March 19, 2003, Franqui filed a supplement to his Atkins
claim.

At the evidentiary hearing held on December 18, 2002, Pablo
Abreu testified concerning the planning of the crime and
the timing of the decision to kill Lopez. After the hearing,
Franqui filed an additional supplement to his postconviction
motion pertaining to his Ring, Atkins, and Abreu claims. On
March 31, 2005, the circuit court denied the claims relating
to Abreu's testimony and also denied the Ring claim. Franqui
filed the present appeal, raising five claims. Because the
circuit court did not rule on the mental retardation claim,
we temporarily relinquished jurisdiction to the postconviction
court so it could rule on the Atkins claim. The mental
retardation claim was summarily denied on February 21,
2008.
On return to this Court from the relinquishment, oral
argument was held on March 12, 2009, and we again
temporarily relinquished jurisdiction to the circuit court
with directions to hold an evidentiary hearing on Franqui's
mental retardation claim. See Franqui v. State, 14 So.3d 238
(Fla.2009). At the evidentiary hearing held on September
17, 2009, the parties stipulated to introduction into evidence
of two expert psychological reports. On October 6, 2009,
the circuit court entered its order denying Franqui's mental
retardation claim. The case has now returned from the
relinquishment period for review and resolution of all pending
issues by this Court. As we explain below, the postconviction
claims presented in this appeal are without merit. Thus, we
affirm the trial court's denial of postconviction relief.

C. This Appeal
In this appeal, Franqui has presented the following claims:
(1) this Court's interpretation of mental retardation, as set
forth in Cherry v. State, 959 So.2d 702 (Fla.2007), and Nixon
v. State, 2 So.3d 137 (Fla.2009), mandating a cut-off IQ
score of 70 or below to meet the first prong of the test
for mental retardation in capital sentencing, is contrary to
Atkins v. Virginia and the Eighth Amendment to the United
States Constitution; (2) the circuit court erred in summarily
denying various claims of ineffective assistance of counsel for
failure to object to the prosecutor's improper, inflammatory,
and unduly prejudicial comments and arguments at the guilt
and penalty phases; (3) the court erred in summarily denying
Franqui's claim of ineffective assistance of counsel regarding
the failure to present available expert testimony at the penalty
phase; (4) the court erred in summarily denying Franqui's
claim of ineffective assistance of counsel for failure to present
the testimony of Franqui's wife at the suppression hearing

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

and at the guilt and penalty phases; and (5) the court erred in
denying Franqui's claim that he was entitled to a new penalty
phase due to recanted testimony of Pablo Abreu. We will
discuss each issue in turn.

II. ANALYSIS
A. Mental Retardation
After we relinquished jurisdiction for an evidentiary hearing
on Franqui's mental retardation claim, the State and Franqui
stipulated into evidence the expert reports prepared by
Dr. Trudy Block–Garfield and Dr. Enrique Suarez. Dr.
Block–Garfield, a licensed clinical psychologist specializing
in forensic psychology, evaluated Franqui in 2003. She
administered the Stanford–Binet Intelligence Scale Test–
Fourth Edition to Franqui, which indicated that he had a full
scale IQ of 76. This score does not indicate mental retardation,
but places Franqui in the borderline range of intelligence.
She also administered the Wechsler Adult Intelligence *91
Scale–Third Edition (WAIS–III), which produced a full
scale IQ score of 75. In addition, she was aware of a
1993 intelligence test administered by Dr. Jethro Toomer
—the Wechsler Adult Intelligence Scale–Revised—which
indicated Franqui's full scale IQ was 83. Dr. Block–Garfield
opined that Franqui's true IQ falls somewhere between 71 and
80 and that he is not mentally retarded.
On September 15, 2009, Dr. Suarez, a clinical and
forensic psychologist and neuropsychologist, issued a report
concerning his mental evaluation of Franqui. The report
resulted from two evaluation sessions held on August
31, 2009, and September 4, 2009. Franqui was given a
number of tests by Dr. Suarez, including the Wechsler Adult
Intelligence Scale–Fourth Edition (WAIS–IV) and the Test of
Nonverbal Intelligence–Third Edition (TONI–3). These tests
were administered for the purpose of evaluating Franqui for
mental retardation. Dr. Suarez found that under the WAIS–
IV, Franqui's full scale IQ is 75. Franqui was also given
the Minnesota Multiphasic Personality Inventory–Second
Edition (MMPI–2).
Dr. Suarez administered five symptom validity tests to
determine if Franqui was motivated to give his best effort
when taking the IQ tests. These tests included the: (1)
Structured Inventory of Malingered Symptomatology; (2)
Memory Fifteen Item Test; (3) Test of Memory Malingering;
(4) Dot Counting Test; and (5) Validity Indicator Profile. Dr.

Suarez concluded that Franqui's scores suggest he may have
been malingering with the intent to perform poorly on all the
tests administered. Because of this, Dr. Suarez opined that
the scores on the IQ tests probably underestimate Franqui's
actual abilities. Based on these findings, Dr. Suarez's report
concluded that Franqui is not mentally retarded. On October
6, 2009, the postconviction court entered its order denying
Franqui's supplemental claim of mental retardation. After
considering the stipulated evidence consisting of the experts'
reports submitted by Drs. Suarez and Block–Garfield, the
court found that under Florida law, Franqui does not meet the
test for mental retardation.
In order to establish mental retardation under current Florida
law and precedent, the defendant must satisfy a threeprong test for mental retardation. See § 921.137(1), Fla.
Stat. (2009); Fla. R.Crim. P. 3.203; Nixon v. State, 2
So.3d 137, 141 (Fla.2009); Cherry v. State, 959 So.2d 702,
711 (Fla.2007). We have “consistently interpreted section
921.137(1) as providing that a defendant may establish
mental retardation by demonstrating all three of the following
factors: (1) significantly subaverage general intellectual
functioning; (2) concurrent deficits in adaptive behavior; and
(3) manifestation of the condition before age eighteen. Thus,
the lack of proof on any one of these components of mental
retardation would result in the defendant not being found
to suffer from mental retardation.” Nixon, 2 So.3d at 142
(citations omitted). In Cherry, we held that the language of
section 921.137(1) is clear and unambiguous in mandating
a strict cut-off IQ score of two standard deviations from the
mean score, which is exactly 70. Cherry, 959 So.2d at 713.
The law is also established that where a defendant does not
meet the first prong, the court will not consider the other two
prongs. Id. at 714.
We review the circuit court's determination that a defendant
is not mentally retarded for competent, substantial evidence,
and we “do not ‘reweigh the evidence or second guess the
circuit court's findings as to the credibility of the witnesses.’
” Nixon, 2 So.3d at 141 (quoting *92 Brown v. State, 959
So.2d 146, 149 (Fla.2007)). The circuit court has discretion
to accept or reject expert testimony. Jones v. State, 966
So.2d 319, 327 (Fla.2007) (citing Evans v. State, 800 So.2d
182, 188 (Fla.2001)). “Trial judges have broad discretion
in considering unrebutted expert testimony; however, the
rejection of the expert testimony must have a rational
basis, such as conflict with other evidence, credibility or
impeachment of the witness, or other reasons.” Williams v.
State, 37 So.3d 187, 204 (Fla.2010). The circuit court's task

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

is to apply the law as set forth in section 921.137, Florida
Statutes, which provides for mental retardation proceedings
in capital cases; and the circuit court must also follow this
Court's precedent. Jones, 966 So.2d at 327. A defendant
who raises mental retardation as a bar to imposition of a
death sentence carries the burden to prove mental retardation
by clear and convincing evidence. See § 921.137(4), Fla.
Stat. (2009); Nixon, 2 So.3d at 145. Finally, the Court will
review the circuit court's legal conclusions de novo. Nixon,
2 So.3d at 141. Based on these authorities and the record
in this case, we conclude that the circuit court had before it
competent, substantial evidence to find that Franqui is not
mentally retarded.
Recognizing that Franqui's scores prohibit him from meeting
the current requirements of the test for mental retardation as
a bar to execution, Franqui's counsel argued below and now
argues on appeal that by imposing a strict cut-off IQ score of
70 for a finding of mental retardation, this Court has violated
the Eighth Amendment and failed to follow the United States
Supreme Court's decision in Atkins v. Virginia, 536 U.S. 304,
122 S.Ct. 2242, 153 L.Ed.2d 335 (2002). He asks the Court to
revisit Cherry and Nixon to determine if we have misapplied
the holding in Atkins by setting a bright-line, full scale IQ of
70 or below as the cut-off score in order to meet the first prong
of the three-prong test for mental retardation. He contends that
Atkins approved a wider range of IQ test results that can meet
the test for mental retardation. Therefore, the issue presented
is solely a question of law subject to de novo review. As
explained below, a reading of Atkins reveals that the Supreme
Court did not mandate a specific IQ score or range for a
finding of mental retardation in the capital sentencing process.

Atkins v. Virginia
In Atkins v. Virginia, the United States Supreme Court
overruled Penry v. Lynaugh, 492 U.S. 302, 109 S.Ct. 2934,

before 18 years of age. Id. at 308 n. 3, 122 S.Ct. 2242.
These same three prongs *93 constitute the test for mental
retardation under Florida law. The Supreme Court did note
that an IQ between 70 and 75 or lower is typically considered
the cut-off IQ score for the intellectual function prong of the
mental retardation definition. Id. n. 5. However, the Supreme
Court did not mandate an IQ range of between 70 and 75 for
a finding of mental retardation.
8

9

The AAMR has since changed its name to the
American Association of Intellectual and Developmental
Disabilities. It will continue to be referred to here as
AAMR.

The Supreme Court in Atkins recognized that “[n]ot all people
who claim to be mentally retarded will be so impaired as
to fall within the range of mentally retarded offenders about
whom there is a national consensus.” Atkins, 536 U.S. at 317,
122 S.Ct. 2242. In addition, the Supreme Court noted that the
statutory definitions for mental retardation that were already
in existence were not identical, but generally conformed to the
clinical definition provided by the AAMR and APA. Atkins,
536 U.S. at 317 n. 22, 122 S.Ct. 2242.10 Consequently, the
Supreme Court followed its approach in Ford v. Wainwright,
477 U.S. 399, 106 S.Ct. 2595, 91 L.Ed.2d 335 (1986),11 and
left to the states “the task of developing appropriate ways to
enforce the constitutional restriction upon [their] execution of
sentences.” Atkins, 536 U.S. at 317, 122 S.Ct. 2242 (quoting
Ford, 477 U.S. at 416–17, 106 S.Ct. 2595).
10

8

106 L.Ed.2d 256 (1989), and declared that the mentally
retarded must be excluded from execution. Atkins, 536
U.S. at 318, 122 S.Ct. 2242. In reaching its holding,
the Supreme Court discussed the definitions of mental
retardation promulgated by the American Association on
Mental Retardation (AAMR)9 and the American Psychiatric
Association (APA). The Supreme Court found the two
associations had similar definitions, defining the test for
mental retardation as having three prongs: (1) significantly
subaverage intellectual functioning; (2) limitations in
adaptive functioning; and (3) mental retardation manifested

Penry held that executing mentally retarded people
convicted of capital offenses is not categorically
prohibited by the Eighth Amendment. This holding was
abrogated in Atkins, when the Supreme Court held that
executions of the mentally retarded are cruel and unusual
punishments prohibited by the Eighth Amendment to the
federal constitution.

11

In footnote 22, the Supreme Court stated that “[t]he
statutory definitions of mental retardation are not
identical, but generally conform to the clinical definitions
set forth in n. 3, supra.” Atkins, 536 U.S. at 317 n.
22, 122 S.Ct. 2242. Footnote 3 notes that the APA and
AAMR have similar definitions of mental retardation
requiring proof of significantly subaverage intellectual
functioning, existing concurrently with limitations in two
or more areas of adaptive functioning, all manifesting
before age 18. Id. at 309 n. 3, 122 S.Ct. 2242.
Ford v. Wainwright involved insanity as a bar to the death
penalty.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

When Atkins was issued, Florida had already enacted its
statute prohibiting the execution of the mentally retarded.
§ 921.137, Fla. Stat. (2001). Section 921.137(1), Florida
Statutes (2009), which is almost identical to the 2001 version
of the statute, provides in pertinent part as follows:
921.137 Imposition of the death sentence upon a
defendant with mental retardation prohibited.—
(1) As used in this section, the term “mental retardation”
means significantly subaverage general intellectual
functioning existing concurrently with deficits in adaptive
behavior and manifested during the period from conception
to age 18. The term “significantly subaverage general
intellectual functioning,” for the purpose of this section,
means performance that is two or more standard deviations
from the mean score on a standardized intelligence test
specified by the Agency for Persons with Disabilities. The
term “adaptive behavior,” for the purpose of this definition,
means the effectiveness or degree with which an individual
meets the standards of personal independence and social
responsibility expected of his or her age, cultural group,
and community.

Cherry v. State
The proper interpretation of section 921.137(1) was raised in
Cherry v. State, 959 So.2d 702, 711 (Fla.2007), where the
question before the Court was whether section 921.137(1) and
rule 3.203 mandate a strict cut-off score of 70 or below on an
approved standardized test in order to establish significantly
subaverage intellectual functioning.12 Cherry, 959 So.2d at
712. *94 In his appeal, Cherry contended in pertinent part
that an IQ measurement is more appropriately expressed as a
range of scores rather than a concrete single number because
of the standard error of measurement (SEM). However, we
held in Cherry:
12

Cherry did not involve a claim that section 921.137 is
unconstitutional in how it defines mental retardation.
Instead, the claim sought clarification regarding Florida's
definition of subaverage intellectual functioning.

One standard deviation on the WAIS–III, the IQ test
administered in the instant case, is fifteen points, so two
standard deviations away from the mean of 100 is an
IQ score of 70. As pointed out by the circuit court, the
statute does not use the word approximate, nor does it

reference the SEM. Thus, the language of the statute and
the corresponding rule are clear. We defer to the plain
meaning of the statutes[.]
Id. at 712–13. This same holding was reiterated in Nixon,
which we discuss next.
Nixon v. State
In Nixon, the appellant raised several arguments challenging
this Court's decision in Cherry. The essence of the arguments
in Nixon, which are similar to the arguments Franqui makes in
this case, is that based on language in Atkins, a firm IQ cut-off
score of 70 or below is not the proper standard for determining
mental retardation. Nixon, 2 So.3d at 142. Nixon asserted,
as does Franqui, that the Supreme Court in Atkins noted a
consensus in the scientific community that a full scale IQ
falling within a range of 70 to 75 meets the first prong of the
test for mental retardation; therefore, Nixon contended, states
must recognize the higher cut-off IQ score of 75. Nixon, 2
So.3d at 142. We disagreed, reasoning that Atkins recognized
a difference of opinion among various sources as to who
should be classified as mentally retarded, and consequently
left to the states the task of developing appropriate ways
to enforce the constitutional restriction on imposition of the
death sentence on mentally retarded persons. Nixon, 2 So.3d
at 142.
Nixon further asserted that this Court's definition of mental
retardation violates both the United States and Florida
constitutions because Cherry's interpretation of section
921.137 is inconsistent with the constitutional bar on the
execution of mentally retarded persons. We found Nixon's
claim without merit based in part on an earlier finding by the
Court in Jones v. State, 966 So.2d 319, 326 (Fla.2007), that
Florida's definition of mental retardation is consistent with
the APA's diagnostic criteria for mental retardation. Nixon, 2
So.3d at 143.
Based on the broad authority given in Atkins to the states
to enact their own laws to determine who is mentally
retarded, without any requirement that the states adhere to
one definition over another, we deny Franqui's claim that our
interpretation of Atkins is infirm. Because the circuit court
had competent, substantial evidence to find that under current
Florida law Franqui is not mentally retarded, the order of the
circuit court denying Franqui's mental retardation claim is
affirmed.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

We turn next to Franqui's claim that his trial counsel was
ineffective during both the guilt phase and the penalty phase
of his trial.

B. Ineffective Assistance of Counsel Claims
Standard of Review
To establish a claim for ineffective assistance of trial counsel,
Franqui must meet both of the requirements set forth in
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984):
First, the defendant must show that counsel's performance
was deficient. This requires showing that counsel made
*95 errors so serious that counsel was not functioning
as the “counsel” guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show that the
deficient performance prejudiced the defense. This requires
showing that counsel's errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable.
Unless a defendant makes both showings, it cannot be
said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result
unreliable.
Id. at 687, 104 S.Ct. 2052. The prejudice prong is met only
if “there is a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would
have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id. at
694, 104 S.Ct. 2052; see also Porter v. McCollum, –––
U.S. ––––, 130 S.Ct. 447, 455–56, 175 L.Ed.2d 398 (2009)
(explaining that the Court does not require proof “ ‘that
counsel's deficient conduct more likely than not altered
the outcome’ of his penalty proceeding, but rather that he
establish ‘a probability sufficient to undermine confidence in
[that] outcome’ ”) (quoting Strickland, 466 U.S. at 693–94,
104 S.Ct. 2052).
In evaluating counsel's representation under Strickland,
there is a strong presumption that counsel's performance
was not ineffective. See Strickland, 466 U.S. at 689, 104
S.Ct. 2052 (“Judicial scrutiny of counsel's performance must
be highly deferential.”). The defendant must “overcome the
presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’ ” Id.
(quoting Michel v. Louisiana, 350 U.S. 91, 101, 76 S.Ct.
158, 100 L.Ed. 83 (1955)). Moreover, “[a] fair assessment

of attorney performance requires that every effort be made
to eliminate the distorting effects of hindsight, to reconstruct
the circumstances of counsel's challenged conduct, and to
evaluate the conduct from counsel's perspective at the time.”
Id. It is under these guiding principles that we review the
postconviction court's findings as to Franqui's ineffective
assistance of counsel claims. Because Franqui's claims of
ineffective assistance of counsel were summarily denied, we
also consider the standard of review that applies to denial of
postconviction evidentiary hearings.

Summary Denial of Evidentiary Hearing
A postconviction court's decision whether to grant an
evidentiary hearing on a rule 3.850 motion is ultimately based
on written materials before the court.13 Thus, its ruling is
tantamount to a pure question of law, subject to de novo
review. See Willacy v. State, 967 So.2d 131, 138 (Fla.2007)
(citing State v. Coney, 845 So.2d 120, 137 (Fla.2003)).
When reviewing a court's summary denial of a rule 3.850
motion or claim, the court must accept the movant's factual
allegations as true to the extent they are not refuted by the
record. Occhicone v. State, 768 So.2d 1037, 1041 (Fla.2000).
Generally, a defendant is entitled to an evidentiary hearing
on a rule 3.850 motion unless (1) the motion, files, and
records in the case conclusively show that the movant is
entitled to no relief, or (2) the motion or particular claim is
legally insufficient. See Freeman *96 v. State, 761 So.2d
1055, 1061 (Fla.2000). The defendant bears the burden to
establish a prima facie case based on a legally valid claim;
mere conclusory allegations are insufficient. Id. We now turn
to the specific claims of ineffective assistance of trial counsel
that Franqui raises in this appeal.
13

Franqui's amended rule 3.850 motion is governed by the
requirements applicable to rule 3.850 rather than Florida
Rule of Criminal Procedure 3.851 because the original
motion was filed before October 1, 2001, the effective
date of rule 3.851. See Rodriguez v. State, 39 So.3d 275,
283 n. 4 (Fla.2010).

1. Summary Denial of Ineffective Assistance of Counsel
Claims Pertaining to Prosecutorial Comment
Franqui alleged in his motion for postconviction relief that his
trial counsel was ineffective for failing to object to numerous
comments made by the prosecutor in both the guilt phase and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

the penalty phase of his trial. The trial court summarily denied
the claim, stating that “[t]he Defendant's allegations that the
prosecutor made improper comments throughout the guilt and
penalty phases of the trial could have or should have been
raised on direct appeal. This claim is procedurally barred.”
However, “claims of ineffective assistance of counsel are not
[generally] cognizable on direct appeal.” Eaglin v. State, 19
So.3d 935, 945 (Fla.2009) (citing Bruno v. State, 807 So.2d
55, 63 (Fla.2001)). In Bruno, we explained the distinction
between claims that are cognizable on direct appeal and
claims that are cognizable in postconviction:
Whereas the main question on direct appeal is whether
the trial court erred, the main question in a Strickland
claim is whether trial counsel was ineffective. Both claims
may arise from the same underlying facts, but the claims
themselves are distinct and—of necessity—have different
remedies: A claim of trial court error generally can be
raised on direct appeal but not in a rule 3.850 motion, and
a claim of ineffectiveness generally can be raised in a rule
3.850 motion but not on direct appeal.
Id. at 63 (footnotes omitted). Although we agree with
Franqui that his claims of ineffective assistance of counsel
relating to failure to object to prosecutorial comments are
not procedurally barred, and were properly raised in his
post-conviction motion, we find that his claims are without
merit.14
14

Several of Franqui's claims of improper prosecutorial
argument are, however, procedurally barred. Franqui
alleged that his counsel was ineffective for failing
to object when the prosecutor told the penalty phase
jury that if the aggravators outweigh the mitigators,
the jury had the “lawful legal duty” to recommend
the death penalty. This comment is clearly improper
because, as we have held, “[a] jury is neither compelled
nor required to recommend death where aggravating
factors outweigh mitigating factors.” Anderson v. State,
18 So.3d 501, 517 (Fla.2009) (quoting Cox v. State,
819 So.2d 705, 717 (Fla.2002)). Franqui's counsel did
lodge an objection to that comment and the issue could
have been raised on direct appeal. Because it was
not, the claim is now procedurally barred. Moreover,
prejudice cannot be shown where, as here, the jury
was properly instructed on this issue. See Anderson, 18
So.3d at 517–18. Similarly, trial counsel also objected
when the prosecutor commented in the penalty phase
about mitigation evidence that Franqui was not properly
disciplined as a child. The prosecutor argued, “I mean,
folks, everything is mitigating. You don't hit me, it's
mitigating. You hit me too much, it is mitigating.”

Because any claim of error as to this comment could
and should have been raised on direct appeal, it is also
procedurally barred in this postconviction proceeding.

As to the prosecutorial comments cited as improper in
both the guilt phase and penalty phase, we first note that
the amended motion filed by Franqui failed to establish
how these alleged instances of ineffective assistance of
counsel prejudiced him—mere conclusory allegations are
not sufficient. See Freeman v. State, 761 So.2d 1055, 1061
(Fla.2000). In addition, the majority of the prosecutorial
argument alleged to be improper was fair comment *97 on
the evidence or inferences arising from the evidence, or was
proper response to argument of defense counsel, and will not
be discussed in detail.
We do find that several of the comments cited by Franqui
were improper under the circumstances. However, as we
explain below, trial counsel's failure to object to them does not
mandate reversal for a new trial or new penalty phase. During
the guilt phase closing argument, the prosecutor stated: “The
lessers are a joke in this case ... but they have to be read
to you by law.” The State contends that this statement was
proper because the prosecutor was simply pointing out that
the lesser included offenses were inconsistent with the facts of
the case. The statement, however, goes beyond that and may
reasonably be understood to be an attempt, through sarcasm,
to diminish the jury's obligation to follow the law. However,
because the trial court properly and fully instructed the jury
on the lesser included offenses, we find that Franqui has not
met the prejudice prong of Strickland. See Anderson v. State,
18 So.3d 501, 517–18 (Fla.2009) (holding that the prejudice
prong of Strickland was not met in a claim of ineffective
assistance of counsel for failing to object to the prosecutor's
misstatement of law where the trial court properly instructed
the jury). There is no reasonable probability that but for
counsel's error in failing to object to this comment, the result
of the proceeding would have been different—a reasonable
probability being one sufficient to undermine our confidence
in the outcome. See Strickland, 466 U.S. at 694, 104 S.Ct.
2052.
Next, in the penalty phase closing argument, the prosecutor
made the following statements: (a) “Yes it is much easier for
Mr. Franqui to put a gun to somebody's head and demand
their money, you don't have to work as hard to get the money,
that's Franqui's way,” (b) “It's a little easier to put a gun to
somebody's head and pistol whip them and terrorize them and
take their hard earned money,” (c) “Why? Because to kill
somebody for money is probably the most basic, the most

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

vile of all motives,” and (d) “There is no more vile motive
than to kill somebody for money.” The State contends that
these statements were proper argument with respect to why
the pecuniary gain and the CCP aggravators were entitled to
great weight. The statements, while somewhat inflammatory,
are relevant to the pecuniary gain aggravator and do not
undermine our confidence in the outcome of the penalty
phase, despite counsel's failure to object.
Additionally, in the penalty phase closing argument, the
prosecutor made the following statements: (a) “Now you
know the shocking unbelievable nature of their criminal
records,” and (b) “You know now that this was not an
isolated incident, you know now that this was the middle
incident of an unbelievable crime spree that terrorized five
separate human beings in a little over a month between
November 29, 1991 and January 14, 1992.” The State
contends that both statements were proper argument with
respect to the prior violent felony aggravator. We agree
that Franqui's prior violent felony convictions submitted
by the State in aggravation were a legitimate subject of
prosecutorial comment in the penalty phase, but the words
“shocking” and “terrorized” are unnecessarily inflammatory.
Even so, our confidence in the outcome of the penalty
phase is not undermined by counsel's error. We have found
similar comments either not improper or harmless under the
circumstances. See, e.g., Salazar v. State, 991 So.2d 364, 377
(Fla.2008) (finding prosecutor's use of the word “terrorizing”
in reference to the burglary aggravating offense *98 was not
improper); Bonifay v. State, 680 So.2d 413, 418 (Fla.1996)
(finding prosecutor's use of the word “exterminate” in the
context of the case improper but harmless); cf. Brooks v.
State, 762 So.2d 879, 905 (Fla.2000) (reversing for a new
penalty phase for cumulative error where prosecutor made
repeated comments about the violent and vicious nature of
the defendant as well as numerous other improper comments).
Again, we conclude that the prejudice prong of Strickland is
not met by these comments and, accordingly, Franqui is not
entitled to relief on this claim.
Also in the penalty phase closing argument, the prosecutor
made the following statement, which was not objected to by
trial counsel: “The lawyers that are arguing here before you
this afternoon are the same lawyers in the other phase of the
trial who told you that their clients confessed to a crime they
didn't commit.” The State contends that the comment was fair
rebuttal to Franqui's attempt during the penalty phase to use
the fact that he had confessed to the crime as a mitigator.
The statement, however, is actually an attempt to impugn the

integrity and credibility of defense counsel. This is improper.
See Brooks, 762 So.2d at 904–05 (finding prosecutor's attack
on defense counsel's credibility to be improper). Even if
counsel was deficient in failing to object to this comment,
our confidence in the outcome of the penalty phase is not
undermined when we consider the other extensive evidence of
aggravation presented to the jury. Any omission on counsel's
part in this regard cannot reasonably be viewed as so affecting
the fairness and reliability of the proceeding that confidence in
the outcome is undermined. See Maxwell v. Wainwright, 490
So.2d 927, 933 (Fla.1986) (citing Strickland, 466 U.S. at 668,
104 S.Ct. 2052). Thus, based on Strickland and Maxwell, we
find that the record conclusively shows Franqui is not entitled
to relief on this claim.
Finally, in the penalty phase, the prosecutor made comments
that tended to disparage Franqui's mitigation. The prosecutor
argued, “That's the world of Dr. Toomer [Franqui's mental
mitigation expert], folks. Through the looking glass at
Disney World. Make believe. Use your common sense.” This
comment, suggesting that the mental mitigation is makebelieve or a fantasy, is improper. See, e.g., Brooks, 762 So.2d
at 904 (holding that prosecutorial denigration of a defendant's
mitigation by suggesting it is “phantom” is improper). We
have “long recognized that a prosecutor cannot improperly
denigrate mitigation during a closing argument.” Williamson
v. State, 994 So.2d 1000, 1014 (Fla.2008). Even though
the prosecutor's comment in this instance was improper,
we conclude that under the prejudice prong of Strickland,
based on the extensive aggravation present in this case,
our confidence in the outcome of the penalty phase is not
undermined. Thus, relief is not warranted based on counsel's
failure to object to these comments.
Although all the above statements may be read as calling
for objections by defense counsel, any omission on counsel's
part in this regard does not rise to the level of a deficiency
that “so affected the fairness and reliability of the proceeding
that confidence in the outcome is undermined.” Maxwell,
490 So.2d at 932. The State presented extensive evidence
of guilt and of aggravation. When viewed as a whole, the
record shows that the above statements—either individually
or cumulatively—are not so prejudicial as to affect the
outcome of the guilt or penalty phases of the trial under
the standard set forth in Strickland. Because our confidence
in the outcome of both the guilt and penalty phases is not
undermined by counsel's failure *99 to object to any of the
prosecutorial comments cited here, we conclude that the trial
court did not err in summarily denying this claim.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

15
2. Summary Denial of Ineffective Assistance of Counsel
Claim Pertaining to Failure to Present Testimony of Dr.
Brad Fisher at the Penalty Phase
Franqui contends that the postconviction court erred in
summarily denying his claim that counsel was ineffective for
failing to call Dr. Brad Fisher, a clinical forensic psychologist,
to testify in the penalty phase of the trial. Franqui asserts that
Dr. Fisher could have testified, as he did in his deposition,
that Franqui would make a good adjustment to prison life and
would not commit any acts of violence while incarcerated
because he had not done so during the time he had been
incarcerated prior to trial. The State submits that the lower
court properly found that significant contradictions existed
between Dr. Fisher's opinion and Dr. Jethro Toomer's opinion
such that not calling Dr. Fisher to testify could be considered
to be reasonable trial strategy. The circuit court's order stated:
Dr. Toomer conducted tests on the Defendant, which
allowed him to draw opinions regarding his mental health,
which were properly presented by defense counsel to the
judge and jury during the penalty phase as mitigating
factors. The trial judge and jury heard testimony from
several witnesses that the Defendant did not use drugs or
alcohol. Doctor Toomer opined that the Defendant was
mentally retarded. The trial attorney's choice to not have
Dr. Fisher testify regarding a good adjustment to prison life
is reasonable. Dr. Fisher also would have testified that the
Defendant was not mentally retarded.
Dr. Toomer, a psychologist and diplomate of the American
Board of Professional Psychology, conducted a psychological
evaluation of Franqui and testified during the penalty phase.
He told the jury about Franqui's difficulties and deprivations
early in life and about his mental deficits. Dr. Toomer
concluded that Franqui exhibited a lifelong condition under
which he would make poor decisions regarding how to
behave because he had a low IQ, deficits in intellectual
functioning, and organic deficits.15 Dr. Toomer also testified
that Franqui had problems communicating. Dr. Fisher, on the
other hand, had no difficulty communicating with Franqui,
and said he observed nothing in his interaction with Franqui
indicating a mental illness or any problems with intellectual
functioning. Moreover, Dr. Fisher testified to an opinion
about Franqui's level of intelligence that was contrary to Dr.
Toomer's opinion. Dr. Fisher said, “Yes, I think his judgment,
his intelligence is probably average.”

Dr. Toomer administered the Revised Beta examination
to determine Franqui's IQ, which resulted in a score
of 60. This testing occurred before Florida adopted
the Stanford–Binet and the Wechsler Adult Intelligence
Scale tests as the approved tests for determining IQ in the
capital context. Dr. Toomer also administered a Wechsler
IQ test which, as he testified on cross-examination,
disclosed that Franqui had a full scale IQ of 83.

Thus, any benefit that would have accrued from using Dr.
Fisher's testimony in the penalty phase would have been offset
by the fact that his testimony was contrary to Dr. Toomer's
on a key element of mitigation in Franqui's penalty phase
case—that Franqui had substantial mental deficits. Thus, the
record demonstrates that counsel's decision not to present
Dr. Fisher's testimony under the circumstances “ ‘might be
considered sound trial strategy.’ ” *100 Strickland, 466 U.S.
at 689, 104 S.Ct. 2052 (quoting Michel v. Louisiana, 350 U.S.
91, 101, 76 S.Ct. 158, 100 L.Ed. 83 (1955)). We explained in
Winkles v. State, 21 So.3d 19 (Fla.2009), that “[a]n ineffective
assistance claim does not arise from the failure to present
mitigation evidence where that evidence presents a doubleedged sword.” Id. at 26 (quoting Reed v. State, 875 So.2d
415, 437 (Fla.2004)). Moreover, error, if any, on counsel's part
in failing to present the testimony of Dr. Fisher during the
penalty phase cannot reasonably be viewed as so affecting the
fairness and reliability of the proceeding that confidence in
the outcome is undermined. See Maxwell, 490 So.2d at 932.
The postconviction court did not err in summarily denying
this claim.

3. Summary Denial of Ineffective Assistance of Counsel
Claim Pertaining to Failure to Present Testimony of
Vivian Gonzalez
Franqui next contends that the postconviction court erred in
summarily denying his claim that trial counsel was ineffective
in not calling Franqui's wife, Vivian Gonzalez, to testify at
the hearing on the motion to suppress his confession. He
also claims that trial counsel was ineffective for failing to
call Gonzalez to testify at the guilt and penalty phases of
trial. Franqui contends that her testimony would have been
relevant to a claim that Franqui invoked his right to counsel
prior to his statement being taken and was relevant to his
condition on the day he was questioned. At the hearing on
the motion to suppress Franqui's statement, Detective Albert
Nabut was asked if he overheard Franqui and his wife talking
in a room where they were left by themselves. Detective

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

Nabut confirmed that he overheard some of the conversation
but said he did not hear Franqui ask his wife to contact a
lawyer.

being inconsistent. In this respect, Gonzalez's testimony could
not have been used to effectively impeach Detective Nabut's
credibility at the suppression hearing or at trial.

The postconviction court summarily denied the claim, stating
in its order that “Vivian [Gonzalez] Franqui did testify during
the suppression hearing regarding the issues raised in the
instant 3.850 petition.” In fact, Gonzalez did not testify at
the suppression hearing. However, this erroneous finding is
likely based on a statement made by Franqui's postconviction
counsel at the Huff hearing held on January 8, 2001, where
counsel stated: “Vivian was not used at the first phase,
although she—she was used at the motion to suppress.”
Because the postconviction judge was misinformed on this
point, he cannot be faulted for denying relief on a claim that
counsel was ineffective for failing to present her testimony
at the suppression hearing. See Terry v. State, 668 So.2d 954,
962 (Fla.1996) (“[A] party may not invite error and then be
heard to complain of that error on appeal.”).

Franqui also claims that trial counsel was ineffective for
failing to present Gonzalez's testimony at trial. However,
neither his amended postconviction motion nor his brief on
appeal makes clear what testimony she could have offered
that would probably have altered the outcome of either the
guilt phase or the penalty phase. Franqui's allegation that
his wife could testify about his condition on the day he
was interviewed, without more, is insufficient to require an
evidentiary hearing.

Even if counsel had not erroneously caused or contributed
to this error, relief would not be warranted on this claim.
The fact that Gonzalez would testify that Franqui asked
her to call a lawyer is not an invocation of the right to
counsel communicated by Franqui to the custodial officers.
The request to his wife would not have provided a basis
upon which to suppress his subsequent written confession.
Moreover, Franqui testified that he was unaware that the
police could overhear his conversation with Gonzalez, which
occurred in a closed room. Given these circumstances, any
statement Franqui may have made to his wife concerning
counsel cannot be deemed an invocation of his right to
counsel.
In addition, the record shows that Franqui executed a written
waiver of rights, including the right to counsel, before giving
his verbal statement and sworn written statement. Detective
Nabut testified that Franqui began to confess before he met
*101 with Gonzalez. An invocation of the right to counsel
does not affect the validity of statements made prior to the
invocation. Maharaj v. State, 778 So.2d 944, 956 (Fla.2000).
In any event, Gonzalez's testimony was not inconsistent with
Detective Nabut's testimony that he was initially unaware
that the room was monitored, that he did not overhear the
beginning of the conversation between Franqui and his wife,
and that he never heard Franqui tell her to contact a lawyer.
It was possible for Gonzalez to testify that Franqui asked
her to call his lawyer and for Detective Nabut to testify that
he did not overhear such a request without their statements

Based on the foregoing, any omission on counsel's part in not
calling Vivian Gonzalez to testify at the suppression hearing
or at trial cannot reasonably be viewed as so affecting the
fairness and reliability of the proceedings that our confidence
in the outcome is undermined. See Maxwell, 490 So.2d at 932.
Rather, when viewed as a whole, the record shows that the
postconviction court did not err in summarily denying this
claim. Under the standard of review noted above, the motion
and record conclusively show that Franqui is not entitled to
relief on this claim.

C. Brady and Giglio Claims Relating to the Testimony of
Pablo Abreu
1. Standards of Review for Brady and Giglio Claims
Franqui next contends that the State withheld favorable,
material evidence in violation of Brady v. Maryland, 373 U.S.
83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963), and knowingly
presented false testimony in violation of Giglio v. United
States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972),
concerning witness Pablo Abreu. Brady requires the State to
disclose material information within its possession or control
that is favorable to the defense. Mordenti v. State, 894 So.2d
161, 168 (Fla.2004).16 To demonstrate a Brady violation,
the defendant has the burden to show (1) that favorable
evidence, either exculpatory or impeaching, (2) was willfully
or inadvertently suppressed by the State, and (3) because the
evidence was material, the defendant was prejudiced. See
Strickler v. Greene, 527 U.S. 263, 281–82, 119 S.Ct. 1936,
144 L.Ed.2d 286 (1999); see also Way v. State, 760 So.2d
903, 910 (Fla.2000). To meet the materiality prong of Brady,
the defendant must demonstrate “a reasonable probability

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

that, had the evidence been disclosed to the defense, the
result of the proceeding would have been different.” Strickler,
527 U.S. at 280, 119 S.Ct. 1936 (quoting United States v.
Bagley, 473 U.S. 667, 676, 105 S.Ct. 3375, 87 L.Ed.2d 481
(1985)). “As with prejudice under Strickland, materiality
*102 under Brady requires a probability sufficient to
undermine confidence in the outcome.” Duest v. State, 12
So.3d 734, 744 (Fla.2009). The materiality inquiry is not
satisfied by simply discounting the inculpatory evidence in
light of the undisclosed evidence and determining if the
remaining evidence is sufficient. “Rather, the question is
whether ‘the favorable evidence could reasonably be taken to
put the whole case in such a different light as to undermine
confidence in the verdict.’ ” Strickler, 527 U.S. at 290, 119
S.Ct. 1936 (quoting Kyles v. Whitley, 514 U.S. 419, 435,
115 S.Ct. 1555, 131 L.Ed.2d 490 (1995)); see also Rivera
v. State, 995 So.2d 191, 203 (Fla.2008) (same); Way, 760
So.2d at 913 (same). “It is the net effect of the evidence
that must be assessed.” Jones v. State, 709 So.2d 512, 521
(Fla.1998). “Although reviewing courts must give deference
to the trial court's findings of historical fact, the ultimate
question of whether evidence was material resulting in a due
process violation is a mixed question of law and fact subject
to independent appellate review.” Way, 760 So.2d at 913.
16

“[T]he duty to disclose such evidence is applicable
even though there has been no request by the accused.”
Strickler v. Greene, 527 U.S. 263, 280, 119 S.Ct. 1936,
144 L.Ed.2d 286 (1999) (citing United States v. Agurs,
427 U.S. 97, 107, 96 S.Ct. 2392, 49 L.Ed.2d 342 (1976)).

In Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763,
31 L.Ed.2d 104 (1972), the Supreme Court held that the
prosecutor is prohibited from knowingly presenting false
testimony against the defendant. In order to prove a Giglio
violation, “a defendant must show that (1) the prosecutor
presented or failed to correct false testimony; (2) the
prosecutor knew the testimony was false; and (3) the false
evidence was material.” Tompkins v. State, 994 So.2d 1072,
1091 (Fla.2008) (quoting Rhodes v. State, 986 So.2d 501,
508–09 (Fla.2008)); accord Hurst v. State, 18 So.3d 975,
991 (Fla.2009). If the first two prongs are established, the
false evidence is deemed material if there is any reasonable
possibility that it could have affected the jury's verdict.
Tompkins, 994 So.2d at 1091. The State must then “prove that
the false testimony was not material by demonstrating it was
harmless beyond a reasonable doubt.” Id. (quoting Rhodes,
986 So.2d at 509). Under the harmless error test, the State
must prove “ ‘there is no reasonable possibility that the error
contributed to the conviction.’ ” Guzman v. State, 941 So.2d

1045, 1050 (Fla.2006) (quoting State v. DiGuilio, 491 So.2d
1129, 1138 (Fla.1986)).
Both Giglio and Brady claims present mixed questions
of law and fact. See Sochor v. State, 883 So.2d 766, 785
(Fla.2004). Thus, as to findings of fact, we will defer to the
lower court's findings if they are supported by competent,
substantial evidence. See id. “[T]his Court will not substitute
its judgment for that of the trial court on questions of fact,
likewise of the credibility of the witnesses as well as the
weight to be given to the evidence by the trial court.” Hurst,
18 So.3d at 988 (quoting Lowe v. State, 2 So.3d 21, 30
(Fla.2008)). We review the trial court's application of the law
to the facts de novo. Hurst, 18 So.3d at 988. It is within this
framework that we now analyze Franqui's Brady and Giglio
claims pertaining to the testimony of Pablo Abreu.

2. Discussion
Franqui was granted an evidentiary hearing on his claims
that the State withheld favorable evidence concerning
codefendant Pablo Abreu's penalty phase testimony in
violation of Brady, and that the State knowingly presented
Abreu's false testimony in violation of Giglio during
the penalty phase to support the cold, calculated, and
premeditated aggravator. We turn first to Franqui's Brady
claim.
During the penalty phase of trial, Abreu testified through
an interpreter that a couple of days before the shooting, a
discussion among Franqui, Abreu, and San Martin *103
occurred in which Franqui explained the plan to rob the
Cabanases and the need to steal two cars to facilitate that
plan. When asked what Franqui said at that time about Lopez,
the Cabanases' unofficial bodyguard, Abreu testified: “First
he was going to crash against him and throw him down the
curb side, and then he would shoot at him, but he didn't
do it that way.” When asked if the shooting of Lopez was
planned before the incident, Abreu stated, “Yes, when we
went around,” referring to the discussion that ensued when
the three codefendants went out before the day of the robbery
to steal two vehicles. The trial court found in the sentencing
order that the murder was cold, calculated, and premeditated
in part because the robbery was carefully planned in advance
and because, sometime before the robbery took place, the
defendants decided that Franqui would have to shoot Lopez.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

At the evidentiary hearing, Abreu testified in response
to questions by codefendent San Martin's counsel that he
reached a plea agreement with the State in which he would
avoid a possible death sentence in exchange for testifying
against both Franqui and San Martin. Abreu reiterated that
he, Franqui, and San Martin made a plan to steal two cars
and rob the Cabanases. The vehicles were stolen the day
before the robbery and parked for use the next day. Abreu
testified that the day the Suburbans were stolen, there was a
discussion of the robbery but not about killing anyone. Abreu
testified that sometime before the robbery took place (from
thirty minutes up to several hours), while riding around in his
van with Franqui and San Martin to scout out possible escape
routes, Abreu heard Franqui say that he would “take care
of” the bodyguard (Lopez) by running his car off the road,
and that Abreu and San Martin would take the money. Abreu
also testified at the evidentiary hearing that Franqui said the
bodyguard was going to shoot at him and he was going to
shoot back. According to Abreu, Franqui added, “I know that
he's going to fire at me because he's the bodyguard and I'm
going to shoot also.” However, when asked if the bodyguard
shot at Franqui, Abreu said, “Well, I would imagine, right.”17
The postconviction court denied Franqui's Brady claim as
follows:
17

Abreu testified at trial that immediately upon stopping
his own vehicle in front of the Cabanases, he heard
Franqui's shot. Firearms identification expert Robert
Kennington testified at trial that Lopez's weapon had not
been fired. Abreu admitted at trial that when he initially
told police Lopez fired his gun first, that was not true.
Abreu also testified at the penalty phase that on the day
of the attempted robbery, Franqui supplied the handguns.
The testimony Abreu gave at the evidentiary hearing did
not directly conflict with his trial testimony or that of the
expert on these points.

San Martin claims that a Brady violation occurred because
exculpatory evidence favorable to San Martin (and the
Defendant) was suppressed by the State and the State
presented false or misleading evidence to the jury....
Based on the record and the testimony of the witnesses
during the evidentiary hearing, this Court finds that San
Martin (and the Defendant) [have] failed to establish
any of the Brady elements. As discussed above, Pablo
Abreu testified that he was always truthful and that no
one told him how to testify. The difference between
Mr. Abreu's testimony during the penalty phase and the
evidentiary hearing was slight, a mere inconsistency.

No evidence was presented that the State suppressed
or failed to disclose any evidence to San Martin or
the Defendant. Because San Martin's motion and the
Defendant's motion and the evidence failed to establish
a Brady violation, this claim is denied. *104 This claim
is also denied for the Defendant for the same reasons.
We agree with the postconviction court that no evidence
supports the allegation that the State suppressed or withheld
favorable evidence. We also find that even if this testimony
could be considered to conflict with Abreu's trial testimony
—in which Abreu said that Franqui planned the day before
the attempted robbery to kill Lopez—there is no “reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different.” Strickler, 527 U.S. at 280, 119 S.Ct. 1936 (quoting
Bagley, 473 U.S. at 676, 105 S.Ct. 3375). Regardless of
whether Franqui's plan to kill Lopez was made in the days
before the shooting or in the hours before the shooting,
the evidence is sufficient to establish the CCP aggravator.
Even without the CCP aggravator, the trial court had before
it competent, substantial evidence of other aggravating
circumstances: prior violent felony conviction for aggravated
assault and armed robbery, and the merged aggravators of
murder while engaged in the commission of an attempted
robbery and for pecuniary gain, weighed against only two
nonstatutory mitigators.
Under the circumstances, even if Abreu had testified at the
penalty phase as he did in the evidentiary hearing, there is
no reasonable probability that the proceeding would have
resulted in a life sentence—that is, our confidence in the
outcome is not undermined by Abreu's evidentiary hearing
testimony. See Duest, 12 So.3d at 744 (reiterating that
Brady requires a reasonable probability of a different result
sufficient to undermine confidence in the outcome). Thus, we
affirm the circuit court's denial of Franqui's Brady claim.
We turn now to Franqui's Giglio claim, in which he contends
that the State knowingly presented false, material testimony
by Abreu during the penalty phase. Although there were
some inconsistencies in Abreu's testimony about when the
discussion of killing Lopez occurred, the postconviction court
found them not to be material and denied Franqui's Giglio
claim as follows:
Mr. Abreu testified during the penalty phase that a meeting
regarding stealing cars to be used during the robbery took
place a couple of days before the shooting. When asked
about what the Defendant [18] was going to do about the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

bodyguard (the victim, Raul Lopez), Mr. Abreu responded,
“First he was going to crash against him and throw him
down the curb side, and then he would shoot him, but he
didn't do it that way.” Trial Transcript, pp. 2717–2718.
Later in his testimony, Mr. Abreu was asked about the
discussion he had with the Defendant and San Martin about
killing the bodyguard that occurred before the cars were
stolen. Mr. Abreu indicated that Franqui told him that he
was going to run the bodyguard off the road then shoot him.
Trial Transcript, pp. 2727–2728.
18

The order was entered in the instant case and applies
to Franqui's claims even though there are references
in the order to claims of the codefendant San Martin.
References in the order to “the Defendant” are to Franqui
and appear in the original court order.

During the evidentiary hearing, Mr. Abreu stated that the
killing was discussed the day of the robbery while he,
the Defendant and San Martin were driving around in his
van before the robbery took place. Mr. Abreu testified on
direct that this discussion occurred thirty minutes before
the robbery. On cross-exam, he testified that this discussion
could have taken place several hours before the robbery.
Mr. Abreu *105 testified that his testimony on this subject
had always been consistent and truthful. Trial Transcript,
p. 60, 66–68, 102–104.
....
Based on the record and the testimony of the witnesses at
the evidentiary hearing, this Court finds that San Martin
has failed to establish that the state forced Pablo Abreu
to present perjurious testimony to the jury. During the
penalty phase, the question asked about what Franqui
was going to do with the bodyguard did not actually
have a time frame. San Martin's claim assumes that the
discussion regarding stealing the cars which occurred
several days before the robbery included the interchange
about killing the bodyguard. Mr. Abreu's testimony
during the penalty phase does seem to indicate that
the discussion about killing the bodyguard took place
before the cars to be used in the crime were stolen. The
testimony elicited from Abreu during the evidentiary
hearing indicates that the discussion about the killing
took place between thirty minutes and several hours
before the robbery and the killing of the bodyguard. San
Martin, at most, has shown that the difference between
Mr. Abreu's trial testimony and the testimony during
the evidentiary hearing was an arguable inconsistency.

This Court finds that San Martin and the Defendant
did not prove that Mr. Abreu's testimony was false.
Inconsistencies are insufficient to show that testimony is
false. Maharaj v. State, 778 So.2d 944 (Fla.2000).
Marilyn Milian, the trial prosecutor testified during the
evidentiary hearing that she only asked witnesses to
truthfully relate what they knew. She stated, “Under no
circumstances in this case or any other case would I
ever tell a defendant who is flipping what to testify to
or suggest to him that if he doesn't say it my way he
won't have a plea agreement or force anybody to testify
contrary to what it is truthfully happened.” Transcript, p.
171. She further stated, “That is all we did and anything
else would not only be unethical but suborning perjury.
I never did that in my career and certainly not on this
case either.” Transcript, p. 172. ... This Court finds that
San Martin and the Defendant failed to prove that the
State knew any testimony was false or that the State
knowingly presented perjurious testimony.
The inconsistency in Pablo Abreu's testimony regarded
the time that the plan to kill the bodyguard was
discussed. During the penalty phase, Mr. Abreu testified
that the discussion took place before the cars were stolen
and perhaps several days before the robbery. During
the evidentiary hearing, Mr. Abreu testified that the
discussion took place thirty minutes to several hours
before the robbery, after the cars had been stolen. In
either event, the time was sufficient to support the CCP
aggravating circumstance.... This Court finds that San
Martin (and the Defendant) [have] failed to prove that
Mr. Abreu's statement was material.
We agree that competent, substantial evidence supports the
court's finding that the prosecutor did not knowingly present
false, material testimony by Abreu. Abreu testified at the
evidentiary hearing that he told the truth at trial, and that no
one threatened him, forced him, or told him how to testify. The
prosecutor testified at the evidentiary hearing that she did not
knowingly present any false testimony. The inconsistencies
shown between Abreu's testimony in the penalty phase and
his testimony at the evidentiary hearing do not prove that the
penalty phase testimony was false. See Maharaj, 778 So.2d
at 956 (“To demonstrate perjury, *106 Maharaj must also
show more than mere inconsistencies.”).
Moreover, the inconsistencies are not material. “In order
to find the CCP aggravating factor, the jury must determine
that the killing was the product of cool and calm reflection
and not an act prompted by emotional frenzy, panic, or a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Franqui v. State, 59 So.3d 82 (2011)
36 Fla. L. Weekly S1

fit of rage (cold); that the defendant had a careful plan
or prearranged design to commit murder before the fatal
incident (calculated); that the defendant exhibited heightened
premeditation (premeditated); and that the defendant had no
pretense of moral or legal justification.” Franklin v. State, 965
So.2d 79, 98 (Fla.2007). Both versions of Abreu's testimony
meet these requirements. Both versions of Abreu's testimony
show that Franqui had a plan in place substantially in advance
of the attempted robbery to shoot Lopez and that he took a
weapon with him for that purpose.
The last element of CCP is the lack of any pretense of moral
or legal justification. Nothing in Abreu's evidentiary hearing
testimony, had it been presented by the State at trial, would
have supported a finding of a pretense of moral or legal
justification. Abreu's testimony at the evidentiary hearing
that Franqui said the bodyguard would be shooting at him
so he would shoot back does not suggest a moral or legal
justification for the shooting. Abreu's evidentiary hearing
testimony concerning when he heard Franqui's shot did not
conflict with his trial testimony or with the uncontradicted
trial testimony of the expert that Lopez did not fire his
weapon. Even if the prosecutor should have presented the
End of Document

latter version of Abreu's testimony at trial, we find that that
there is no reasonable possibility that the error contributed to
the imposition of the death sentence. See Guzman, 941 So.2d
at 1050 (quoting DiGuilio, 491 So.2d at 1138). Thus, relief is
also denied on Franqui's Giglio claim.

III. CONCLUSION
In accord with the above analysis, we affirm the circuit court's
denial of Franqui's claims for postconviction relief.
It is so ordered.

CANADY, C.J., and PARIENTE, LEWIS, QUINCE,
POLSTON, and LABARGA, JJ., concur.
PERRY, J., did not participate.
All Citations
59 So.3d 82, 36 Fla. L. Weekly S1

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Franqui v. State, 965 So.2d 22 (2007)

APPENDIX G

32 Fla. L. Weekly S210

965 So.2d 22
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
Leonardo Franqui, Petitioner,
v.
James R. McDonough, etc., Respondent.
Nos. SC04–2380, SC06–36.
|
May 3, 2007.
|
Rehearing Denied Sept. 10, 2007.
Synopsis
Background: Defendant was convicted of first-degree
murder of a law enforcement officer and other crimes, and
was sentenced to death. Defendant appealed. The Supreme
Court, 699 So.2d 1332, affirmed defendant's convictions,
but reversed sentence and remanded for resentencing. On
remand, defendant was again sentenced to death, and he
appealed. The Supreme Court, 804 So.2d 1185, affirmed.
Defendant filed petition for post-conviction relief. The
Circuit Court, Dade County, Kevin Emas, J., denied petition.
Defendant appealed and filed petition for writ of habeas
corpus in the Supreme Court.

Holdings: The Supreme Court held that:
trial counsel did not render ineffective assistance;
while state might have abused its statutory subpoena authority
by using investigatory subpoena to compel defense counsel to
appear for questioning prior to hearing on defendant's petition
for post-conviction relief, defendant suffered no harm as a
result; and
substantial evidence supported trial court's ruling that
defendant's confession was not coerced and that his waiver of
rights was both free and voluntary.
Affirmed; writ denied.

Attorneys and Law Firms
*26 Mary Catherine Bonner, Fort Lauderdale, FL, for
Appellant/Petitioner.
Bill McCollum, Attorney General, Tallahassee, Florida and
Sandra S. Jaggard, Assistant Attorney General, Miami, FL,
for Appellee/Respondent.
Opinion
PER CURIAM.
Franqui appeals an order of the circuit court denying his
motion to vacate his conviction of first-degree murder and
sentence of death filed under Florida Rule of Criminal
Procedure 3.851 and petitions this Court for a writ of habeas
corpus. We have jurisdiction. See art. V, § 3(b)(1), (9), Fla.
Const. For the reasons expressed below, we affirm the circuit
court's order denying postconviction relief and deny Franqui's
habeas petition.

FACTS AND PROCEDURAL HISTORY
The facts of this crime are set forth in our opinion from
Franqui's direct appeal after resentencing, Franqui v. State,
804 So.2d 1185 (Fla.2001) (Franqui II ). For the purposes
of these proceedings, we note that Franqui was convicted
of first-degree murder of a law enforcement officer, armed
robbery, aggravated assault, two counts of grand theft, and
two counts of burglary following the robbery of Kislak
National Bank in North Miami. Id. at 1189–90. Franqui was
sentenced to death by the trial court after a jury recommended
a death sentence by a vote of nine to three. Id. at 1190.
Franqui's convictions were affirmed on his first direct appeal
but his case was remanded for resentencing. See Franqui v.
State, 699 So.2d 1332, 1333 (Fla.1997) (Franqui I ). After
a new penalty phase, Franqui was again sentenced to death
after a jury recommendation for death by a vote of ten to two.
*27 Franqui II, 804 So.2d at 1190. In sentencing Franqui
to death, the judge found three aggravating circumstances,1
no statutory mitigating circumstances,2 and four nonstatutory
mitigating circumstances.3 Id. at 1191. In his second direct
appeal to this Court, Franqui raised six claims for relief. Id.
This Court rejected all six claims and affirmed Franqui's death
sentence. Id. at 1199.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

1

2
3

The trial court found the following aggravators: prior
conviction for a capital or violent felony (great weight);
the murder was committed during the course of a robbery
and for pecuniary gain (merged) (great weight); and
the murder was committed to avoid arrest and hinder
law enforcement and the victim was a law enforcement
officer (merged) (great weight). Franqui II, 804 So.2d at
1191 n. 2.
The trial court considered but rejected the age mitigators,
and found no other statutory mitigators. Id. at 1191 n. 3.
The trial court found the following four nonstatutory
mitigating circumstances: Franqui's relationship with his
children (little weight); his cooperation with authorities
(little weight); that his codefendants only received life
sentences (little weight); and his self-improvement and
faith while in custody (some weight). Id. at 1191 n. 4.

Franqui filed a rule 3.851 petition for postconviction relief
on April 7, 2003, raising eighteen claims for relief.4 The trial
court granted an evidentiary hearing on four claims: whether
the waiver of his right to testify was voluntary, whether
counsel was ineffective for failing to prosecute a motion to
suppress his confession, whether counsel was ineffective for
failing to present relevant witnesses at a hearing on Franqui's
motion to suppress, and whether counsel was ineffective for
failing to litigate the involuntary nature of his confession
to the sentencing jury. The trial court ultimately denied
postconviction relief on all claims. Franqui now appeals that
decision to this court, raising eight claims of trial court error.
He has also filed a petition for writ of habeas corpus in this
Court.
4

Franqui raised the following postconviction claims to
the trial court: (1) the procedure for the assignment
of trial judges in Dade County criminal cases is
inherently unfair, particularly in Franqui's case; (2)
the circumstances surrounding Franqui's waiver of his
right to testify show that the waiver was involuntary
and unknowing; (3) the circumstances surrounding his
confession make Franqui's statement unreliable, illegal
and inadmissible; (4) the trial court denied Franqui
the right to obtain evidence from a material, relevant
witness; (5) Franqui was denied due process when the
second sentencing court allowed his statement to be
admitted into evidence but failed to permit the defense
to present evidence on the confession issues; and (6)
trial counsel was ineffective for [a] making no effort to
litigate the suppression of Franqui's statement despite
ample and compelling evidence for suppression; [b]
failing to pursue Franqui's right to obtain evidence

from a material, relevant witness; [c] failing to present
witnesses; [d] resentencing counsel failed to litigate
Franqui's filed suppression motion apparently because
both he and the judge mistakenly believed that the
confession issue had already been litigated and lost in the
Florida Supreme Court; [e] resentencing counsel failed
to challenge the voluntariness of Franqui's confession to
the jury; [f] resentencing counsel failed to challenge the
constitutionality of Florida's death penalty scheme; [g]
failing to file a motion to dismiss the charges against
Franqui based on patent deficiencies in the indictment;
[h] failing to present neutral reasons for exercising
a peremptory challenge against panel member Diaz,
resulting in that juror being seated; [i] failing to preserve
patent trial court error in preventing a defense strike
against prospective juror Andani; [j] failing to litigate
Franqui's request for individual voir dire and motion
to sequester; [k] failing to preserve patent trial court
error in allowing the State to peremptorily challenge
prospective juror Pascual; [l] failing to object to the
prosecutor's misstatement of the law in closing; and
[m] appellate counsel's failure to raise the issue of
prosecutorial misconduct.

*28 Franqui was also sentenced to death for the firstdegree murder of Raul Lopez during the robbery of a checkcashing business in Hialeah (the “Hialeah murder”). Franqui
v. State, 699 So.2d 1312, 1315 (Fla.1997). On direct appeal,
this Court found error regarding the admission of evidence
but found that error to be harmless and affirmed Franqui's
convictions and sentences, including his death sentence. Id.
Franqui subsequently filed a 3.851 motion for postconviction
relief in that case. That motion was also denied by the trial
court and review by this Court is pending in a separate appeal.

POSTCONVICTION CLAIMS
1. Ineffective Assistance of Trial Counsel
Franqui alleges that his trial counsel, Eric Cohen, was
ineffective for failing to litigate the motion to suppress
Franqui's confession, failing to present mental health
mitigation and evidence of coercion at Franqui's resentencing,
and for conduct during voir dire regarding two potential
jurors.
Based upon the United States Supreme Court's decision
in Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984), this Court has held that for

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

ineffective assistance of counsel claims to be successful, two
requirements must be satisfied:
First, the claimant must identify particular acts or
omissions of the lawyer that are shown to be outside
the broad range of reasonably competent performance
under prevailing professional standards. Second, the clear,
substantial deficiency shown must further be demonstrated
to have so affected the fairness and reliability of the
proceeding that confidence in the outcome is undermined.
A court considering a claim of ineffectiveness of counsel
need not make a specific ruling on the performance
component of the test when it is clear that the prejudice
component is not satisfied.
Maxwell v. Wainwright, 490 So.2d 927, 932 (Fla.1986)
(citations omitted).
Because both prongs of the Strickland test present
mixed questions of law and fact, this Court employs a
mixed standard of review, deferring to the circuit court's
factual findings that are supported by competent, substantial
evidence, but reviewing the circuit court's legal conclusions
de novo. See Sochor v. State, 883 So.2d 766, 771–72
(Fla.2004).
There is a strong presumption that trial counsel's performance
was not ineffective. See Strickland, 466 U.S. at 690, 104
S.Ct. 2052. “A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting
effects of hindsight, to reconstruct the circumstances of
counsel's challenged conduct, and to evaluate the conduct
from counsel's perspective at the time.” Id. at 689, 104 S.Ct.
2052. The defendant carries the burden to “overcome the
presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’ ” Id.
(quoting Michel v. Louisiana, 350 U.S. 91, 101, 76 S.Ct.
158, 100 L.Ed. 83 (1955)). “Judicial scrutiny of counsel's
performance must be highly deferential.” Id. In Occhicone v.
State, 768 So.2d 1037, 1048 (Fla.2000), this Court held that
“strategic decisions do not constitute ineffective assistance
of counsel if alternative courses have been considered and
rejected and counsel's decision was reasonable under the
norms of professional conduct.” We have also explained that
where this Court has previously rejected a substantive claim
on the merits, counsel cannot be deemed ineffective for failing
to advance the same claim in the trial court. *29 Melendez
v. State, 612 So.2d 1366, 1369 (Fla.1992).

A. Failure to Litigate the Motion to Suppress Franqui's
Confession
Franqui raised a number of claims in the trial court involving
an assertion that trial counsel did not properly litigate a
motion to suppress Franqui's confession. Prior to the guilt
phase in the instant trial, defense counsel agreed to the trial
court's use of the transcripts from a hearing on a similar
suppression motion filed in the Hialeah murder case. Upon
review, we find no fault with the lower court's conclusion that
trial counsel's decision to stipulate to the use of the transcripts
from the Hialeah case hearing was reasonable.5
5

Inasmuch as Franqui claims that original trial counsel
did not take any action at the suppression hearing in the
instant case, this claim is clearly refuted by the record;
accordingly, this claim will be treated as if Franqui
asserts that the assistance trial counsel did provide was
ineffective.

After being detained and questioned, Franqui gave two
separate statements to the police on the same day regarding
both the instant crime and the Hialeah murder, and trial
counsel ultimately moved to suppress both confessions in
each case. However, the evidentiary hearing on the motion to
suppress the Hialeah statement occurred a little more than one
year prior to the hearing on the instant motion to suppress.
The record of the hearing in the Hialeah case indicates that
the focus of that hearing was on both the circumstances
of the instant crime and statement as well as the Hialeah
crime and confession. The testimony from all of the witnesses
presented at that hearing, Franqui included, focused on both
statements: the officers detailed when Franqui was read his
rights during the day and in relation to which crime, and
defense counsel Cohen questioned each of them in great
detail, including asking them to specify at which points
Franqui supposedly agreed to keep talking without counsel
present. Thus, the underlying circumstances relating to the
issues Franqui is now claiming were not fully explored in
the instant hearing were in fact comprehensively explored
during the previous hearing in the Hialeah case in front
of the same judge and with the same parties. As defense
counsel Cohen explained to the court in agreeing to the
stipulation for use of the transcripts, any testimony and crossexamination of Officers Crawford, Rivers and Smith was
likely to be “identical.”6 Under these circumstances, defense
counsel could have reasonably concluded that requiring these
officers to be called again was unnecessary and potentially

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

counterproductive. Given the comprehensive nature of the
first hearing in the Hialeah case on a statement taken the exact
same day arising out of the same interrogation and involving
all of the same parties, being heard in front of the same judge,
we find no error in the postconviction court's conclusion that
Cohen acted reasonably in stipulating to the use of the prior
testimony of Rivers, Crawford and Smith at the hearing on
the instant motion to suppress.
6

In addition, Cohen did assert a claim at the suppression
hearing relating to Detective Naboot overhearing a
conversation between Franqui and his wife in which he
told her that he shot at the officer but his was not the fatal
bullet. Cohen would not stipulate to any testimony in this
regard and instead deposed Naboot and was granted a
separate suppression hearing on the issues raised.

Franqui asserts further, however, that despite the
comprehensive nature of the prior hearing, trial counsel
was ineffective at the instant suppression hearing for failing
to present evidence of Franqui's mental illness and expert
testimony on *30 coerciveness. First, Franqui argues that
trial counsel should have presented evidence of his supposed
mental illness at the suppression hearing to demonstrate that
Franqui was not capable of making a valid waiver of his rights
when making his confession. He asserts that defense counsel
should have presented a letter from Dr. Jethro Toomer to
trial counsel Cohen, which Cohen received during the period
between the trial court's denial of the motion to suppress in
the Hialeah case and the hearing on the motion to suppress in
the instant case. This letter makes a number of findings based
on two meetings between Dr. Toomer and Franqui, including
observations of personality disorganization, overall mental
confusion and spotty memory. The letter stated that Franqui
suffers from extreme mental and emotional disturbance and
severe impairment of cognitive functioning, and concluded
by characterizing Franqui as an individual “whose behavior
is characterized by a pervasive pattern of instability” with
resulting behavior that is “impulsive, irrational, maladaptive
and self-destructive.”
At the evidentiary hearing below, Cohen testified that he
did not utilize this information at the suppression hearing
because Dr. Toomer had been retained solely for use at the
penalty phase and also because, throughout their relationship,
Cohen did not observe any signs of mental impairment in
Franqui that would cause him to conclude that Franqui was
incompetent during his police questioning.

We find no error in the trial court's conclusion that counsel's
actions were reasonable and did not constitute ineffectiveness
under Strickland. First, assuming Cohen believed his client,
Franqui's testimony from the Hialeah suppression hearing
indicates that he understood his rights, that he wished to
invoke them, and that he only gave the statements he did due
to police misconduct, including blatant abuse and coercion. In
other words, Franqui's testimony at the suppression hearing
asserted no waiver was given and raised no issues of mental
competency. Rather, his testimony at the suppression hearing
directly contradicted that of the police, affirmatively asserting
that he understood his rights and invoked them, but that his
invocation was ignored and that he was abused and coerced by
the police into giving a confession. Franqui does not suggest
how this prior testimony could have been utilized during the
instant suppression hearing had Cohen adopted a new strategy
claiming that Franqui was incompetent.
In addition, as noted above, Cohen testified at the
postconviction evidentiary hearing that he had observed
no mental problems with Franqui. He also stated that Dr.
Toomer had been called as a witness during the penalty
phase in the Hialeah trial six months prior to the suppression
hearing in the instant case; the same trial judge found
substantial problems with Toomer's credibility.7 In fact, in
the Hialeah *31 sentencing order, issued some six months
prior to the suppression hearing, the trial court expressly
rejected Dr. Toomer's credibility and his opinions. The
trial court questioned Dr. Toomer's “leap” from a diagnosis
of borderline personality disorder to the conclusion that
Franqui was acting under the influence of “extreme mental
or emotional disturbance.” The trial court concluded that
“every piece of evidence presented in this trial, penalty
phase and sentencing hearings, with the exception of Dr.
Toomer's testimony, definitely establishes that Mr. Franqui is
not mentally retarded.”
7

Records from the Hialeah case indicate that defense
counsel called Dr. Toomer during the penalty phase,
when he testified as an expert in forensic psychology.
This was in November of 1993, well before the
suppression hearing in the instant case, which occurred
in May of 1994. In addition to meeting with Franqui
three times, Dr. Toomer testified that he reviewed various
records extensively, met with members of Franqui's
family, and gathered information about his background.
Dr. Toomer's testimony basically reflects what was
contained in his letter to Cohen, expounding upon it
to illustrate that Franqui has suffered these problems
since childhood. Dr. Toomer then discussed the “Revised

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210
Beta Exam,” which indicated that Franqui's IQ was “less
than 60.” Dr. Toomer explained that this particular test
relied on nonverbal intelligence, that it was a standard
IQ test, and that he scored the test, a task he is trained to
do. Franqui's score indicated that he is in the “retarded
range.” Dr. Toomer concluded his testimony by stating
that the “extreme emotional disturbance” mitigator
applied to Franqui, and also that his chronological age
did not reflect his mental age.
On cross-examination, Dr. Toomer confirmed that he
had testified for defendants between fifteen and twenty
times in previous trials. The State spent a lot of
time going through statements Dr. Toomer made in
previous trials and diagnoses he had given, as well
as the fact that he had no other version of the facts
in the instant case other than what Franqui had told
him and that he had not read any police reports about
the incident. The State also pointed out inconsistencies
between Franqui's own testimony and the conclusions
reached and testified to by Dr. Toomer, including the
fact that the hospital records from Franqui's accident
as a teenager do not indicate that he lost consciousness.
The State asked Dr. Toomer about the results of
Franqui's Wechsler Test, which indicted he had a fullscale IQ score of 83.

Considering all of these circumstances, we find no error in the
postconviction court's conclusion that deficient performance
by defense counsel has not been established given Strickland's
presumption that trial counsel's performance was not
ineffective. See Strickland, 466 U.S. at 689, 104 S.Ct. 2052
(“A fair assessment of attorney performance requires that
every effort be made to eliminate the distorting effects
of hindsight, to reconstruct the circumstances of counsel's
challenged conduct, and to evaluate the conduct from
counsel's perspective at the time.”). There is competent,
substantial evidence in the record to support these rulings by
the postconviction court.
Franqui next argues that trial counsel was ineffective for
failing to present expert testimony at the suppression hearing
regarding the effect of police coercion during interrogations.
Franqui's witness at the postconviction evidentiary hearing
below, Dr. Meisner, testified as an expert in police
interrogations and confessions, expressing the opinion that
coercion could have played a role in Franqui's confession.
However, this witness also explained that there was only
one expert who routinely gave testimony in this field in
the early 1990s; furthermore, there was no showing that
such an expert was known to or readily available to defense
counsel at the time of Franqui's trial. In addition, trial
counsel is granted great latitude in decisions regarding the

use of expert witnesses. Thus, we find no error in the lower
court's conclusion that deficient performance has not been
established pursuant to a Strickland analysis for failing to call
an expert on interrogation tactics at the suppression hearing,
given that the use of experts in this area of the law was
relatively new and unexplored at the time of Franqui's trial.

B. Resentencing
Franqui claims that trial counsel was ineffective for failing
to relitigate the suppression of his confession during his
resentencing (penalty phase) trial. We find no error in the
trial court's rejection of the argument that trial counsel was
ineffective for failing to present this issue to the resentencing
jury. Since such evidence would presumably have been
used to *32 cast doubt upon the admissibility or veracity
of Franqui's confession to establish his guilt, it would not
have been relevant to sentencing issues or admissible in
the sentencing phase. See Way v. State, 760 So.2d 903,
916 (Fla.2000) (“[T]his Court has previously rejected the
argument that evidence that would serve only to create a
lingering doubt of the defendant's guilt is admissible as a
nonstatutory mitigating circumstance.”) (citing Preston v.
State, 607 So.2d 404, 411 (Fla.1992); King v. State, 514 So.2d
354, 358 (Fla.1987)). Franqui has made no showing in this
appeal of the relevancy of such evidence for purposes of
sentencing.
Franqui also alleges that trial counsel was ineffective for
failing to present Dr. Toomer's letter to the resentencing
court. However, this claim was not raised in the trial court,
nor was there any type of similar claim in which Franqui
alleged error for failing to present the Toomer letter to the
resentencing jury or judge as a means of establishing mental
health mitigation. Accordingly, this claim is procedurally
barred as an argument raised for the first time on appeal to
this Court. See Griffin v. State, 866 So.2d 1, 11 n. 5 (Fla.2003)
(finding that postconviction claim raised for the first time on
appeal was procedurally barred).
In addition, the record from Franqui's resentencing indicates
that, regardless of any procedural bar, he is entitled to no
relief. First, trial counsel Cohen testified at the evidentiary
hearing that, while the primary reason he had Dr. Toomer
evaluate Franqui was in preparation for the penalty phase,
Cohen and Franqui jointly agreed to not present the letter
at resentencing. The resentencing record reflects a specific
discussion about Dr. Toomer's letter report:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

THE COURT: All right. I'll allow you to make arguments
later. Any other evidence or testimony on the behalf of Mr.
Franqui?
MR. COHEN: No, your Honor.
THE COURT: All right. You had indicated the last time
you were considering presenting the former testimony of
one of the doctors, you and Mr. Franqui have agreed not to
present that?
MR. COHEN: Unfortunately, Judge, the situation is that
we have not been able to find a report. But based on our
conversations previously, I don't think that there's anything
in that report that we would be submitting to the Court.
THE COURT: I just want to make sure there's not a claim
later that not finding the report in some way—
MR. COHEN: No.
THE COURT:—prevented you from making an effective
presentation or prevents me from making an appropriate
sentence. Does the State have a copy of the report?
MR. COHEN: We don't have the report present now but
obviously we reviewed the report previously and the doctor
did testify at the sentencing hearing of what we refer to as
the Hialeah case. So we're well aware of contents and the
findings of the doctor. And it's our decision not to present
that evidence to the jury and I don't see any reason why
that decision would change in presenting any evidence to
the Court.
THE COURT: All right. Have you spoken to Mr. Franqui
with about [sic] that?
MR. COHEN: We mentioned it briefly the other day. I don't
think he has any different feelings about that.
THE COURT: Mr. Franqui, do you agree with Mr. Cohen's
decision not to have me consider the testimony or the report
of that doctor?
MR. FRANQUI: Yes, your honor.
*33 THE COURT: Is there anything Mr. Franqui would
like to say?
MR. COHEN: I don't believe so, Your Honor.
MR. FRANQUI: No, your Honor.

Thus, the record reflects that Cohen and Franqui made
a joint, strategic decision not to present this evidence at
resentencing.8 We find no error in the trial court's conclusion
that Franqui is not entitled to relief on this claim. See
Occhicone, 768 So.2d at 1048.
8

We have already discussed the fact that the trial court
had both considered and rejected Dr. Toomer's opinion
testimony as presented at sentencing in the Hialeah
murder.

C. Voir Dire
Franqui next asserts error in defense counsel's actions
during jury selection. His argument, however, is unclear: first,
Franqui takes issue with the lower court's dispensation of
this claim as a Batson–Neil issue;9 Franqui argues that since
both he and juror Diaz were both Hispanic males, there was
no need for trial counsel to articulate a race-neutral reason
as a basis for a preemptory strike of Diaz when the State
objected. He asserts that the issue for this Court to decide is
whether a race-neutral reason must be given by a defendant
when he wishes to strike a juror of his own race, gender and
ethnicity. In addition, Franqui appears to assert an ineffective
assistance of counsel claim for not objecting to the trial court's
failure to strike juror Andani.10 In the postconviction court
Franqui asserted that counsel's delay in presenting neutral
reasons beyond his bare dislike of Diaz resulted in the seating
of a juror whose ability to be fair was subject to question.
Regarding Andani, Franqui argued that counsel failed to
preserve trial court error in disallowing a defense strike since,
when the State challenged the strike, defense counsel declined
to be heard.
9

10

See Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712,
90 L.Ed.2d 69 (1986); State v. Neil, 457 So.2d 481
(Fla.1984).
When Cohen challenged this particular juror, the State
objected, but Cohen failed to respond and juror Andani
was seated.

We find no error in the trial court's denial of relief on this
claim since Franqui has shown neither deficient performance
nor prejudice. First, as the court below noted, we addressed
the seating of these two jurors in Franqui I. Regarding Diaz,
we held that “the trial court did not abuse its discretion
in striking Franqui's peremptory challenge.” Franqui I, 699
So.2d at 1335. This Court further ruled: “We also reject

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

Franqui's contention that the trial court erred in refusing to
permit him to challenge prospective juror Andani.” Id. at 1335
n. 6. We conclude that Franqui should not be permitted to
relitigate these claims under the guise of ineffective assistance
of counsel when the same issues were resolved against him on
appeal. Harvey v. Dugger, 656 So.2d 1253, 1256 (Fla.1995)
(“It is also not appropriate to use a different argument to
relitigate the same issue.”) (citing Medina v. State, 573
So.2d 293, 295 (Fla.1990)). In addition, Franqui has made
no showing of any prejudice that could have resulted from
defense counsel's alleged deficiencies on these jury issues.

2. Judicial Assignment
Franqui's next argument asserts that he was denied due
process of law when the same trial judge presided over his two
death cases. The trial court dismissed this claim without an
evidentiary *34 hearing. As explained in the order denying
relief,
The facts are not in dispute. [Franqui] was charged in four
separate cases (including two separate first-degree murder
cases), all of which were pending at the same time. By
administrative order, the first case was assigned (randomly)
to a felony trial division. So long as that case remained open
and pending (i.e., not resolved by plea, trial, or dismissal),
all subsequently-filed cases involving that same defendant
were assigned to the same trial division. As a result of
this administrative procedure, all of [Franqui's] cases were
assigned to a single judge. [Franqui] argues this procedure
is inherently unfair.
The lower court concluded that this claim was procedurally
barred since, under prevailing Florida law, Franqui should
have raised this claim prior to trial. In addition, the trial court
held that a judge is not subject to disqualification in a case
simply because that judge has made adverse rulings against
the defendant in the past or because the judge has previously
heard some of the facts of the case.
Franqui did not allege ineffective assistance of counsel
for failure to insist upon a different judge in the instant
case; rather, Franqui claimed that his due process rights
were violated by reason of the administrative procedures
invoked in this case.11 The lower court correctly concluded
that this claim is procedurally barred because it was not
properly asserted before trial. Further, Wild v. Dozier, 672
So.2d 16 (Fla.1996), establishes that this Court has exclusive
jurisdiction to review administrative orders making judicial

assignments. Id. at 17 (“[W]e conclude that this Court has
exclusive jurisdiction to review judicial assignments.”).
11

Inasmuch as Franqui claims that trial counsel was
ineffective for failing to pursue joinder of the instant
case with the Hialeah case, we conclude this claim
is insufficiently pled. Franqui's entire argument in this
appeal is one sentence contained in a footnote: “Whether
a motion to consolidate should have been filed is an
issue, which speaks to whether the defense counsel was
ineffective in not so filing.” See Appellant's Initial Brief
at 58 n. 29.

Franqui also claims that his due process rights were violated
because the same judge sentenced him to death in both
of Franqui's murder cases. This argument, however, is
refuted by the record. While the same judge did initially
sentence Franqui to death in the Hialeah case and the instant
case, ultimately Franqui's death sentence for this crime was
reversed by this Court. See Franqui I, 699 So.2d at 1333.
A different trial judge subsequently presided over Franqui's
resentencing and issued the death sentence that was later
affirmed on direct appeal. See Franqui II, 804 So.2d at 1189.
Thus, the same judge did not issue the two death sentences
now pending.

3. State's Subpoena of Eric Cohen
Franqui claims it was improper for the State to invoke the
use of an investigatory subpoena to compel defense counsel
to appear for questioning in the prosecutor's office prior to
the postconviction evidentiary hearing. Section 27.04, Florida
Statutes (2006), provides as follows:
The state attorney shall have summoned all witnesses
required on behalf of the state; and he or she is allowed
the process of his or her court to summon witnesses from
throughout the state to appear before the state attorney
in or out of term time at such convenient places in the
state attorney's judicial circuit and at such convenient times
as may be designated in the summons, to *35 testify
before him or her as to any violation of the law upon which
they may be interrogated, and he or she is empowered to
administer oaths to all witnesses summoned to testify by
the process of his or her court or who may voluntarily
appear before the state attorney to testify as to any violation
or violations of the law.
While we may agree with Franqui that this statute, giving
prosecutors the powers necessary to investigate crimes,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

should not be used as a discovery tool to compel defense
counsel to testify ex parte in postconviction proceedings, we
find no error in the trial judge's treatment of the issue as
asserted in this case. We conclude that the record conclusively
demonstrates that no harm resulted from the State's pretrial
questioning of defense counsel or the failure of the State to
notify postconviction counsel of this questioning. In other
words, while it may appear that the State abused its authority
under the statute, Franqui has not demonstrated that the State
was provided information that it was not otherwise entitled
to in defending Franqui's assertions of ineffectiveness of
counsel.

(“Our cases also have long recognized that improper remarks
to the jury may in some instances be so prejudicial that
neither rebuke nor retraction will destroy their influence,
and a new trial should be granted despite the absence of an
objection below....”). In fact, it is apparent from our discussion
that we considered this comment on direct appeal and did
not conclude that it constituted fundamental error. We also
note that Franqui has not demonstrated that the jury was not
properly instructed by the trial court on this same issue. For all
of these reasons, we conclude relief on this claim was properly
denied.

5. Florida's Death Penalty is Unconstitutional
4. Improper Prosecutorial Conduct
Franqui next takes issue with the trial court's denial of relief
on his claim of fundamental error in the prosecutor's improper
remark in the State's closing: “If the aggravation is always
stronger, always more powerful in your hearts and minds, the
Judge is going to tell you it's your obligation that you should
vote to recommend for death.” As the trial court correctly
noted, this Court did address several improper comments
made at Franqui's trial on the direct appeal after resentencing
and found no reversible error. Further, even though it was
not specifically challenged on direct appeal, we addressed the
comment at issue in this claim:
At oral argument, Franqui's appellate counsel also argued
that the State misstated the law during closing argument
in commenting, “[I]f the aggravation is always stronger,
always more powerful in your hearts and in your minds,
the Judge is going to tell you it's your obligation that
you should vote to recommend for the death penalty.” No
objection was made to this comment at trial, nor was this
issue raised in Franqui's brief. Nevertheless, we take this
opportunity to caution prosecutors to avoid using language
instructing the jury that it has a duty or obligation to
recommend death. See Urbin v. State, 714 So.2d at 411,
421 (Fla.1998); Garron [v. State], 528 So.2d [353,] 359
[ (Fla.1988) ].
Franqui II, 804 So.2d at 1194 n. 8.
We also agree with the postconviction court that this claim
is procedurally barred since it could have been raised as
fundamental error on direct appeal. Further, Franqui has not
established that the comment constitutes the fundamental
error necessary to overcome the lack of preservation by trial
counsel. See Robinson v. State, 520 So.2d 1, 7 (Fla.1988)

Franqui next asserts that Florida's death penalty scheme
is unconstitutional *36 under Ring v. Arizona, 536 U.S.
584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002). However,
both this court and the United States Supreme Court have
held that Ring does not apply retroactively. See Johnson
v. State, 904 So.2d 400 (Fla.2005); Schriro v. Summerlin,
542 U.S. 348, 124 S.Ct. 2519, 159 L.Ed.2d 442 (2004).
Franqui's death sentence became final after the Court rejected
his direct appeal following resentencing in 2001; therefore,
Franqui cannot rely on Ring to find his death sentence
unconstitutional. See Washington v. State, 907 So.2d 512,
514 (Fla.) (finding defendant not entitled to relief under Ring
because Ring is not applied retroactively), cert. denied, 546
U.S. 1064, 126 S.Ct. 802, 163 L.Ed.2d 632 (2005).

PETITION FOR WRIT OF HABEAS CORPUS
1. Ineffective Assistance of Appellate Counsel
Consistent with the Strickland standard, to grant habeas
relief based on ineffectiveness of counsel, this Court must
determine
first, whether the alleged omissions are of such magnitude
as to constitute a serious error or substantial deficiency
falling measurably outside the range of professionally
acceptable performance and, second, whether the
deficiency in performance compromised the appellate
process to such a degree as to undermine confidence in the
correctness of the result.
Pope v. Wainwright, 496 So.2d 798, 800 (Fla.1986); see
also Freeman v. State, 761 So.2d 1055, 1069 (Fla.2000);
Thompson v. State, 759 So.2d 650, 660 (Fla.2000). In raising

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

such a claim, “[t]he defendant has the burden of alleging a
specific, serious omission or overt act upon which the claim
of ineffective assistance of counsel can be based.” Freeman,
761 So.2d at 1069; see Knight v. State, 394 So.2d 997, 1001
(Fla.1981); see also Rutherford v. Moore, 774 So.2d 637,
643 (Fla.2000). “If a legal issue ‘would in all probability
have been found to be without merit’ had counsel raised the
issue on direct appeal, the failure of appellate counsel to
raise the meritless issue will not render appellate counsel's
performance ineffective.” Id. (quoting Williamson v. Dugger,
651 So.2d 84, 86 (Fla.1994)).

A. Failure to Challenge Franqui's Confession

and furthermore that the defendant consistently agreed to
waive his rights under Miranda v. Arizona, 384 U.S. 436,
86 S.Ct. 1602, 16 L.Ed.2d 694 (1966)); Walker v. State, 707
So.2d 300, 310–11 (Fla.1997) (upholding voluntariness of
confession where the defendant was questioned for six hours
during the morning and early part of day, was provided with
drinks and allowed to use the bathroom when he wished,
was never threatened with capital punishment, and was never
promised anything other than that the officer would inform
the prosecutor that the defendant had cooperated).
Further, as the State correctly notes in response to Franqui's
alternative argument, Franqui did not argue during trial that
his confession should have been suppressed because of the
state of his mental health; accordingly, any claim based on
his mental health during interrogation was not preserved for
review. Perez v. State, 919 So.2d 347, 359 (Fla.2005) (holding
that, for an issue to be preserved for appeal, the specific legal
argument or ground to be argued on appeal must have been
presented to the lower court), cert. denied, 547 U.S. 1182,
126 S.Ct. 2359, 165 L.Ed.2d 285 (2006). In turn, since the
issue was not preserved, appellate counsel cannot be deemed
ineffective for failing to raise it. Groover v. Singletary, 656
So.2d 424, 425 (Fla.1995).

Franqui claims that appellate counsel was ineffective for
failing to challenge the circumstances of Franqui's confession
on direct appeal. This issue is somewhat related to Franqui's
postconviction claim challenging trial counsel's effectiveness
in seeking suppression of Franqui's confession. After a
lengthy hearing on Franqui's motion to suppress, the trial
judge concluded that Franqui's confession was not coerced
and that his waiver of rights was both free and voluntary.
Importantly, Franqui has not demonstrated in his habeas
petition that, in all probability, appellate counsel would
have been successful in overturning the trial court's findings
and rulings on direct appeal. While Franqui testified at
the suppression hearing that he was coerced and that his
confession was essentially beaten out of him, this testimony
was not found credible by the trial judge, who instead credited
the officers' testimony that Franqui voluntarily waived his
rights and that he was not mistreated in any way. Although
the suppression hearing revealed that Franqui was questioned
over a lengthy period, the record also demonstrates that he
was given refreshment, allowed to take a break to speak with
his wife, was repeatedly informed of his rights on multiple
occasions, *37 and, according to the State's witnesses,
appeared alert the entire time.

B. Prosecutorial Misconduct

Based on the totality of the circumstances in the instant
case, and the existence of competent, substantial evidence
to support the trial court's rulings, we cannot conclude that
appellate counsel was ineffective for failing to challenge
the denial of the motion to suppress on appeal. See Chavez
v. State, 832 So.2d 730, 748–49 (Fla.2002) (finding that
continual police custody of more than fifty-four hours was
not dispositive of whether or not to suppress a confession
since the defendant in that case was provided with frequent
breaks, refreshment, and time away from the police facility,

C. Record of Confessions

Although not specified in his brief, Franqui claims ineffective
assistance of appellate counsel for failing to challenge alleged
improper prosecutorial comments made at trial. Given that
the particular comments are not argued with any specificity
and there is no attempt to demonstrate that any alleged
errors were preserved for appeal, we find any such claim
to be insufficiently pled and we deny relief. See Patton v.
State, 878 So.2d 368, 380 (Fla.2004) (holding that conclusory
allegations are insufficient to properly state a claim). We also
note that a similar issue was raised by counsel on appeal and
we found similar comments to be harmless in view of the
overall circumstances of the case, including the trial court's
instructions to the jury. See Franqui II, 804 So.2d at 1192–94.

Franqui raised a claim in his original 3.851 motion to the
court below, alleging that the circumstances surrounding his
confession, including the officers' election not to make an
audio or visual recording of any portion of the interrogation,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Franqui v. State, 965 So.2d 22 (2007)
32 Fla. L. Weekly S210

make the defendant's statement unreliable, illegal and
inadmissible. However, the trial court denied relief, finding
the claim to be procedurally barred while also noting that
that there is no constitutional or other legal requirement that
police agencies record or preserve an oral confession. In his
habeas petition, Franqui now argues that appellate counsel
was ineffective for not raising the same claim on direct appeal.
The record reflects that while Franqui did move to suppress
his confession, he did not *38 argue that it should be
suppressed because it was not recorded. As the State correctly
notes, in order to preserve an issue regarding suppression,
Franqui must have raised to the trial court the same argument
he raises on appeal. See Perez, 919 So.2d at 349. We agree that
since the issue was not preserved, appellate counsel cannot
be deemed ineffective for failing to raise it. See Groover, 656
So.2d at 425.

E. Mitigation
Franqui claims that appellate counsel failed to sufficiently
challenge the resentencing court's rejection of the fact that
Franqui did not fire the fatal bullet as nonstatutory mitigation.
This claim, however, is refuted by the record, which reflects
that appellate counsel did raise this argument in Franqui's
direct appeal after resentencing, and the argument was
expressly rejected by this Court. See Franqui II, 804 So.2d at
1197 (“Under the particular facts in this case, we find that the
trial court did not err in considering, but ultimately rejecting,
the fact that Franqui did not fire the fatal bullet as a mitigating
circumstance.”).

CONCLUSION
D. Testimony of Assistant State Attorney DiGregory
Franqui argues that appellate counsel was ineffective when
he failed to raise on direct appeal the trial court's decision to
prevent defense counsel Cohen from calling Assistant State
Attorney Kevin DiGregory as a witness. Without providing
any legal basis for a claim of error or details regarding the
failed attempt to call DiGregory as a witness in the guilt-phase
trial, Franqui argues that DiGregory should have been asked
a number of questions that Franqui now posits for the first
time in this proceeding. Given the lack of specificity and legal
basis regarding this claim, as well as the hypothetical nature
of the questions posed, we find this claim to be insufficiently
pled and deny relief. See Patton, 878 So.2d at 380.
End of Document

For the reasons stated, we affirm the circuit court's denial of
postconviction relief and deny Franqui's petition for a writ of
habeas corpus.
It is so ordered.

LEWIS, C.J., and WELLS, ANSTEAD, PARIENTE,
QUINCE, CANTERO, and BELL, JJ., concur.
All Citations
965 So.2d 22, 32 Fla. L. Weekly S210
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Franqui v. State, 804 So.2d 1185 (2001)

APPENDIX H

26 Fla. L. Weekly S695

804 So.2d 1185
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
No. SC94269.
|
Oct. 18, 2001.
|
Rehearing Denied Jan. 8, 2002.
Synopsis
Defendant was convicted in the Circuit Court, Dade
County, Rodolfo Sorondo, J., of first-degree murder of law
enforcement officer and other crimes, and was sentenced
to death. Defendant appealed. The Supreme Court affirmed
defendant's convictions, but vacated. On remand, the trial
court, Robert N. Scola, Jr., J., again sentenced defendant
to death, and defendant again appealed. The Supreme
Court held that: (1) prospective jurors who vacillated as
to their ability to recommend death were properly excused
for cause; (2) jury was not required to recommend death
sentence upon finding that aggravating factors outweighed
mitigating factors; (3) court's error in instructing jury
during voir dire that it was required to recommend death
sentence if aggravating circumstances outweighed mitigating
circumstances was harmless; (4) any error in prosecutor's
voir dire comment implying the same obligation was also
harmless; (5) state's closing argument did not improperly
ask jury to draw particular logical conclusion from evidence;
(6) prosecutor's improper comment during closing argument
was not so egregious as to taint entire proceeding;
(7) court gave appropriate weight and consideration to
all aggravating and mitigating factors; (8) sentencing
order contained constitutionally adequate findings as to
defendant's culpability; and (9) sentence of death was not
disproportionate.
Affirmed.
Wells, C.J., concurred in result only.
Shaw, J., concurred in part and dissented in part with separate
opinion in which Anstead and Pariente, JJ., joined.

Anstead, J., concurred in part and dissented in part with
separate opinion in which Shaw and Pariente, JJ., joined.
Quince, J., concurred in result only.
Attorneys and Law Firms
*1188 John H. Lipinski, Special Assistant Public Defender,
Miami, FL, for Appellant.
*1189 Robert A. Butterworth, Attorney General, and Sandra
S. Jaggard, Assistant Attorney General, Miami, FL, for
Appellee.
Opinion
PER CURIAM.
We have on appeal an order of the trial court imposing the
death penalty upon Leonardo Franqui following resentencing.
We have jurisdiction. See art. V, § 3(b)(1), Fla. Const. For the
reasons set forth below, we affirm Franqui's death sentence.

BACKGROUND
On February 14, 1992, Franqui was charged with committing
first-degree murder of a law enforcement officer; armed
robbery; aggravated assault; two counts of grand theft; and
two counts of burglary in connection with a bank robbery.
Franqui was tried jointly with codefendants Ricardo Gonzalez
and Pablo San Martin. This Court previously summarized the
facts in this case as follows:
The defendant, Leonardo Franqui, along with codefendants
Pablo San Martin, Ricardo Gonzalez, Fernando Fernandez,
and Pablo Abreu were charged with first-degree murder of
a law enforcement officer, armed robbery with a firearm,
aggravated assault, unlawful possession of a firearm while
engaged in a criminal offense, grand theft third degree, and
burglary [Note 1]. Franqui, Gonzalez, and San Martin were
tried together before a jury in May, 1994.
[Note 1] One count of aggravated assault and the
unlawful possession of a firearm while engaged in a
criminal offense were nol prossed by the State after its
opening statement.
The record reflects that the Kislak National Bank in North
Miami, Florida, was robbed by four gunmen on January 3,
1992. The perpetrators made their getaway in two stolen

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

grey Chevrolet Caprice cars after taking a cash box from
one of the drive-in tellers. During the robbery, Police
Officer Steven Bauer was shot and killed. Shortly after the
robbery, the vehicles were found abandoned two blocks
west of the bank.
Approximately two weeks later, codefendant Gonzalez was
stopped by police after leaving his residence on January
18, 1992. He subsequently made unrecorded and recorded
confessions in which he told police that Franqui had
planned the robbery, involved the other participants and
himself in the scheme, and chosen the location and date for
the crime. He said that Franqui had procured the two stolen
Chevys, driven one of the cars, and supplied him with
the gun he used during the robbery. He further stated that
Franqui was the first shooter and shot at the victim three or
four times, while he had shot only once. Gonzalez indicated
that he shot low and believed he had only wounded the
victim in the leg. Gonzalez consented to a search of his
apartment which revealed $1200 of the stolen money in
his bedroom closet. He was subsequently reinterviewed
by police and, among other things, described how Franqui
had shouted at the victim not to move before shooting him
[Note 2].
[Note 2] San Martin also made a confession to police,
in which he stated that the robbery was planned by a
black friend of the codefendant Fernandez and that the
planning occurred at Fernandez's apartment. San Martin
admitted that he had grabbed the money tray during the
robbery but could not say who carried guns or did the
shooting.
Franqui was also questioned by police on January 18,
1992, in a series of unrecorded and recorded sessions.
During his preinterview, Franqui initially denied *1190
any involvement in the Kislak Bank robbery, but when
confronted with the fact that his accomplices were in
custody and had implicated him, he ultimately confessed.
Franqui stated that Fernandez had hatched the idea for
the robbery after talking to a black male, and he had
accompanied the two men to the bank a week before the
robbery actually took place. He maintained that the black
male friend of Fernandez had suggested the use of the two
stolen cars but denied any involvement in the thefts of the
vehicles. According to Franqui, San Martin, Fernandez and
Abreu had stolen the vehicles. Franqui did admit to police
that he and Gonzalez were armed during the episode, but
stated that it was Gonzalez-and not himself-who yelled at
the victim to “freeze” when they saw him pulling out his

gun. Franqui denied firing the first shot and maintained that
he fired only one shot later.
At trial, over the objection of Franqui, the confessions of
codefendants San Martin and Gonzalez were introduced
without deletion of their references to Franqui, upon the
trial court's finding that their confessions “interlocked”
with Franqui's own confession. In addition, an eyewitness
identified Franqui as the driver of one of the Chevrolets
leaving the bank after the robbery, and his fingerprints
were found on the outside of one of the vehicles. Ballistics
evidence demonstrated that codefendant Ricardo Gonzalez
had fired the fatal shot from his .38 revolver, hitting the
victim in the neck, and that Franqui had shot the victim in
the leg with his .9 mm handgun.
Franqui v. State, 699 So.2d 1332, 1333-34 (Fla.1997).
Franqui was convicted on all counts and the jury
recommended death by a vote of nine to three. See id. at
1334. The trial court followed the jury's recommendation and
sentenced Franqui to death. See id.
On appeal, we affirmed Franqui's convictions but vacated his
sentence on the basis that the trial court erred in admitting
the confession of codefendant Gonzalez against Franqui in
their joint trial. See id. at 1335-36. Although we found the
admission of Gonzalez's confession was harmless beyond a
reasonable doubt with respect to guilt, we concluded that the
confession could have prejudiced Franqui during the penalty
phase. See id. at 1336. Accordingly, we vacated Franqui's
death sentence and remanded the case for a new penalty phase
proceeding. See id.
During the week of August 24-31, 1998, a jury was
empaneled and a new penalty phase was held. At the
resentencing, the State presented several witnesses, including
the two bank tellers who were with Officer Bauer the morning
of his murder; law enforcement officers who arrived at
the scene following the shooting to gather evidence and
render emergency assistance to the victim; detectives who
questioned and obtained a sworn statement from Franqui
describing his role in the robbery leading to Officer Bauer's
death; and a medical examiner regarding the cause of death
and injuries.
Franqui presented the testimony of several witnesses to
substantiate his claims for mitigation. Specifically, Franqui's
uncle testified with respect to his family history and
background. Franqui's cousin testified regarding his selfimprovement and faith since being incarcerated. In addition,
Franqui's father-in-law and sister-in-law testified that he was

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

a good husband as well as a loving and caring father to his
two children.
1

1

Although Franqui developed a marital relationship with
his girlfriend and they had two children together, the
record reflects that they never officially married.

The jury recommended the death penalty by a vote of
ten to two. The trial court *1191 followed the jury's
recommendation and sentenced Franqui to death. In so doing,
the trial court found three aggravating circumstances,2 no
statutory mitigating circumstances,3 and four nonstatutory
mitigating circumstances.4 The trial court concluded that
the aggravating circumstances outweighed the mitigating
circumstances and sentenced Franqui to death.
2

3

4

The trial court found the following three aggravating
circumstances: (1) Franqui had a prior conviction for a
capital or violent felony (great weight); (2) the murder
was committed during the course of a robbery and
for pecuniary gain, merged (great weight); and (3) the
murder was committed to avoid arrest and hinder law
enforcement and the victim was a law enforcement
officer, merged (great weight).
The trial court considered and rejected Franqui's age as
a mitigating circumstance based on his maturity at the
time of the murder. In addition, the trial court concluded
no evidence presented reasonably established any of the
other statutory mitigating circumstances.
The trial court found the following four nonstatutory
mitigating circumstances: (1) Franqui's relationship
with his children (little weight); (2) cooperation with
authorities (little weight); (3) life sentences imposed
on codefendants San Martin and Abreu (little weight);
and (4) self-improvement and faith while in custody
(some weight). The trial court rejected Franqui's family
history and the fact that he did not fire the fatal bullet as
nonstatutory mitigating circumstances.

This appeal follows, in which Franqui raises the following six
issues: (1) the trial court erred in excusing two potential jurors
for cause; (2) the trial court erred in instructing and permitting
the jury to be instructed by the State that it was required to
recommend a death sentence if the aggravating circumstances
outweighed the mitigating circumstances; (3) the trial court
erred in overruling defense objections to prosecutorial closing
argument; (4) the trial court erred in refusing to instruct
the jury that it could consider the life sentences given to
codefendants San Martin and Abreu as a mitigating factor;

(5) the trial court failed to find and weigh all mitigating
circumstances; and (6) the death penalty is disproportionate
in this case.

ANALYSIS
First, Franqui asserts that the trial court improperly excused
jurors Pereira and Lopez for cause over defense counsel's
objections. Franqui claims that both jurors indicated their
ability to follow the law and the court's instructions and,
therefore, should not have been excused. The test for
determining juror competency is “whether the juror can lay
aside any bias or prejudice and render a verdict solely on the
evidence presented and the instructions on the law given by
the court.” Kearse v. State, 770 So.2d 1119, 1128 (Fla.2000)
(citing Lusk v. State, 446 So.2d 1038, 1041 (Fla.1984)). Under
this test, a trial court should excuse a juror for cause if any
reasonable doubt exists as to whether the juror possesses an
impartial state of mind. See id.; see also Singer v. State,
109 So.2d 7, 23-24 (Fla.1959) (“[I]f there is basis for any
reasonable doubt as to any juror's possessing that state of mind
which will enable him to render an impartial verdict based
solely on the evidence submitted and the law announced at
the trial he should be excused for cause on motion of a party,
or by the court on its own motion.”). The trial court has the
duty to decide if a challenge for cause is proper, and its ruling
will be sustained on appeal absent an abuse of discretion. See
Castro v. State, 644 So.2d 987, 989-90 (Fla.1994); see also
Singleton v. State, 783 So.2d 970, 973 (Fla.2001).
*1192 During voir dire, juror Pereira initially expressed
doubts about her support of the death penalty but thought it
was necessary given the current state of affairs. When asked
by the court if she could recommend death if the aggravating
circumstances outweighed the mitigating circumstances,
Pereira responded, “I think yes.” Upon further questioning by
the court, Pereira clarified her previous response by stating
that she would recommend death if she really believed that it
was necessary. Pereira, however, subsequently indicated that
she agreed with another veniremember who responded that
she would never impose the death sentence. Based upon her
vacillation throughout voir dire, we find that the trial court did
not abuse its discretion in excusing her for cause. See Hannon
v. State, 638 So.2d 39, 41-42 (Fla.1994); Randolph v. State,
562 So.2d 331, 336-37 (Fla.1990).
Similarly, we find that the trial court did not abuse its
discretion in excusing juror Lopez for cause. Although

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

Lopez initially told the court that she was in favor of the
death penalty, she later stated that she could not cast the
deciding vote recommending a death sentence. Following an
overnight recess, Lopez indicated that she was under a lot
of stress because of the trial and the possibility of having
to decide about the death penalty. Subsequently, she stated
for the second time that she could not cast the deciding
vote recommending a death sentence. Upon questioning by
defense counsel, however, Lopez indicated that she would be
able to recommend the death penalty if voting was done by
secret ballot. Given the equivocal responses Lopez provided
as to whether she could recommend the death penalty, we find
the trial court did not abuse its discretion in excusing her for
cause.
Next, Franqui argues that the trial court erred in instructing
and permitting the jury to be instructed by the State
during voir dire that it was required to recommend a death
sentence if the aggravating circumstances outweighed the
mitigating circumstances. During its opening remarks to
the initial venire, the trial court stated, “If you believe
that the aggravating factors outweigh the mitigating factors,
then the law requires that you recommend a sentence of
death.” (Emphasis added.) The State argues that this issue
was not preserved for appeal because trial counsel did not
raise a contemporaneous objection. We disagree. Although
defense counsel did not object until a short time after the trial
court's opening remarks were completed, we find the purpose
of the contemporaneous objection rule was satisfied in this
case, i.e., to place the trial judge on notice that an error may
have occurred and provide him or her with the opportunity to
correct the error at an early stage of the proceedings.
In Henyard v. State, 689 So.2d 239 (Fla.1996), we considered
whether a prosecutor's comments during voir dire that jurors
must recommend death when aggravating circumstances
outweigh mitigating circumstances misstated the law. See
id. at 249-50. We held that the prosecutor's comments were
misstatements of law because “a jury is neither compelled
nor required to recommend death where aggravating factors
outweigh mitigating factors.” Id.; see also Brooks v. State,
762 So.2d 879, 902 (Fla.2000) (stating that prosecutor
misstated the law in commenting that jurors must recommend
a death sentence unless the aggravating circumstances are
outweighed by the mitigating circumstances); cf. Garron v.
State, 528 So.2d 353, 359 & n. 7 (Fla.1988) (finding that
it was a misstatement of the law to argue that “when the
aggravating factors outnumber the mitigating factors, then
death is an appropriate penalty”). For the *1193 same

reasons expressed in Henyard, we agree with Franqui that
the trial court's comment that the law required jurors to
recommend a death sentence if the aggravating circumstances
outweighed the mitigating circumstances misstated the law.5
5

We also ask that the Committee on Standard Jury
Instructions in Criminal Cases review the standard
instructions to be certain our opinions in Henyard,
Brooks and Garron have been properly considered, and
to consider whether additional instructions such as those
given by the trial court here should be included in
the standard instructions. See note 7, infra. We note,
for example, that the Eleventh Circuit's pattern jury
instructions for death penalty cases provide in part:
If, after weighing the aggravating and mitigating
factors, you determine that the aggravating factors
found to exist sufficiently outweigh the mitigating
factors; or, in the absence of mitigating factors,
if you find that the aggravating factors alone
are sufficient, you may exercise your option to
recommend that a sentence of death be imposed
rather than some lesser sentence. Regardless of
your findings with respect to aggravating and
mitigating factors, however, you are never required
to recommend a sentence of death.
....
The process of weighing aggravating and
mitigating factors to determine the proper
punishment is not a mechanical process. The law
contemplates that different factors may be given
different weights or values by different jurors. In
your decision making process, you, and you alone,
are to decide what weight is to be given to a
particular factor.
Your only interest is to seek the truth from the
evidence and to determine in the light of that
evidence and the Court's instructions whether to
recommend a sentence of death. If you do not
recommend a sentence of death, the Court is
required by law to impose a sentence other than
death, which sentence is to be determined by the
Court alone. Let me admonish you again, while you
may recommend a sentence of death, you are not
required to do so.
Pattern Jury Instructions (Criminal Cases), Offense
Instruction 76.4 (Eleventh Circuit District Judges
Ass'n 1997) (emphasis added).

As in Henyard, however, we conclude that Franqui was
not prejudiced by this error. Despite Franqui's contrary
assertions, we find that the trial court's subsequent comments
to prospective jurors during voir dire were consistent with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

the standard jury instructions.6 More importantly, the trial
court did not repeat the misstatement of law when instructing
the jury prior to its deliberations. To the contrary, the final
jury instructions given in this case were consistent with
the standard jury instructions. In addition, the trial court
gave defense counsel's requested instruction apprising the
jury that the weighing process was not a mere counting of
the aggravating and mitigating circumstances, but rather a
reasoned judgment as to what the appropriate sentence should
be in light of the nature of the aggravating and mitigating
circumstances found to exist.7 This additional instruction was
more in accord with Henyard and our seminal decision in
State v. Dixon, 283 So.2d 1, 10 (Fla.1973), cert. denied,
*1194 416 U.S. 943, 94 S.Ct. 1950, 40 L.Ed.2d 295 (1974),
wherein we stressed:
6

7

We do note, however, that the trial court did repeat
its prior statement that the law requires the jury
to recommend a death sentence if the aggravating
circumstances outweigh the mitigating circumstances
during individual voir dire of juror Hernandez, who was
subsequently removed for cause.
In particular, the trial court instructed the jury:
It must be emphasized that the weighing process is
not a mere counting of the number of aggravating
circumstances and the number of mitigating
circumstances. But rather, a reasoned judgment as
to what the appropriate sentence in this case in light
of the nature and aggravating factors that you findexcuse me, aggravating and mitigating factors that
you find.
The record reveals that the latter part of the trial court's
written instructions read: “[B]ut rather a reasoned
judgement as to what the appropriate sentence is in
this case in light of the nature of the aggravators and
mitigators you find.”

It must be emphasized that the procedure to be followed by
the trial judges and juries is not a mere counting process of
X number of aggravating circumstances and Y number of
mitigating circumstances, but rather a reasoned judgment
as to what factual situations require the imposition of death
and which can be satisfied by life imprisonment in light of
the totality of the circumstances present.
Under these circumstances, we find the trial court's isolated
misstatements of the law during voir dire to be harmless.
See Henyard, 689 So.2d at 250. Further, we find that
the trial court did not abuse its discretion in refusing to
give the curative instruction requested by defense counsel

during voir dire. See Foster v. State, 614 So.2d 455, 462
(Fla.1992) (finding trial court did not abuse its discretion
in refusing to give instruction on jury's pardon power);
Mendyk v. State, 545 So.2d 846, 850 (Fla.1989) (stating
that there is no requirement that the jury be instructed on
its pardon power); see also Dougan v. State, 595 So.2d 1,
4 (Fla.1992).
Within this issue, Franqui also argues that the trial court erred
in permitting the State to instruct the venire that “if mitigation
never outweighs the aggravation in your mind, if aggravation
is always more powerful, more weighted, than the mitigation,
then you vote to recommend the death penalty.” Defense
counsel objected to this comment, and in response the trial
court informed the jury concerning the law relating to the
weighing of aggravating and mitigating circumstances. More
importantly, as noted above, the final jury instructions given
in this case were consistent with the standard jury instructions.
Thus, even assuming that the objected-to comment misstated
the law, we conclude any error resulting from this isolated
comment made during an extensive jury selection process was
harmless.8 See Henyard, 689 So.2d at 250.
8

At oral argument, Franqui's appellate counsel also argued
that the State misstated the law during closing argument
in commenting, “[I]f the aggravation is always stronger,
always more powerful in your hearts and in your minds,
the Judge is going to tell you it's your obligation that
you should vote to recommend for the death penalty.”
No objection was made to this comment at trial, nor
was this issue raised in Franqui's brief. Nevertheless,
we take this opportunity to caution prosecutors to avoid
using language instructing the jury that it has a duty or
obligation to recommend death. See Urbin v. State, 714
So.2d at 411, 421 (Fla.1998); Garron, 528 So.2d at 359.

Franqui also argues that the trial court erred in overruling
defense counsel's objections to arguments made by the State
during closing argument. In particular, Franqui alleges that
the State improperly made comments outside the scope of the
evidence by arguing that he used part of the proceeds from
the Kislak Bank robbery to repaint his father-in-law's car so
as to avoid arrest and to purchase a gun which was used in the
subsequent robbery of Craig Van Ness. Franqui also asserts
that the State improperly commented on the robbery of Van
Ness, implying that he would have murdered Van Ness if he
had not been arrested.9
9

In particular, the State argued:
January 14, a very wonderful thing happens to
the people of Dade County. This defendant gets

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695
arrested. He's in custody. Or perhaps, you thought,
like perhaps the defendant thought, this would never
end. But it did end. Maybe by luck, maybe by
accident, a uniformed officer sees somebody, looks
a little hinky [sic] inside a van, guy starts to flee
from him, follows him and catches him and look
what happens. He catches somebody on what was
a traffic offense, only to find out he's got a man
held at gunpoint whose been kidnaped here and it's
the same gang that's involved in this crime and this
crime and this crime.
And if there wasn't that police officer there, who just
happened to have seen what took place on January
14, I don't want to guess about[DEFENSE COUNSEL]: Objection.
[THE COURT]: All right. This is argument.
Overruled.
[STATE]: I don't want to guess about how that day
would have ended. But it's nice to know that Craig
Van Nest [sic] was able to walk into a courtroom
some time later, tell a jury what had taken place
and this defendant was convicted of those crimes as
well.

*1195 This Court has held that wide latitude is afforded
counsel during argument. See Moore v. State, 701 So.2d 545,
550 (Fla.1997); Breedlove v. State, 413 So.2d 1, 8 (Fla.1982).
Logical inferences may be drawn, and counsel is allowed to
advance all legitimate arguments. See Thomas v. State, 748
So.2d 970, 984 (Fla.1999). The standard jury instructions
contain cautions that while the arguments of counsel are
intended to be helpful and persuasive, such arguments are not
to be taken as sources of the law or evidence. Further, the
control of comments made to the jury is within the trial court's
discretion, and an appellate court will not interfere unless an
abuse of discretion is shown. See Occhicone v. State, 570
So.2d 902, 904 (Fla.1990).
As to the comment pertaining to Franqui's use of part of
the proceeds from the bank robbery, we find no error. The
record reflects that Franqui was unemployed at the time of the
offense and had been so since December 1991. Nonetheless,
the car used as the getaway vehicle upon abandoning the
two stolen vehicles, which was owned by Franqui's fatherin-law, was repainted shortly after the crime. The record
also indicates that the guns used in the bank robbery were
discarded following the crime. However, eleven days after
the bank robbery, Franqui and two accomplices robbed and
kidnapped Van Ness with a different gun. Based on these
facts, we find the State's comment did not constitute an
improper attempt to ask the jury to draw a logical inference
based upon the evidence. See Mann v. State, 603 So.2d 1141,

1143 (Fla.1992) (holding that merely arguing conclusions
which can be drawn from the evidence is “permissible fair
comment”). Thus, the trial court did not abuse its discretion
in overruling defense counsel's objection to this comment.
On the other hand, we find the State's comment pertaining
to the subsequent robbery of Van Ness was improper since
it implied that Franqui and his accomplices would have
murdered Van Ness had the police not stopped the van and
arrested the occupants. Nonetheless, this isolated comment,
by itself, does not warrant resentencing. This Court has held
that prosecutorial misconduct in the penalty phase must be
egregious to warrant vacating the sentence and remanding
for a new penalty phase proceeding. See Bertolotti v. State,
476 So.2d 130, 133 (Fla.1985). In light of the record in this
case, this single erroneous comment within the State's lengthy
closing argument was not so egregious as to taint the validity
of the jury's recommendation and require reversal of the entire
resentencing proceeding. See id.
Next, Franqui asserts that the trial court erred in
refusing defense counsel's request that the jury be given
a specific instruction that it could consider the life
sentences of codefendants San Martin and Abreu as a
mitigating circumstance. The trial court refused the requested
instruction, concluding that this issue was *1196 covered
by the standard jury instruction regarding nonstatutory
mitigation. Contrary to the State's assertion, we find this
issue was preserved for review. See Toole v. State, 479 So.2d
731, 733 (Fla.1985) (“The contemporaneous objection rule
is satisfied when, as here, the record shows that there was
a request for an instruction, that the trial court understood
the request, and that the trial court denied the specific
request.”); see also State v. Heathcoat, 442 So.2d 955, 955-56
(Fla.1983). Nonetheless, we find this issue to be without
merit. The trial court gave the standard jury instruction
on nonstatutory mitigating circumstances, which explains in
part that the jury may consider “any other circumstance of
the offense” in mitigation. We have held that this standard
jury instruction on nonstatutory mitigating circumstances is
sufficient, and there is no need to give separate instructions
on each item of nonstatutory mitigation. See Gore v. State,
706 So.2d 1328, 1334 (Fla.1997); San Martin v. State, 705
So.2d 1337, 1349 (Fla.1997); James v. State, 695 So.2d
1229, 1236 (Fla.1997). Moreover, the trial court read to
the jury a stipulation pertaining to the life sentences given
to codefendants San Martin and Abreu prior to closing
arguments, and the trial court specifically informed defense
counsel that he could argue codefendants' life sentences as a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

mitigating circumstance to the jury, which counsel did during
closing argument.

while in custody was established as a mitigating circumstance
and entitled to some weight.

Franqui also argues that the trial court failed to find and
weigh all of the nonstatutory mitigating evidence presented
at resentencing. Specifically, Franqui contends that the trial
court should have found and weighed in mitigation his family
history and abandonment by his natural parents, his newfound
maturity while incarcerated, and the fact that he did not fire
the fatal bullet. This Court has stated that a trial court in
its written order must evaluate each mitigating circumstance
offered by the defendant and decide if it has been established
and, in the case of nonstatutory factors, if it is of a truly
mitigating nature. See Campbell v. State, 571 So.2d 415,
419 (Fla.1990). A trial court “must find as a mitigating
circumstance each proposed factor that is mitigating in nature
and has been reasonably established by the greater weight of
the evidence.” Id. (footnote omitted). However, a trial court
may reject a claim that a mitigating circumstance has been
proven, provided the record contains competent substantial
evidence to support the rejection. See Mansfield v. State, 758
So.2d 636, 646 (Fla.2000); Ferrell v. State, 653 So.2d 367,
371 (Fla.1995).

10

First, Franqui argues that the trial court failed to find
and weigh in mitigation his family history, including his
abandonment by his natural parents. We disagree. The
sentencing order reveals that the trial court expressly
considered in great detail whether Franqui's family history,
including his abandonment by his natural parents, was
a mitigating circumstance. Indeed, the trial court made
extensive findings and explained its reasoning for rejecting
Franqui's family history as a mitigating circumstance. Based
upon our review, we find that competent substantial evidence
supports the trial court's conclusion.
Similarly, Franqui's contention that the trial court did not
find and weigh as a mitigating circumstance his newfound
maturity while incarcerated is without merit. Franqui's cousin
testified at resentencing that Franqui had requested books
on psychology, exercise, fitness, and mental health since his
incarceration in order to improve himself. He also testified
that Franqui had found religion since being incarcerated. It
was this testimony pertaining to Franqui's self-improvement
and *1197 faith that served as the basis for his alleged
newfound maturity, as exemplified by defense counsel's
argument during closing and at the Spencer10 hearing. The
record reflects that the trial court not only considered this
evidence, but found Franqui's self-improvement and faith

Spencer v. State, 615 So.2d 688 (Fla.1993).

Franqui also contends that the trial court failed to find and
weigh as a mitigating circumstance the fact that he did not
fire the fatal bullet. Although we have indicated that the fact
that a defendant did not fire the fatal shot may be a mitigating
factor,11 whether it actually is depends on the particular facts
of the case. Here, it is uncontradicted that Franqui shot at
Officer Bauer, striking him in the hip. Although this wound
alone was not fatal, the medical examiner testified that his
findings were consistent with the conclusion that Officer
Bauer was first shot in the hip by a bullet which ricocheted off
the pillar he took cover behind, causing him to fall forward
and be struck by the fatal bullet fired by Gonzalez. Under
the particular facts in this case, we find that the trial court
did not err in considering, but ultimately rejecting, the fact
that Franqui did not fire the fatal bullet as a mitigating
circumstance.
11

See, e.g., Curtis v. State, 685 So.2d 1234, 1237 (Fla.1996)
(noting as a mitigating circumstance the fact that
defendant did not kill the victim and his bullet merely
struck victim in the foot after co-perpetrator had fired
the fatal shot); cf. Taylor v. State, 294 So.2d 648, 652
(Fla.1974) (noting that downward trajectory of the fatal
bullet at least raised the possibility that the defendant had
not fired the shot).

Lastly, Franqui challenges the proportionality of his death
sentence. In so doing, Franqui first contends that the trial court
failed to include in its sentencing order findings that support
the Enmund-Tison culpability requirement.12 We disagree.
In its sentencing order, the trial court expressly found that
Franqui was prepared to use lethal force to eliminate any
impediment to his robbery plan and did not hesitate to actually
use such force during the bank robbery. Indeed, the record
demonstrates that Franqui surveyed the bank the day before
the crime and observed the bank tellers being escorted to their
drive-through booths; he came to the bank armed with a .9
mm handgun; and he fired the gun at Officer Bauer, striking
him in the hip. Franqui was a direct, active participant in
the bank robbery which resulted in Officer Bauer's death,
and his actions not only exhibit a reckless indifference to
life, but demonstrate that he intended lethal force to be used
should he and his accomplices face any resistance during
the robbery. Thus, we conclude the Enmund-Tison culpability
requirement is satisfied. See San Martin v. State, 705 So.2d

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

1337, 1345-46 (Fla.1997); Van Poyck v. State, 564 So.2d
1066, 1070-71 (Fla.1990); DuBoise v. State, 520 So.2d 260,
265-66 (Fla.1988); Diaz v. State, 513 So.2d 1045, 1048
(Fla.1987).
12

In Enmund v. Florida, 458 U.S. 782, 102 S.Ct. 3368,
73 L.Ed.2d 1140 (1982), the United States Supreme
Court held that imposition of the death penalty in a
felony murder case in which the defendant did not kill,
attempt to kill, or intend that a killing take place or that
lethal force be employed violates the Eighth Amendment
prohibition against cruel and unusual punishment as
applied to the states through the Fourteenth Amendment
of the United States Constitution. In Tison v. Arizona,
481 U.S. 137, 107 S.Ct. 1676, 95 L.Ed.2d 127 (1987),
the Court held that a finding of major participation in the
felony committed, combined with reckless indifference
to human life, is sufficient to satisfy the Enmund
culpability requirement for consistency with the Eighth
Amendment.

*1198 Nonetheless, Franqui claims that his death sentence
is disproportionate. Due to the uniqueness and finality of
death, this Court addresses the propriety of all death sentences
in a proportionality review. See Porter v. State, 564 So.2d
1060, 1064 (Fla.1990). In conducting this review, this Court
considers the totality of the circumstances in a case as
compared to other cases in which the death penalty has been
imposed, thereby providing for uniformity in the application
of the death penalty. See Urbin v. State, 714 So.2d 411, 416-17
(Fla.1998) (quoting Tillman v. State, 591 So.2d 167, 169
(Fla.1991)). The death penalty is reserved for only the most
aggravated and the least mitigated of first-degree murders.
See Urbin, 714 So.2d at 416; State v. Dixon, 283 So.2d 1, 7
(Fla.1973).
In this case, the trial court found three aggravating
circumstances: (1) the defendant had a prior conviction for
a capital or violent felony (great weight); (2) the murder
was committed during the course of a robbery and for
pecuniary gain, merged (great weight); and (3) the murder
was committed to avoid arrest and hinder law enforcement
and the victim was a law enforcement officer, merged (great
weight).13 The trial court found no statutory mitigating
circumstances, but did find the following four nonstatutory
mitigating circumstances: (1) Franqui's relationship with his
children (little weight); (2) his cooperation with authorities
(little weight); (3) the life sentences imposed on codefendants
San Martin and Abreu (little weight); and (4) Franqui's selfimprovement and faith while in custody (some weight).

13

Although Franqui does not challenge the trial court's
finding as to any of the aggravating circumstances,
we find that the record reveals competent substantial
evidence to support the three aggravating circumstances.

To support his claim that his death sentence is
disproportionate, Franqui primarily relies on Curtis v. State,
685 So.2d 1234 (Fla.1996). We find such reliance to be
misplaced. In Curtis, we found death to be a disproportionate
penalty given the substantial mitigation established in the
case, including defendant's age of seventeen years and the
fact that the co-perpetrator who fired the fatal shot was
sentenced to life. See id. at 1237. By contrast, in this
case there is minimal mitigation when weighed against the
aggravating circumstances. More importantly, in contrast to
Curtis, Franqui was not a minor at the time of the offense
and his codefendant who fired the fatal shot was sentenced to
death.14 See Gonzalez v. State, 786 So.2d 559 (Fla.2001).
14

The three other codefendants involved in this crime were
sentenced to life. See Fernandez v. State, 730 So.2d 277
(Fla.1999) (imposing life sentence); San Martin v. State,
717 So.2d 462 (Fla.1998) (reversing jury override and
imposing life sentence). Codefendant Abreu received a
life sentence as a result of a plea negotiation.

We find the circumstances in this case are similar to other
cases in which the death penalty has been imposed. For
instance, in Armstrong v. State, 642 So.2d 730 (Fla.1994),
the defendant shot a police officer after the officer responded
to a robbery in progress at a restaurant. The same three
aggravating circumstances that exist in this case were found
in Armstrong. The defendant in Armstrong also presented
evidence of several nonstatutory mitigators. On appeal, this
Court affirmed the death sentence. See id. at 740; see
also Burns v. State, 699 So.2d 646 (Fla.1997) (affirming
death sentence for the murder of a law enforcement officer
where avoid arrest and hinder law enforcement aggravating
*1199 circumstances were found and merged, there was one
statutory mitigating circumstance of no significant criminal
history, and insignificant nonstatutory mitigation); Reaves v.
State, 639 So.2d 1 (Fla.1994) (affirming death sentence for
the murder of a deputy sheriff, where the record supported the
existence of two aggravating circumstances of prior violent
felony and avoid arrest, no statutory mitigators, and three
nonstatutory mitigators). Accordingly, we find death is a
proportionate penalty in this case.
For the reasons stated above, we affirm Franqui's sentence.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

It is so ordered.

HARDING and LEWIS, JJ., concur.
WELLS, C.J., concurs in result only with an opinion.
SHAW, J., concurs in part and dissents in part with an opinion,
in which ANSTEAD and PARIENTE, JJ., concur.
ANSTEAD, J., concurs in part and dissents in part with an
opinion, in which SHAW and PARIENTE, JJ., concur.
QUINCE, J., concurs in result only.
WELLS, C.J., concurring in result only.
I concur in result only. I specifically do not agree with the
majority's footnote 5. I believe the majority confuses federal
and Florida law by its reference to the Eleventh Federal
Circuit's pattern jury instructions. Under Florida law it is
not proper for a trial judge to “admonish” a jury as does
this federal instruction. Under Florida law the trial judge
is required to be much more neutral than in the federal
instruction.
Nor do I believe that the Court's statement in Henyard v. State,
689 So.2d 239, 249-250 (Fla.1997), was intended to be a
jury instruction. Section 921.141, Florida Statutes, sets out
the jury's role, and we should follow the statute. That statute
states:
(2) ADVISORY SENTENCE BY THE JURY.-After
hearing all the evidence, the jury shall deliberate and render
an advisory sentence to the court, based upon the following
matters:
(a) Whether sufficient aggravating circumstances exist as
enumerated in subsection (5);
(b) Whether sufficient mitigating circumstances exist
which outweigh the aggravating circumstances found to
exist; and
(c) Based on these considerations, whether the defendant
should be sentenced to life imprisonment or death.
This is what the jury should be instructed to do, and it is
covered by the Standard Jury Instructions.

SHAW, J., concurring in part and dissenting in part.

I dissent from the majority's application of a harmless error
analysis to the trial court's opening remarks to the initial
venire wherein the trial judge stated:
If you believe that the aggravating factors outweigh
the mitigating factors, then the law requires that you
recommend a death sentence.
This was a serious misstatement of the law and guaranteed
a death sentence if in the jury's opinion the aggravators
outweighed the mitigators and the jurors, in obedience to their
oath, followed the judge's advice.
The majority's reliance in Henyard v. State, 689 So.2d 239
(Fla.1996), and Brooks v. State, 762 So.2d 879 (Fla.2000),
ignores a critical distinction. In Henyard and Brooks the
originator of the erroneous misstatement of the law was
an advocate, i.e., the prosecutor, not the trial judge as in
this instance. Undoubtedly, a jury would and should accord
greater weight to *1200 guidance given by the judge than to
an advocate's arguments relative to their duty as jurors. The
majority's harmless error analysis ignores this reality or does
not give proper weight to the source of the misstatements.
In Almeida v. State, 748 So.2d 922 (Fla.1999), we implicitly
recognized this distinction in finding a prosecutor's improper
argument on the law governing a defendant's sanity harmless
error by noting, inter alia, that “[t]he misstatement was
presented to the jury in the context of closing argument by an
advocate, not in the context of an instruction by the court.”
Id. at 927.
Moreover, unlike Brooks where the trial court immediately
responded to the defense's objection to the prosecutor's
improper argument by appropriately instructing the jury on
the law relating to the weighing of aggravating and mitigating
circumstances, the misstatement of law in the instant case
was never cogently addressed or straightforwardly corrected
despite the fact that the error was brought to the judge's
attention in time “to place [him] on notice that an error
may have occurred and provide him ... with the opportunity
to correct the error at an early stage in the proceedings.”
Majority op. at 1192.
The majority assumes in its harmless error analysis that the
trial court's reading of the standard jury instructions, which
included a correct statement of the law, diffused the effect of
the earlier misstatement. I feel that this misses the mark. When
one considers the litany of instructions the jury is exposed to
before retiring to deliberate, it is purely speculative to assume
that a serious misstatement of the law given during the voir
dire can be overcome by a mechanical reading of a catalog of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

standard jury instructions, one of which correctly states the
law which was misstated at the beginning of the trial. This
kind of speculation is not the kind of “principled analysis”
which should be the hallmark of a harmless error inquiry.
See State v. DiGuilio, 491 So.2d 1129, 1135 (Fla.1986).
Accordingly, I dissent.

ANSTEAD and PARIENTE, JJ., concur.
ANSTEAD, J., concurring in part and dissenting in part.
I concur in Justice Shaw's opinion and write separately to
emphasize the critical importance of jury instructions in
capital cases, especially as they may impact the fairness and
constitutionality of a death penalty scheme.
In the U.S. Supreme Court's recent decision in Penry v.
Johnson, 532 U.S. 782, 121 S.Ct. 1910, 150 L.Ed.2d 9 (2001),
the Court reiterated that “it is only when the jury is given a
‘vehicle for expressing its “reasoned moral response” to that
[mitigating] evidence in rendering its sentencing decision,’
that we can be sure that the jury ‘has treated the defendant as a
“uniquely individual human bein[g]” and has made a reliable
determination that death is the appropriate sentence.’ ” Penry,
532 U.S. at ----, 121 S.Ct. at 1920 (citations omitted).
The Supreme Court's admonition in Penry is similar to one
contained in this Court's seminal decision in State v. Dixon,
283 So.2d 1 (Fla.1973), cert. denied, 416 U.S. 943, 94
S.Ct. 1950, 40 L.Ed.2d 295 (1974), where in evaluating
the constitutionality of Florida's death penalty scheme, we
declared:
It must be emphasized that the procedure to be followed by
the trial judges and juries is not a mere counting process of
X number of aggravating circumstances and Y number of
mitigating circumstances, but rather a reasoned judgment
as to what factual situations *1201 require the imposition
of death and which can be satisfied by life imprisonment in
light of the totality of the circumstances present.
Id. at 10; see also Beasley v. State, 774 So.2d 649,
673-74 (Fla.2000) (quoting Dixon ). More recently, this
Court has cautioned that “a jury is neither compelled nor
required to recommend death where aggravating factors
outweigh mitigating factors.” Henyard v. State, 689 So.2d
239, 249-50 (Fla.1996). In addition, of course, we have long
ago established that a jury's recommendation of life will be
sustained so long as the record contains any rational basis for

the jury's grant of mercy. See Tedder v. State, 322 So.2d 908,
910 (Fla.1975).

OTHER JURISDICTIONS
The statutory schemes in many other states are similar to
Florida's in providing for consideration of aggravating and
mitigating circumstances in order for the jury or court to
determine an appropriate penalty of life or death. Many
states also provide guidance to capital juries similar to that
contained in our decisions in Dixon and Henyard.
For example, New Hampshire's statute provides in part:
If an aggravating factor set forth in subparagraph VII(a)
and one or more of the aggravating factors set forth in
subparagraph VII(b)-(j) are found to exist, the jury shall
then consider whether the aggravating factors found to
exist sufficiently outweigh any mitigating factor or factors
found to exist, or in the absence of mitigating factors,
whether the aggravating factors are themselves sufficient to
justify a sentence of death. Based upon this consideration,
if the jury concludes that the aggravating factors outweigh
the mitigating factors or that the aggravating factors, in
the absence of any mitigating factors, are themselves
sufficient to justify a death sentence, the jury, by unanimous
vote only, may recommend that a sentence of death
be imposed rather than a sentence of life imprisonment
without possibility of parole. The jury, regardless of its
findings with respect to aggravating and mitigating factors,
is never required to impose a death sentence and the jury
shall be so instructed.
N.H.Rev.Stat. Ann. § 630:5(IV) (1996) (emphasis added).
Of course, the New Hampshire statutory scheme requires
the unanimous vote of the jury for a death recommendation,
a safeguard not present in Florida where a death
recommendation can be made by a bare majority vote.
Obviously, the need for caution is even greater when a bare
majority vote carries such significant consequences.
California's statutory scheme for finding and weighing
aggravation is also similar to Florida's scheme. See Cal.Penal
Code § 190.3 (West 1999). However, in California, the pattern
jury instructions for the penalty phase of a death penalty case
are much more explicit as to the jury's responsibility:
It is now your duty to determine which of the two penalties,
death or imprisonment in the state prison for life without

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

possibility of parole, shall be imposed on [the] [each]
defendant.
After having heard all of the evidence, and after having
heard and considered the arguments of counsel, you shall
consider, take into account and be guided by the applicable
factors of aggravating and mitigating circumstances upon
which you have been instructed.
An aggravating factor is any fact, condition or event
attending the commission of a crime which increases its
guilt or enormity, or adds to its injurious consequences
which is above and beyond the *1202 elements of
the crime itself. A mitigating circumstance is any fact,
condition or event which does not constitute a justification
or excuse for the crime in question, but may be
considered as an extenuating circumstance in determining
the appropriateness of the death penalty.
The weighing of aggravating and mitigating circumstances
does not mean a mere mechanical counting of factors
on each side of an imaginary scale, or the arbitrary
assignment of weights to any of them. You are free
to assign whatever moral or sympathetic value you
deem appropriate to each and all of the various factors
you are permitted to consider. In weighing the various
circumstances you determine under the relevant evidence
which penalty is justified and appropriate by considering
the totality of the aggravating circumstances with the
totality of the mitigating circumstances. To return a
judgment of death, each of you must be persuaded
that the aggravating circumstances are so substantial
in comparison with the mitigating circumstances that it
warrants death instead of life without parole.
1 Cal. Jury Instr.-Crim. 8.88 (6th ed. Supp.2001) (emphasis
added).
Not surprisingly, cases have arisen in California where the
defendant alleges that the jury was misled as to its sentencing
function when the court instructed the jury that it shall impose
a sentence of death if the aggravating circumstances outweigh
the mitigating circumstances. In People v. Brown, 40 Cal.3d
512, 230 Cal.Rptr. 834, 726 P.2d 516 (1985), rev'd on other
grounds, 479 U.S. 538, 107 S.Ct. 837, 93 L.Ed.2d 934 (1987),
the California Supreme Court, much like this Court in Dixon,
explained that the jury's discretion was not limited:
Similarly, the reference to “weighing” and the use of the
word “shall” in the 1978 law need not be interpreted to limit
impermissibly the scope of the jury's ultimate discretion.

In this context, the word “weighing” is a metaphor for a
process which by nature is incapable of precise description.
The word connotes a mental balancing process, but
certainly not one which calls for a mere mechanical
counting of factors on each side of the imaginary “scale,”
or the arbitrary assignment of “weights” to any of them.
Each juror is free to assign whatever moral or sympathetic
value he deems appropriate to each and all of the various
factors he is permitted to consider, including factor “k” as
we have interpreted it. By directing that the jury “shall”
impose the death penalty if it finds that aggravating factors
“outweigh” mitigating, the statute should not be understood
to require any juror to vote for the death penalty unless,
upon completion of the “weighing” process, he decides that
death is the appropriate penalty under all the circumstances.
Thus the jury, by weighing the various factors, simply
determines under the relevant evidence which penalty is
appropriate in the particular case.
Id. at 854, 726 P.2d at 532 (footnote omitted). The court
recognized that, under some circumstances, the instruction
might confuse a penalty jury regarding the fundamental
character of the capital sentencing process.15 Thus, the court
noted that *1203 any case in which the mandatory language
was used “must be examined on its own merits to determine
whether, in context, the sentencer may have been misled
to defendant's prejudice about the scope of its sentencing
discretion under the 1978 law.” 230 Cal.Rptr. at 856 n. 17,
726 P.2d at 534 n. 17.16
15

In People v. Bonin, 47 Cal.3d 808, 254 Cal.Rptr. 298,
765 P.2d 460 (1989), the court commented on Brown as
follows:
Although in Brown we upheld the constitutionality
of section 190.3, we nevertheless recognized that
when delivered in an instruction the provision's
mandatory sentencing language might mislead
jurors as to the scope of their sentencing discretion
and responsibility. Specifically, a juror might
reasonably understand that language to define the
penalty determination as “simply a finding of
facts” or “a mere mechanical counting of factors
on each side of the imaginary ‘scale.’ ” A juror
might also reasonably understand the language to
require him to vote for death if he finds that the
evidence in aggravation outweighs the evidence in
mitigation-even if he determines that death is not
the appropriate penalty under all the circumstances.
Id. at 327, 765 P.2d at 489 (citations omitted).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

16

Following the court's opinion in Brown, the pattern jury
instruction was changed to conform almost verbatim
to a proposed jury instruction the court mentioned in
footnote 19 of its opinion. See Brown, 230 Cal.Rptr. 834,
726 P.2d at 535 n. 19; see also 1 Cal. Jury Instr. Crim.
8.88 (6th ed. Supp.2001) (set forth above in opinion and
including language that the weighing process is not a
mere mechanical weighing of factors).

In Geary v. State, 114 Nev. 100, 952 P.2d 431 (1998)
(on rehearing), the Nevada Supreme Court addressed the
potentially confusing nature of a final jury instruction given
in capital cases which provided:
The defendant in the case has been found guilty of murder
in the first degree.
Under the law of this State, you must now determine the
sentence to be imposed upon the defendant. First degree
murder is punishable by death only if the jury finds one or
more aggravating circumstances have been proved beyond
a reasonable doubt and the jury further finds that any
mitigating circumstances do not outweigh the aggravating
circumstances.
Otherwise, murder in the first degree is punishable by
imprisonment in the state prison for life with or without the
possibility of parole.
Id. at 432. In a prior decision, the court had concluded that this
same instruction may have misled the jury into believing that
it was required to automatically impose the death sentence
if it found that the aggravating circumstances outweighed
the mitigating circumstances. See id. (referring to Geary v.
State, 112 Nev. 1434, 930 P.2d 719 (1996)). Thereafter, the
state filed a motion for rehearing noting that the same jury
had also been instructed that imposing the death sentence
was not mandatory even after a finding that the aggravating
circumstances outweighed the mitigating circumstances. On
rehearing, the court agreed, finding it had overlooked the
existence of the other instruction, which it found sufficiently
informed the jury that a death sentence is never mandatory.
See id. Nevertheless, to prevent future uncertainty, the court
set forth the following additional instruction for district courts
to give in the sentencing phase of all capital cases:
The jury must find the existence of each aggravating
circumstance, if any, unanimously and beyond a reasonable
doubt.
The jurors need not find mitigating circumstances
unanimously. In determining the appropriate sentence, each

juror must consider and weigh any mitigating circumstance
or circumstances which that juror finds.
The jury may impose a sentence of death only if:
1) The jurors find unanimously and beyond a reasonable
doubt that at least one aggravating circumstance exists;
2) Each and every juror determines that the mitigating
circumstance or circumstances, *1204 if any, which
he or she has found do not outweigh the aggravating
circumstance or circumstances; and
3) The jurors unanimously determine that in their discretion
a sentence of death is appropriate.
Id. at 433 (emphasis added). Subsequent cases in Nevada
have consistently reiterated the principle that the jury always
retains the discretion to decide whether it considers death the
appropriate penalty. See Hollaway v. State, 6 P.3d 987, 996
(Nev.2000); Middleton v. State, 114 Nev. 1089, 968 P.2d 296,
315 (1998).
In New York, Criminal Procedure Law section 400.27 sets
forth the procedure for determining a defendant's sentence
upon conviction for first-degree murder. In particular, section
400.27 provides:
11. (a) The jury may not direct imposition of a sentence
of death unless it unanimously finds beyond a reasonable
doubt that the aggravating factor or factors substantially
outweigh the mitigating factor or factors established, if
any, and unanimously determines that the penalty of death
should be imposed. Any member or members of the jury
who find a mitigating factor to have been proven by
the defendant by a preponderance of the evidence may
consider such factor established regardless of the number
of jurors who concur that the factor has been established.
(b) If the jury directs imposition of either a sentence of
death or life imprisonment without parole, it shall specify
on the record those mitigating and aggravating factors
considered and those mitigating factors established by the
defendant, if any.
N.Y.Crim. Proc. Law § 400.27(11) (McKinney Supp.2001)
(emphasis added). In accordance with section 400.27, the
New York standard jury instructions provide in part:
Members of the jury, I will now explain how you are to
consider the aggravating and mitigating factors in making
your sentencing determination in this case.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

Our law does not suggest or imply that a sentence of death
is expected or appropriate for a defendant found guilty of
murder in the first degree.

whether, under all the facts and circumstances of this case,
you as a jury unanimously determine that death is the fitting
and appropriate punishment that should be imposed upon
the defendant.

Our law provides that a jury may not direct the imposition
of a sentence of death unless, after due deliberation, the
jury unanimously finds, beyond a reasonable doubt, that
the aggravating factor substantially outweighs any and
all mitigating factors established by the defendant, and
unanimously determines that the penalty of death should
be imposed.

If each one of you concludes that, beyond a reasonable
doubt, the aggravating factor substantially outweighs any
and all mitigating factors that you individually find to exist,
and that a sentence of death should be imposed, then and
only then may you as a jury direct the imposition of a
sentence of death.

In other words, you as a jury may not direct the imposition
of a sentence of death unless each of you, individually,
makes the following two determinations:
First, that, beyond a reasonable doubt, the aggravating
factor in the case substantially outweighs any and all
mitigating factors that you personally find to have been
established, and second, that the penalty of death should be
imposed.
....
The process of determining whether, beyond a reasonable
doubt, the aggravating factor substantially outweighs the
mitigating factors is not subject to a mathematical formula.
Rather, it requires an analysis and evaluation of the
aggravating and mitigating factors.
In order to conduct that analysis and evaluation, you must
consider three questions:
First, to what extent, if any, does the aggravating factor
support a sentence of death for this defendant in this case?
Second, to what extent, if any, do the mitigating factors,
individually or collectively, *1205 support a sentence
other than death for this defendant in this case?
And, third, does the extent to which the aggravating factor
supports a sentence of death substantially outweigh beyond
a reasonable doubt the extent to which the mitigating
factors support a sentence other than death?
If each one of you concludes beyond a reasonable doubt
that the aggravating factor substantially outweighs any
and all mitigating factors, then you must go on to consider
whether, under all the facts and circumstances of this case,
you as a jury unanimously determine that a sentence of
death should be imposed. In other words, you must consider

On the other hand, if any one of you has a reasonable
doubt as to whether the aggravating factor substantially
outweighs the mitigating factors established in the case, or,
if any one of you does not agree that a sentence of death
should be imposed, then you as a jury may not direct the
imposition of a sentence of death.
Capital Sentencing Proceeding Basic Final Instructions
section 440.27 available at http://www.courts.state.ny.us/cji/
capsntfi.htm (emphasis added). Hence, while New York
requires a unanimous jury vote for a death recommendation,
its standard jury instructions contain numerous cautions to
the jury as to the exercise of its discretion in determining an
appropriate penalty.
Missouri also has pattern jury instructions in death cases, one
of which explicitly informs the jury that it is never required to
recommend a death sentence. For example, in State v. Petary,
790 S.W.2d 243 (Mo.1990), the following jury instruction
was cited:
You are not compelled to fix death as the punishment even
if you do not find the existence of one or more mitigating
circumstances sufficient to outweigh the aggravating
circumstance or circumstances which you find to exist. You
must consider all the circumstances in deciding whether to
assess and declare the punishment at death. Whether that is
to be your final decision rests with you.
Id. at 244-45. The above instruction is referred to as the “life
option” instruction. See State v. Storey, 40 S.W.3d 898, 912
(Mo.2001).

CONCLUSION
Most of the sample pattern jury instructions set forth above
have aspects which arguably should be included in Florida's
standard jury instructions for penalty phase proceedings
in capital cases. Most notably, and, consistent with this

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Franqui v. State, 804 So.2d 1185 (2001)
26 Fla. L. Weekly S695

Court's decisions in Dixon and Henyard, these pattern jury
instructions explicitly inform the jury that the “weighing”
process is not a mere numerical or mathematical calculation,
but rather involves a reasoned judgment and analysis of the
circumstances and ultimately a choice left to the discretion of
the jury based upon all of the circumstances presented.

Florida juries. Although the Dixon and Henyard holdings
are consistently repeated in our case law, including such
guidance in the standard jury instructions would obviously
aid the jury in understanding its role and responsibility during
deliberations by further clarifying the “weighing” process.

While we have been diligent in reminding trial court judges
of the qualitative process they must follow in determining
an *1206 appropriate sentence in each individual case, we
must not overlook the importance of such instructions for

SHAW and PARIENTE, JJ., concur.

End of Document

All Citations
804 So.2d 1185, 26 Fla. L. Weekly S695
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Franqui v. State, 699 So.2d 1332 (1997)

APPENDIX I

22 Fla. L. Weekly S391

699 So.2d 1332
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
No. 84701.
|
July 3, 1997.
|
Rehearing Denied Oct. 7, 1997.
Synopsis
Defendant was convicted in the Circuit Court, Dade
County, Rodolfo Sorondo, J., of first-degree murder of law
enforcement officer and other crimes, and was sentenced to
death. Defendant appealed. The Supreme Court held that: (1)
prospective juror who was born and raised in Cuba and who
had ethnic-sounding name was not required to be removed
pursuant to defendant's peremptory challenge; (2) erroneous
admission of codefendant's confession was harmless beyond
reasonable doubt, with respect to guilt; but (3) erroneous
admission of codefendant's confession was not harmless, with
respect to sentence.
Convictions affirmed; sentence reversed and remanded.
Anstead, J., concurred in part and dissented in part and filed
opinion in which Kogan, C.J., concurred.
Harding, J., dissented and filed opinion in which Kogan, C.J.,
and Anstead, J., concurred.
Attorneys and Law Firms
*1333 Eric M. Cohen, Miami, for Appellant.
Robert A. Butterworth, Attorney General and Randall Sutton,
Assistant Attorney General, Miami, for Appellee.
Opinion
PER CURIAM.
We have on appeal the judgment and sentence of the trial
court imposing the death penalty upon Leonardo Franqui.
We have jurisdiction. Art. V, § 3(b)(1), Fla. Const. We

affirm Franqui's convictions. However, because we find a
violation of appellant's Sixth Amendment constitutional right
to confront his accusers, we reverse his death sentence and
remand for a new sentencing proceeding before a jury.

FACTS
The defendant, Leonardo Franqui, along with codefendants
Pablo San Martin, Ricardo Gonzalez, Fernando Fernandez,
and Pablo Abreu were charged with first-degree murder of
a law enforcement officer, armed robbery with a firearm,
aggravated assault, unlawful possession of a firearm while
engaged in a criminal offense, grand theft third degree, and
burglary.1 Franqui, Gonzalez, and San Martin were tried
together before a jury in May, 1994.
1

One count of aggravated assault and the unlawful
possession of a firearm while engaged in a criminal
offense were nol prossed by the State after its opening
statement.

The record reflects that the Kislak National Bank in North
Miami, Florida, was robbed by four gunmen on January 3,
1992. The perpetrators made their getaway in two stolen grey
Chevrolet Caprice cars after taking a cash box from one of
the drive-in tellers. During the robbery, Police Officer Steven
Bauer was shot and killed. Shortly after the robbery, the
vehicles were found abandoned two blocks west of the bank.
Approximately two weeks later, codefendant Gonzalez was
stopped by police after leaving his residence on January
18, 1992. He subsequently made unrecorded and recorded
confessions in which he told police that Franqui had planned
the robbery, involved the other participants and himself in
the scheme, and chosen the location and date for the crime.
He said that Franqui had procured the two stolen Chevys,
driven one of the cars, and supplied him with the gun he
used during the robbery. He further stated that Franqui was
the first shooter and shot at the victim three or four times,
while he had shot only once. Gonzalez indicated that he shot
low and believed he had only wounded the victim in the
leg. Gonzalez consented to a search of his apartment which
revealed $1200 of the stolen money in his bedroom closet. He
was subsequently reinterviewed by police and, among other
things, described how Franqui had shouted at the victim not
to move before shooting him.2

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

2

San Martin also made a confession to police, in which
he stated that the robbery was planned by a black friend
of the codefendant Fernandez and that the planning
occurred at Fernandez's apartment. San Martin admitted
that he had grabbed the money tray during the robbery
but could not say who carried guns or did the shooting.

Franqui was also questioned by police on January 18, 1992,
in a series of unrecorded and recorded sessions. During his
preinterview, Franqui initially denied any involvement in the
Kislak Bank robbery, but when confronted with the fact that
his accomplices were in custody and had implicated him,
he ultimately confessed. Franqui stated that Fernandez had
hatched the idea for the robbery after talking to a black male,
and he had accompanied the two men to the bank a week
before the robbery actually took place. He maintained that the
black male friend of Fernandez had suggested the use of the
two stolen cars but denied any involvement in the thefts of the
vehicles. According to Franqui, San Martin, Fernandez and
Abreu had stolen the vehicles. Franqui did admit to police that
he and Gonzalez were armed during the episode, but stated
that it was Gonzalez—and not himself—who yelled at the
victim to “freeze” when they saw him pulling out his gun.
Franqui denied firing the first shot and maintained that he
fired only one shot later.
At trial, over the objection of Franqui, the confessions of
codefendants San Martin and Gonzalez were introduced
without deletion of their references to Franqui, upon the trial
*1334 court's finding that their confessions “interlocked”
with Franqui's own confession. In addition, an eyewitness
identified Franqui as the driver of one of the Chevrolets
leaving the bank after the robbery, and his fingerprints were
found on the outside of one of the vehicles. Ballistics evidence
demonstrated that codefendant Ricardo Gonzalez had fired
the fatal shot from his .38 revolver, hitting the victim in the
neck, and that Franqui had shot the victim in the leg with his .9
mm handgun.
Franqui was convicted on all counts, and after a penalty
phase trial the jury recommended death by a vote of nine to
three. The trial court followed the jury's recommendation and
sentenced Franqui to death. Franqui presents the following
claims on appeal: (1) that the trial court erred in denying
Franqui's peremptory challenges of jurors Diaz and Andani;
(2) that the trial court abused its discretion in granting the
State's peremptory challenge of juror Pascual because the
State's reasons for striking this juror were not gender neutral;
(3) that the trial court erred in denying Franqui's motion
for severance based upon the introduction of nontestifying

codefendant Gonzalez's confession at their joint trial; (4) that
the trial court erred in admitting the prosecutor's comments to
the jury concerning the victim's personality and character; and
(5) that the trial court erred in sentencing Franqui to death.
We find claim 2 to be procedurally barred under Joiner v.
State, 618 So.2d 174 (Fla.1993), because defense counsel
failed to properly renew his objection to juror Pascual before
accepting the jury and allowing it be sworn.3 See Joiner, 618
So.2d at 176 n. 2 (requiring strict construction of rules of
preservation because otherwise, the defense “could proceed
to trial before a jury he unqualifiedly accepted, knowing that
in the event of an unfavorable verdict, he would hold a trump
card entitling him to a new trial”). Similarly, we find claim
4, dealing with the prosecutor's allegedly improper comments
appealing to jurors' sympathy also to be procedurally barred
because it was not properly preserved for review.4 We also
decline to address the merits of claim 5 because these
sentencing issues are rendered moot by our decision here
to remand for a new penalty phase trial. We address the
remaining claims below.
3

4

In this case, defense counsel accepted the jury panel
“subject to our previous objection,” but then allowed the
trial court to define his objection as limited to jurors
“Diaz, Andani and Weaver.” At no time did defense
counsel renew his objection to juror Pascual or otherwise
disabuse the trial court of the notion that his objection to
the jury was not limited to the three jurors specifically
identified by the court.
First, as Franqui concedes, the allegedly inflammatory
comments made during the state's opening statement
received no objection and therefore are unpreserved.
Castor v. State, 365 So.2d 701 (Fla.1978). Similarly, we
decline to address the alleged prosecutorial misconduct
in relation to bank teller Hadley's testimony because it
too failed to receive a sufficient objection. See Ferguson
v. State, 417 So.2d 639, 641 (Fla.1982) (holding that
objections must be made with sufficient specificity to
apprise trial court of potential error and preserve point for
appellate review). Finally, the potential error in allowing
Ms. Chin–Watson, another bank teller whom the victim
in this case was escorting when he was shot, to testify
about her friendship with Officer Bauer was objected
to at trial. Nevertheless, we find that Chin–Watson's
brief statement, even if improper, was harmless beyond
a reasonable doubt. See Stein v. State, 632 So.2d 1361,
1367 (Fla.1994) (finding brief humanizing comments do
not constitute grounds for reversal).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

prospective juror Diaz was not a member of a cognizable
JURY SELECTION
Franqui first contends that the trial court erred in denying
his exercise of a peremptory challenge to excuse prospective
juror Diaz from the jury. The initial colloquy on the issue was
as follows:
MS. BRILL: Wait a minute, Judge, are they striking
Aurelio Diaz? State would challenge that strike.
THE COURT: On Aurelio Diaz, let me hear your reasons.
Mr. Diaz [the defense counsel], your grounds?

minority or that there should not be a Neil5 inquiry. Moreover,
we have encouraged trial judges to err on the side of holding
a Neil inquiry. State v. Slappy, 522 So.2d 18 (Fla.1988). See
Curtis (upholding denial of peremptory challenge in face of
contention that objecting party had failed to make a prima
facie showing of discrimination). The facts of Melbourne are
equally inapposite. In that case, the objection to the challenge
was clearly made on racial grounds, but the objecting party
failed to preserve the issue for review because the objection
was not renewed before the jury was sworn.
5

MR. DIAZ: I don't like him.
THE COURT: Okay, that, in that case I will have to
disallow that being the reason, I will have to disallow your
strike. As it is not a race neutral reason.
We have consistently held that trial courts have broad
discretion in determining the propriety *1335 of the exercise
of peremptory challenges. Curtis v. State, 685 So.2d 1234
(Fla.1996); Files v. State, 613 So.2d 1301 (Fla.1992). We
conclude that the trial court did not abuse its discretion in
striking Franqui's peremptory challenge.
We cannot agree with the dissenting opinion that the
State's objection was insufficient to permit the trial court to
make inquiry with respect to whether juror Diaz was being
challenged for nonracial reasons. In support of their position,
the dissenters rely on Windom v. State, 656 So.2d 432 (Fla.),
cert. denied, 516 U.S. 1012, 116 S.Ct. 571, 133 L.Ed.2d 495
(1995), and Melbourne v. State, 679 So.2d 759 (Fla.1996),
both of which stated that a party objecting to the other side's
use of a peremptory challenge on racial grounds must show
that the person being challenged is a member of a distinct
racial group.
Our holding in Windom was that there was not a sufficient
objection to reverse the trial court for not requiring the
challenging party to provide race-neutral reasons for the
challenge. Thus, the rationale of Windom would be pertinent
if the trial court in the instant case had declined to inquire
into the racial basis for the challenge. Here, however, the trial
court clearly understood that the objection to the challenge
of a venireperson in Dade County, who was born and raised
in Havana, Cuba, and whose name was Aurelio Diaz, was
being made on racial grounds. This is especially true because
there was never any contention made to the trial court that

In State v. Neil, 457 So.2d 481 (Fla.1984), we first
authorized trial courts to make inquiry into whether
peremptory challenges were being exercised for racial
reasons.

Standing alone, defense counsel's statement, “I don't like
him,” may appear to be a race-neutral reason. However, the
trial court was obligated to evaluate the credibility of this
statement in the full context in which this statement was made.
The present record reveals that juror Diaz was questioned
extensively by the court, the State, and defense counsel. The
questioning takes place over nearly a half-dozen pages of
transcript and yields no obvious reason for disqualification.
When defense counsel, as an afterthought, later made an
attempt to justify the challenge with other reasons, it was
the trial court's responsibility to evaluate these reasons to
determine whether they were credible. As we explained in
Melbourne, “the trial court's decision turns primarily on an
assessment of credibility and will be affirmed on appeal
unless clearly erroneous.” 679 So.2d at 764–65. This trial
court's determination to strike the challenge of prospective
juror Diaz was not clearly erroneous.6
6

We also reject Franqui's contention that the trial court
erred in refusing to permit him to challenge prospective
juror Ondani.

ADMISSION OF CODEFENDANT'S
AGAINST FRANQUI

STATEMENTS

Franqui also asserts that the trial court erred by permitting
the confession of his codefendant Ricardo Gonzalez to be
admitted against him in their joint trial and by denying
his motion to sever his trial from that of his codefendant.
In Franqui v. State, 699 So.2d 1312 (Fla.1997), we
discussed in detail the law applicable to the admissibility
of a codefendant's confession. In this case, there is

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

no question that Gonzalez's confession interlocked with
Franqui's confession in many respects and was substantially
incriminating to Franqui. Moreover, we cannot say that the
totality of the circumstances under which Gonzalez made
his confession demonstrated the particularized guarantee
of trustworthiness sufficient to overcome the presumption
*1336 of unreliability that attaches to accomplices' hearsay
confessions which implicate the defendant.
Thus, the admission of Gonzalez's confession was error.
However, with respect to guilt, we conclude that the error
was harmless beyond a reasonable doubt. Not only did
Franqui confess to participating in the robbery, he also
admitted shooting the victim. He does not contest the
legality of his confession in this appeal. In addition, a bullet
recovered from the victim came from Franqui's gun, and
an eyewitness identified Franqui as the driver of one of the
stolen cars leaving the scene of the crime. Finally, Franqui's
fingerprints were also found on one of the stolen vehicles
used to commit the crime. Thus, we conclude that there is
no reasonable possibility that the erroneous admission of
Gonzalez's confession contributed to Franqui's conviction for
felony murder.

PENALTY
We agree, however, that Franqui's sentence must be reversed.
In Gonzalez's confession he went into great detail in
characterizing Franqui as the leader of the robbery plan, and
this confession easily could have prejudiced Franqui in the
penalty phase deliberations. Accordingly, we affirm Franqui's
convictions but remand for a new penalty phase proceeding
consistent with this opinion.
It is so ordered.

OVERTON, SHAW, GRIMES and WELLS, JJ., concur.
ANSTEAD, J., concurs in part and dissents in part with an
opinion, in which KOGAN, C.J., concurs.
HARDING, J., dissents with an opinion, in which KOGAN,
C.J., and ANSTEAD, J., concur.
ANSTEAD, Judge, concurring in part and dissenting in part.
I agree with Justice Harding that this case should be reversed
because of the clear error in the trial court's ruling on

appellant's peremptory challenge of juror Diaz. As noted
by Justice Harding, the majority opinion creates a serious
perception of an unjust double standard being applied to
death-sentenced defendants when this case is compared to
Windom v. State, 656 So.2d 432, 437 (Fla.), cert. denied, 516
U.S. 1012, 116 S.Ct. 571, 133 L.Ed.2d 495 (1995).
I agree with the majority, however, that the trial court erred
by permitting the confession of the codefendant, Ricardo
Gonzalez, to be admitted against Franqui at their joint trial and
by denying Franqui's motion to sever his trial from that of his
codefendant. Of course, both of these serious errors require
that a new trial be ordered.

PEREMPTORY CHALLENGE
Initially, I note that the majority's reasoning is seriously
flawed on the peremptory challenge issue since it is
erroneously predicated upon the assumption that the trial
court focused on the credibility of defense counsel's proffered
reasons for the challenge. The record, however, demonstrates
the opposite: the trial court mechanically applied an “I don't
think that is a race-neutral reason” test. The majority has
simply turned a blind eye to the obvious error in this case.
As Chief Judge Schwartz declared in reversing a murder
conviction under identical circumstances in Betancourt v.
State, 650 So.2d 1021 (Fla. 3d DCA 1995):
Our holding that overruling the attempted strike of Garcia
was reversible error is essentially based upon the fact
that there is no basis whatever for concluding that the
challenge involved the evil proscribed by the Batson–
Neil rule; that is, that it was based on a “constitutionally
impermissible prejudice,” State v. Slappy, 522 So.2d 18,
20 (Fla.1988), cert. denied, 487 U.S. 1219, 108 S.Ct.
2873, 101 L.Ed.2d 909 (1988), or racially motivated in
any way. In this case, the Hispanic defendant challenged
a Hispanic prospective juror. On the face of it—and
there is nothing in the record to suggest otherwise—
there would seem no basis for even implying a racial
reason for Betancourt's not wanting Garcia to serve on
his jury. See Portu v. State, 651 So.2d 791 (Fla. 3d DCA
1995). In this respect, the case is decisively unlike the
*1337 overwhelming majority of cases—if not every case
—in which a peremptory challenge has been disallowed
under Batson and Neil. Typically—if not invariably—they
involve situations in which the prospective juror belongs
to a group whose general characteristics would seem to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

be adverse to the position of the challenger. E.g., J.E.B. v.
Alabama ex. rel. T.B., 511 U.S. 127, 114 S.Ct. 1419, 128
L.Ed.2d 89 (1994)(defendant's challenge to female juror
in paternity action); Batson v. Kentucky, 476 U.S. 79, 106
S.Ct. 1712, 90 L.Ed.2d 69 (1986) (prosecutions's challenge
to black juror in case with black defendant); Slappy, 522
So.2d at 18 (same); State v. Neil, 457 So.2d 481 (Fla.1984)
(same); Abshire v. State, 642 So.2d 542 (Fla.1994)(state's
challenge to exclude women with male defendant); State v.
Alen, 616 So.2d 452 (Fla.1993) (prosecution's challenge to
Hispanic juror in case with Hispanic defendant); Joseph v.
State, 636 So.2d 777 (Fla. 3d DCA 1994) (state's challenge
of Jewish venireperson in case with Jewish defendant).
When, as here, there is no reason in common sense, legal
intuition or the record to overcome “the presumption that
peremptories will be exercised in a non-discriminatory
manner,” Neil, 457 So.2d at 486; State v. Johans, 613 So.2d
1319 (Fla.1993), or to justify a finding of “discriminatory
intent,” which is the critical, indeed the only, issue in
question, see Hernandez v. New York, 500 U.S. 352, 359,
111 S.Ct. 1859, 1866, 114 L.Ed.2d 395, 406 (1991), no
strike may be countermanded. See Johans, 613 So.2d
at 1321 (Neil inquiry required when objection raised
that peremptory challenge is being used “in a racially
discriminatory manner”); Portu, 651 So.2d at 791.
650 So.2d at 1023 (footnotes omitted). In addition to the
striking similarity of the circumstances in Betancourt, the
Third District opinion also noted the same inadequacy of the
State's objection in Betancourt as exists here:
The request for a “race-neutral” explanation was both
made and, without objection acceded to, entirely on the
basis that the challenge was to a juror who happened to
be Hispanic. The parties and the court thus proceeded
upon a mutual misunderstanding of State v. Johans, 613
So.2d 1319 (Fla.1993), which governed this trial because
it occurred after it was decided. Johans provides that a
Neil inquiry is required only when “an objection is raised
that a peremptory challenge is being used in a racially
discriminatory manner.” 613 So.2d at 1321. There was no
such objection below and the record shows that none could
have been raised in good faith.
650 So.2d at 1022 n. 2 (emphasis added). Chief Judge
Schwartz' analysis is clearly applicable here. Even if the State
had noted juror Diaz's ethnicity or race for the record—and I
agree with Justice Harding that the State did not—there was
absolutely no reason for the trial court to require Franqui, a
Cuban, male defendant, to provide a race-neutral justification
for striking prospective juror Diaz, presumably a Cuban male
resident of Dade County. If there is ever a case where the

presumption that preemptory strikes are exercised in a nondiscriminatory manner holds true, it is this one.

FLORIDA EVIDENCE CODE
Although the majority discusses the constitutional problem
with admitting the codefendant's out-of-court hearsay
statement, the majority fails to note that the statement was not
admissible under the Florida Evidence Code. The statement
was hearsay and fails to qualify under any hearsay exception.
When a codefendant's confession is obtained in a custodial
setting, as was the case here, the only hearsay exception that
has potential applicability is the “statement against interest”
exception.7 See *1338 § 90.804(2)(c), Fla. Stat. (1995).
Section 90.804(2)(c) states:
7

Unlike the Federal Evidence Code, see Fed.R.Evid.
804(b)(5), the Florida Evidence Code does not contain
a “catch-all” exception to the hearsay rule. The federal
“catch-all” exception admits any hearsay statement, even
though it is not admissible under a listed exception,
which possesses the same guarantees of trustworthiness
as do the listed exceptions.
I would not foreclose the possibility that a confession
obtained in a non-custodial, non-interrogatory setting
may qualify under a different hearsay exception, such
as the “excited utterance” or “spontaneous statement”
exceptions. See § 90.803(1), (2), Fla. Stat. (1995).

Statement Against Interest. A statement which, at the
time of its making, was so far contrary to the declarant's
pecuniary or proprietary interest or tended to subject the
declarant to liability or to render invalid a claim by the
defendant against another, so that a person in the declarant's
position would not have made the statement unless he
or she believed it to be true. A statement tending to
expose the declarant to criminal liability and offered to
exculpate the accused is inadmissible, unless corroborating
circumstances show the trustworthiness of the statement.
Of course, for a statement to be admissible as a statement
against interest, a trial judge also must find that: (1) the
declarant is unavailable as a witness, see § 90.804(1),
Fla. Stat. (1995); (2) “a person in the declarant's position
would not have made the statement unless he [or she]
believed it to be true,” Peninsular Fire Ins. Co. v. Wells,
438 So.2d 46 (Fla. 1st DCA), review dismissed, 443 So.2d
980 (Fla.1983); (3) the statement is not only against the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

declarant's interest when made, but the declarant is also
aware of that fact, Dinter v. Brewer, 420 So.2d 932,
935 n. 4 (Fla. 3d DCA 1982); and (4) corroborating
circumstances clearly indicate the trustworthiness of the
statement, Maugeri v. State, 460 So.2d 975, 977 (Fla. 3d
DCA 1984), cause dismissed, 469 So.2d 749 (Fla.1985).
See United States v. Riley, 657 F.2d l377 (8th Cir.1981),
cert. denied, 459 U.S. 1111, 103 S.Ct. 742, 74 L.Ed.2d 962
(1983).
The Federal Evidence Code also has a “statement against
interest” exception. In Williamson v. United States, 512
U.S. 594, 114 S.Ct. 2431, 129 L.Ed.2d 476 (1994),
the United States Supreme Court narrowly construed the
federal “statement against interest” exception8 so that only
those declarations or remarks within a confession that
“are individually self-inculpatory” are included within the
exception as statements against penal interest.9 “The fact that
a person is making a broadly self-inculpatory confession does
not make more credible the confession's non-self-inculpatory
parts.” Id. at 599, 114 S.Ct. at 2434. The Court found that this
was “especially true when the statement implicates someone
else.” Id. at 601, 114 S.Ct. at 2435–36. In explaining its
rationale, the Court, through Justice O'Connor, stated:
8
9

The corollary provision of the Federal Evidence Code is
found under rule 804(b)(3).
The Supreme Court planted the seed for its reasoning
set out in Williamson in Lee v. Illinois, 476 U.S. 530,
106 S.Ct. 2056, 90 L.Ed.2d 514 (1986), where it rejected
the State of Illinois' categorization of the codefendant's
confession as a simple “declaration against penal
interest.” The Court explained that this specific hearsay
exception “defines too large a class for meaningful
Confrontation Clause analysis.” Lee at 544 n. 5, 106 S.Ct.
at 2063–64 n. 5.

To decide whether Harris' confession is made admissible
by Rule 804(b)(3), we must first determine what the Rule
means by “statement,” which Federal Rule of Evidence
801(a)(1) defines as “an oral or written assertion.” One
possible meaning, “a report or narrative,” Webster's
Third New International Dictionary 2229, defn. 2(a)
(1961), connotes an extended declaration. Under this
reading, Harris' entire confession—even if it contains
both self-inculpatory and non-self-inculpatory parts—
would be admissible so long as in the aggregate the
confession sufficiently inculpates him. Another meaning
of “statement,” “a single declaration or remark,” ibid.,
defn. 2(b), would make Rule 804(b)(3) cover only those

declarations or remarks within the confession that are
individually self-inculpatory. See also id., at 131 (defining
“assertion” as a “declaration”); id., at 586 (defining
“declaration” as a “statement”).
Although the text of the Rule does not directly resolve
the matter, the principle behind the Rule, so far as it is
discernible from the text, points clearly to the narrower
reading. Rule 804(b)(3) is founded on the commonsense
notion that reasonable people, even reasonable people
who are not especially honest, tend not to make selfinculpatory statements unless they believe them to be
true. This notion simply does not extend to the broader
definition of “statement.” The fact that a person is
*1339 making a broadly self-inculpatory confession
does not make more credible the confession's non-selfinculpatory parts. One of the most effective ways to lie is
to mix falsehood with truth, especially truth that seems
particularly persuasive because of its self-inculpatory
nature.
... And when part of the confession is actually selfexculpatory, the generalization on which Rule 804(b)
(3) is founded becomes even less applicable. Selfexculpatory statements are exactly the ones which
people are most likely to make even when they are false;
and mere proximity to other, self-inculpatory, statements
does not increase the plausibility of the self-exculpatory
statements.
Williamson, 512 U.S. at 599–600, 114 S.Ct. at 2434–
35. Thus, under Williamson a nontestifying codefendant's
confession which also implicates the defendant can be
admitted in their joint trial only if it sensibly and fairly
can be redacted to include only those statements which
are solely self-inculpatory vis-a-vis the codefendant. See
§ 90.108, Fla. Stat. (1995); see also Richardson v. Marsh,
481 U.S. 200, 107 S.Ct. 1702, 95 L.Ed.2d 176 (1987). For
example, Justice Kennedy noted in his separate opinion in
Williamson:
In the criminal context, a self-serving statement is
one that tends to reduce the charges or mitigate the
punishment for which the declarant might be liable. See
M. Graham, Federal Practice and Procedure, § 6795,
p. 810, n. 20 (1992). For example, if two masked
gunmen robbed a bank and one of them shot and killed
the bank teller, a statement by one robber that the
other robber was the triggerman may be the kind of
self-serving statement that should be inadmissible. See
ibid. (collateral self-serving statement is “John used the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

gun”). (The Government concedes that such a statement
may be inadmissible. See Brief for United States 12.)
Under Williamson and Richardson, a codefendant's
confession which in fact partially exonerates or reduces the
culpability of the codefendant by implicating or shifting
the blame to another defendant is not a statement against
the codefendant's interest. Such a statement is admissible
in a joint trial with another defendant only if the statement
falls within another hearsay exception, and none has been
suggested here.
Under this analysis, the testimony of Detective Diecidue as
to the oral confession of Ricardo Gonzalez as well as the
taped recording of Gonzalez's confession were erroneously
admitted into evidence. While portions of Detective
Diecidue's testimony and Gonzalez's taped confession
concerned solely self-inculpatory statements made by
Gonzalez, other portions directly implicated defendant
Franqui and also served to exonerate codefendant Gonzalez.
Both Gonzalez's confession and the detective's testimony
described Franqui as the mastermind behind the robbery, who
involved Gonzalez and the other participants in the plan and
otherwise played the leading role in their criminal activity.
Gonzalez's confession and the detective's' testimony identify
Franqui as the procurer of the stolen cars, the supplier of
Gonzalez's weapon, and the first shooter, who fired at the
victim three to four times while Gonzalez shot only once.
Consequently, those statements were inadmissible under the
Florida Evidence Code and Williamson.

I dissent from the majority opinion in regard to the jury
selection issue. Franqui argues that the trial court erred in
denying his use of peremptory challenges to excuse two
prospective jurors from the jury. While *1340 I find no error
as to one of the prospective jurors, I find the record to be
barren of any support for the trial court's denial of Franqui's
peremptory challenge of prospective juror Diaz. Because I
find that this issue requires reversal of Franqui's conviction, I
dissent from the majority opinion.

HARMLESS ERROR

I.

Further, because Gonzalez's confession placed the bulk of the
blame for the robbery and murder on Franqui, I cannot find
that this error was harmless under State v. DiGuilio, 491 So.2d
1129 (Fla.1986) (error harmless only if there is no reasonable
possibility that the error contributed to the conviction). It is
reasonable to assume that a jury would utilize a statement
placing the majority of the blame on Franqui in deciding upon
a verdict and sentence against him, since that was the very
reason advanced by the State for seeking to use the statement
in evidence against him in the first place.

The majority opinion essentially forsakes this Court's
precedent regarding Neil inquiries. When Franqui attempted
to peremptorily strike from the venire Aurelio Diaz, the State
objected but offered no explanation nor basis of any kind for
the objection. The initial colloquy on the issue was as follows:

I dissent for the following reasons: 1) The majority has
abandoned this Court's precedent that requires the party
objecting to the use of a peremptory challenge to carry the
burden to trigger a Neil10 inquiry and mandates that the
record demonstrate that the challenged person is a member
of a distinct racial group. 2) The majority opinion sets
up a double standard—one requiring a defendant to meet
specific requirements before a Neil inquiry is necessary while
allowing the State to trigger a Neil inquiry without meeting
the same requirements. 3) By approving the trial court's
handling of this matter, the majority confirms the trial court's
assertion that peremptory challenges no longer exist. 4) By
any standard, even if the State properly triggered a Neil
inquiry, the reasons ultimately given by the defendant for
the challenge were race-neutral and sufficient to support the
challenge.
10

State v. Neil, 457 So.2d 481 (Fla.1984).

MS. BRILL: Wait a minute, Judge, are they striking
Aurelio Diaz? State would challenge that strike.
THE COURT: On Aurelio Diaz, let me hear your reasons.
Mr. Diaz [the defense counsel], your grounds?
MR. DIAZ: I don't like him.

KOGAN, C.J., concurs.
HARDING, Judge, dissenting.

THE COURT: Okay, that, in that case I will have to
disallow that being the reason, I will have to disallow your
strike. As it is not a race-neutral reason.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

I believe that the State's objection here was insufficient to
require the defendant, the party exercising the peremptory
challenge, to justify his peremptory strike. This record simply
does not demonstrate that the challenged juror was a member
of a protected group or that the challenge appeared to be
used in a racially discriminatory manner. It is a stretch
of the imagination and beyond logic how the majority, as
the appellate court charged with reviewing the trial court's
action, can conclude from this record that “the trial court
clearly understood that the objection to the challenge of a
venireperson in Dade County, who was born and raised in
Havana, Cuba, and whose name was Aurelio Diaz, was being
made on racial grounds.” Majority op. at 1335. In fact, at oral
argument, the State candidly conceded that we cannot know
from this record whether the challenged juror was a member
of a distinct racial group, or whether his color or national
origin was even the basis of the State's objection to the strike.
In Windom v. State, 656 So.2d 432, 437 (Fla.), cert. denied,
516 U.S. 1012, 116 S.Ct. 571, 133 L.Ed.2d 495 (1995), this
Court expressly rejected a capital defendant's claim that his
objection to the State's use of a peremptory challenge was
sufficient to require a Neil inquiry. In Windom, we affirmed
a capital conviction and death sentence and held that the
defendant had failed to carry his initial burden in objecting to
the State's use of a peremptory challenge to excuse an East
Indian woman. We stated that the law
requir[ed] a Neil inquiry when an objection is raised
that a peremptory challenge is being used in a racially
discriminatory manner. However, a timely objection and a
demonstration on the record that the challenged person is
a member of a distinct racial group have consistently been
held to be necessary.
Id. at 437 (emphasis added). Specifically, we observed that
defense counsel did not make a timely objection which
demonstrated on the record that the prospective juror was
a member of a cognizable class. We concluded “that the
defendant's expressed objection did not make it necessary
for the trial court to *1341 require the State to have and
express a race-neutral reason for the challenge.” Id. We
also reaffirmed the principle that a timely objection and
demonstration on the record that the challenged juror is a
member of a distinct racial group is a necessary prerequisite
to trigger a Neil inquiry. Id.
Under our recent decision in Melbourne v. State, 679 So.2d
759 (Fla.1996),11 we have continued to impose a substantial

burden on the party objecting to the exercise of a peremptory
challenge by the other side:
11

I recognize that the trial judge in this case did not have
the benefit of our decisions in Melbourne and Windom.
However, those opinions merely restate the requirements
that this Court has set forth in opinions rendered before
the trial here. See Melbourne, 679 So.2d at 764 nn. 2–5;
Windom 656 So.2d at 437.

A party objecting to the other side's use of a peremptory
challenge on racial grounds must: a) make a timely
objection on that basis, b) show that the venireperson is a
member of a distinct racial group, and c) request that the
court ask the striking party its reason for the strike. If these
initial requirements are met (step 1), the court must ask the
proponent of the strike to explain the reason for the strike.
Id. at 764 (emphasis added) (footnotes omitted). When a
party objects to an opposing party's use of a peremptory
challenge, the basis of the objection and the challenged
juror's race or ethnicity cannot be left to inference. Rather,
the party objecting to the challenge must demonstrate on
the record that the juror is a member of a particular group
at the time the objection is made. Id.
In the instant case, the State's objection failed to claim
that the peremptory challenge was being used in a racially
discriminatory manner and also failed to demonstrate on
the record that the challenged juror was a member of a
protected group. Not only did the State fail to demonstrate
the racial or ethnic identity of the challenged juror on the
record as the defendant in Windom similarly failed to do, but
the record also fails to reflect that anyone, including the trial
court, demonstrated such identity on the record. This Court
has repeatedly stated that “peremptories are presumed to be
exercised in a nondiscriminatory manner.” Melbourne, 679
So.2d at 764; Neil, 457 So.2d at 486. Without a clear record
to support the trial court's denial of Franqui's peremptory
challenge, I cannot agree with the majority that the trial court's
action “was not clearly erroneous.” Majority op. at 1335.

II.
I am also distressed that in its holding affirming the trial court,
the majority has instituted a double standard for reviewing
trial court rulings relating to peremptory challenges. Here,
the majority has determined that the State's general objection
was sufficient to trigger a Neil inquiry. However, in other
cases where a defendant has objected to the State's use of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

a peremptory challenge, this Court has concluded that the
objecting defendant must meet very specific requirements—
state adequate reasons to initiate a Neil inquiry and create
a record adequate to review. Windom; Melbourne. I would
apply the same requirements without regard to who the
objecting party is. Not only should what's good for the goose
be good for the gander, but also what cooks one party's goose
should also cook the other's.

III.
The error here is compounded by the majority's apparent
approval of the trial court's erroneous assertion that
“peremptory challenges no longer exist.”12 By accepting the
State's position that the objection here was sufficient to trigger
a Neil inquiry, the majority essentially approves this view.
If nothing more that a general objection can thwart the use
of peremptory challenge, then we do eliminate peremptory
challenges as they have been used historically and substitute
in their place two classes of challenges for cause.
12

Before the discussion as to juror Diaz, the trial court
refused to allow a prior peremptory challenge. In
explaining its reasoning in refusing the challenge, the
court stated:
Personally I think that the entire body of law in this
area is outrageous, but it is clear that peremptory
challenges no longer exist, and that neutral reasons
must be given and you have not given me any.

*1342 IV.
Finally, even if I agreed with the majority that the State
had properly raised the issue of the discriminatory use
of a peremptory challenge in the first instance, I could
not conclude that Franqui's proffered reasons for striking
Diaz were insufficient to justify his peremptory challenge.
Subsequent to the initial exchange concerning juror Diaz,
Franqui's counsel informed the court of additional “raceneutral” reasons for objection to Diaz, including his lengthy
employment by Metropolitan Dade County:
We would renew our peremptory based upon the fact that
Mr. Diaz has had the same job basically for the last thirty
years and we feel that he lacks the life experience and
variety of occupations that we are looking for on this jury.
He also stated that he has two daughters, he has never had
a problem with the daughter and he may not sympathize

with our defendants who I am sure have given their parents
many, many problems in the past, so based on that, we
would try to excuse Mr. Diaz.... In addition to that Judge,
many of the witnesses who are expected to testify for
the state in this case are employed by Metropolitan Dade
County. Which he has an allegiance with them for over
thirty years in the county.
The trial court ruled that these were not race-neutral reasons
for the challenge; the majority characterizes them as an
“afterthought.” Majority op. at 1335. I cannot agree with
either conclusion.
Peremptory challenges may be exercised up to point where
the jury is sworn. Fla. R.Crim. P. 3.310 (“The state or
defendant may challenge an individual prospective juror
before the juror is sworn to try the cause....”). A renewed
peremptory challenge based upon additional reasons should
not be dismissed as an “afterthought”13 and must be assessed
under the same standard as the original challenge.
13

The trial court did not treat the renewed challenge as an
afterthought and ruled that the additional reasons were
not race-neutral.

As the United States Supreme Court recently explained in
Purkett v. Elem, 514 U.S. 765, 768–69, 115 S.Ct. 1769,
1771, 131 L.Ed.2d 834 (1995), the ultimate burden of
persuasion regarding racial motivation rests with, and never
shifts from, the opponent of the strike. After the opponent
of a peremptory challenge has made out a prima facie case
of racial discrimination, the burden of production shifts to
the proponent of the strike to come forward with a raceneutral explanation. 514 U.S. at 767, 115 S.Ct. at 1770. If
a race-neutral explanation is tendered, the trial court must
then decide whether the opponent of the strike has proved
purposeful racial discrimination. Id. The explanation offered
by the party attempting to exercise the peremptory challenge
need not be “persuasive, or even plausible.” Id. at 768, 115
S.Ct. at 1771. Unless a discriminatory intent is inherent in
the explanation, the reason offered will be deemed raceneutral. Id. Only after these two steps have been met does the
persuasiveness of the proffered justification become relevant
and then only in the context of determining “whether the
opponent of the strike has carried his burden of proving
purposeful discrimination.” Id.
In the instant case, the majority has disregarded its prior
pronouncements relating to the burdens involved. The
majority concludes that the trial court “clearly understood”
that the State's objection was being made on racial grounds,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Franqui v. State, 699 So.2d 1332 (1997)
22 Fla. L. Weekly S391

“especially ... because there was never any contention made
to the trial court that prospective juror Diaz was not a
member of a cognizable minority or that there should not be
a Neil inquiry.” Majority op. at 1335. Instead of determining
whether the State proved purposeful racial discrimination, the
majority has placed the burden on the defendant to prove a
lack of discriminatory intent in exercising this peremptory
challenge. While “implausible or fantastic justifications may
(and probably will) be found to be pretexts for purposeful
discrimination,” Purkett, 514 U.S. at 768, 115 S.Ct. at 1771,
I cannot agree with the trial court or the majority that the
defendant's justifications here fall into that realm. Thus, I
could not sanction the trial court's conclusion *1343 here
even if I found that the State had made a prima facie case of
racial discrimination.
Finally, my previously stated concern that this Court is
creating a double standard requiring defendants to meet
higher requirements than the State is born out by our decision
in Smith v. State, 699 So.2d 629 (Fla.1997). I concurred in
that opinion in which the Court affirmed a trial judge's ruling
to sustain the State's peremptory challenge of an African–
American juror over a properly raised Neil objection by
the defense. The State submitted the following race-neutral
reasons to strike the juror in question: “(1) her occupation as
a guidance counselor; (2) the possibility she would err on the
side of life during the penalty phase; and (3) her reference
to Oprah Winfrey.” Smith, 699 So.2d at 636. This Court
End of Document

concluded that the trial court's decision to sustain the strike
was not clearly erroneous. Id. at 637. Certainly, the reasons
stated by the defense in the instant case are as race-neutral as
those approved by this Court in Smith. I find it strange that,
although they come out of the same pot, the defendant's goose
gets cooked and the State's does not.

CONCLUSION
For the reasons stated above, I conclude that the trial court
erred in prohibiting defense counsel from striking Diaz.
As a result, and over Franqui's objection, juror Diaz was
improperly allowed to remain on the jury that ultimately
convicted Franqui and recommended a sentence of death.
Such error is not subject to a harmless error review and
requires a new trial. See United States v. Annigoni, 96
F.3d 1132 (9th Cir.1996) (finding that erroneous denial of
peremptory challenge is not subject to harmless error analysis
and requires automatic reversal).

KOGAN, C.J., and ANSTEAD, J., concur.
All Citations
699 So.2d 1332, 22 Fla. L. Weekly S391

© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Franqui v. State, 699 So.2d 1312 (1997)

APPENDIX J

22 Fla. L. Weekly S373

699 So.2d 1312
Supreme Court of Florida.

Leonardo FRANQUI, Appellant,
v.
STATE of Florida, Appellee.
No. 83116.
|
June 26, 1997.
|
Rehearing Denied Oct. 6, 1997.
Synopsis
Defendant was convicted in the Circuit Court, Dade County,
Rodolfo Sorondo, Jr., J., of first-degree murder, attempted
first-degree murder with firearm, attempted robbery with
firearm, grand theft, and unlawful possession of firearm
while engaged in criminal offense, and was sentenced to
death. Defendant appealed. The Supreme Court held that: (1)
evidence established corpus delicti of attempted robbery; (2)
admission of portion of codefendant's confession implicating
defendant violated confrontation clause; (3) erroneous
admission of nontestifying codefendant's confession was
harmless; (4) evidence established cold, calculated and
premeditated aggravator in sentencing phase; (5) convictions
for attempted felony murder were invalid; and (6) death
penalty imposed was not disproportionate.
Affirmed in part, vacated in part and remanded.
Anstead, J., filed opinion concurring in part and dissenting in
part in which Kogan, C.J., concurred.
Attorneys and Law Firms
*1315 Eric M. Cohen, Miami, for Appellant.
Robert A. Butterworth, Attorney General; and Fariba N.
Komeily and Randall Sutton, Assistant Attorneys General,
Miami, for Appellee.
Opinion
PER CURIAM.
We have on appeal the judgment of the trial court adjudicating
the appellant, Leonardo Franqui, guilty of first-degree murder

and other crimes, as well as its imposition of the death penalty.
We have jurisdiction under article V, section 3(b)(1), of the
Florida Constitution. Although we find error in the admission
of evidence in violation of the United States Constitution, we
find the error harmless and affirm Franqui's convictions and
sentences.

I. TRIAL COURT PROCEEDINGS
Leonardo Franqui and codefendants Pablo San Martin and
Pablo Abreu were charged with one count of first-degree
murder, two counts of attempted first-degree murder with a
firearm, one count of attempted robbery with a firearm, two
counts of grand theft, and one count of unlawful possession
of a firearm while engaged in a criminal offense. Prior to
trial, codefendant Abreu negotiated a plea with the State
and subsequently testified against Franqui during the penalty
phase of the proceedings.
The following facts were established at the trial of Franqui
and San Martin. Danilo Cabanas, Sr., and his son, Danilo
Cabanas, Jr., operated a check-cashing business in Medley,
Florida. On Fridays, Cabanas Sr. would pick up cash from his
bank for the business. After Cabanas Sr. was robbed during
a bank trip, Cabanas Jr. and a friend, Raul Lopez, regularly
accompanied Cabanas Sr. to the bank. The Cabanases were
each armed with a 9mm handgun, and Lopez was armed with
a .32 caliber gun.
On Friday, December 6, 1991, the Cabanases and Lopez
drove in separate vehicles to the bank. Cabanas Sr. withdrew
about $25,000 in cash and returned to the Chevrolet Blazer
driven by his son. Lopez followed in his Ford pickup truck.
Shortly thereafter, the Cabanases were cut off and “boxed
in” at an intersection by two Chevrolet Suburbans. Two
occupants of the front Suburban, wearing masks, got out and
began shooting at the *1316 Cabanases. When Cabanas
Sr. returned fire, the assailants returned to their vehicle and
fled. Cabanas Jr. saw one person, also masked, exit the rear
Suburban.
Following the gunfight, Lopez was found outside his vehicle
with a bullet wound in his chest. He died at a hospital shortly
thereafter. One bullet hole was found in the passenger door
of Lopez's pickup. The Suburbans, subsequently determined
to have been stolen, were found abandoned. Both Suburbans
suffered bullet damage—one was riddled with thirteen bullet
holes. The Cabanases' Blazer had ten bullet holes.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

Franqui's confession was admitted at trial. When police
initially questioned Franqui, he denied any knowledge of the
Lopez shooting. However, when confronted with photographs
of the bank and the Suburbans, he confessed. Franqui
explained that he had learned from Fernando Fernandez about
the Cabanases' check cashing business and that for three to
five months he and his codefendants had planned to rob the
Cabanases. He described the use of the stolen Suburbans,
the firearms used, and other details of the plan. Franqui
admitted that he had a .357 or .38 revolver. Codefendant San
Martin had a 9mm semiautomatic, which at times jammed,
and codefendant Abreu had a Tech–9 9mm semiautomatic,
which resembles a small machine gun. Franqui stated that
San Martin and Abreu drove in front of the Cabanases and
Franqui pulled alongside them so they could not escape. Once
the gunfight began, Franqui claimed that the pickup rammed
the Cabanases' Blazer and Lopez opened fire. Franqui then
returned fire in Lopez's direction.
San Martin refused to sign a formal written statement to
police. However, San Martin orally confessed and, in addition
to relating his own role in the incident, detailed Franqui's
role in the planning and execution of the crime. San Martin
admitted initiating the robbery attempt and shooting at the
Blazer but not shooting at Lopez's pickup. He placed Franqui
in proximity to Lopez's pickup, although he could not tell
if Franqui had fired his gun during the incident. San Martin
initially claimed that the weapons used in the crime were
thrown off a Miami Beach bridge, but subsequently stated
that he had thrown the weapons into a river near his home,
where they were later recovered by the police. San Martin did
not testify at trial, but his oral confession was admitted into
evidence over Franqui's objection.
A firearms expert testified that the bullet recovered from
Lopez's body was consistent with the .357 revolver used
by Franqui during the attempted robbery. He said the same
about a bullet recovered from the passenger mirror of one of
the Suburbans and a bullet found in the hood of the Blazer.
The rust on the .357, however, prevented him from ruling
out the possibility that the bullets may have been fired from
another .357 revolver.
The jury found Franqui guilty as charged and recommended
the death penalty for the first-degree murder conviction
by a nine-to-three vote. The trial court followed the jury's
recommendation and found four aggravators: (1) prior violent
felony convictions, see § 921.141(5)(b), Fla. Stat. (1995);

(2) murder committed during the course of an attempted
robbery, see id. § 921.141(5)(d); (3) murder committed for
pecuniary gain, see id. § 921.141(5)(f); and (4) murder
committed in a cold, calculated, and premeditated manner.
See id. § 921.141(5)(i). The court found no statutory
mitigating circumstances and two non-statutory mitigating
circumstances: (1) Franqui had a poor family background and
deprived childhood, including abandonment by his mother,
the death of his mother, and being raised by a man who was
a drug addict and alcoholic; and (2) Franqui was a caring
husband, father, brother, and provider. The court sentenced
Franqui to death on the first-degree murder charge; life
imprisonment on the two attempted murder charges; fifteen
years imprisonment on the attempted robbery and second
grand theft charge; and five years imprisonment on the first
grand theft charge and unlawful firearm possession charge.
All sentences were ordered to run consecutively.

II. LAW & ANALYSIS ON APPEAL
Corpus Delicti
We reject Franqui's claim that the trial court erred in failing
to exclude Franqui's *1317 own confession from evidence
because the State did not first present sufficient evidence of
corpus delicti. The phrase “corpus delicti” means “body of
the crime,” Black's Law Dictionary 344 (6th ed.1990), and
refers generally to the proof that a crime has been committed.
Florida law requires that the corpus delicti be established
independently of any confession before the confession is
admitted into evidence. Bassett v. State, 449 So.2d 803
(Fla.1984); Frazier v. State, 107 So.2d 16 (Fla.1958). In order
to prove corpus delicti, the State must establish: (1) that a
crime of the type charged was committed; and (2) that the
crime was committed through the criminal agency of another.
State v. Allen, 335 So.2d 823, 825 (Fla.1976). In regard to the
first part—that a crime was committed—each element of the
relevant offense must be shown to exist. Burks v. State, 613
So.2d 441, 443 (Fla.1993). With respect to the second part
—the criminal agency of another—the proof need not show
the specific identity of the person who committed the crime.
Id. That is, it is not necessary to prove that the crime was
committed by the defendant.
In order to prove attempted armed robbery, the State must
show: (1) the formation of an intent to commit the crime
of robbery; (2) the commission of some physical act in
furtherance of the robbery; and (3) the use of a firearm.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

See §§ 777.04(1), 812.13(2)(a), Fla. Stat. (1993); Cooper
v. Wainwright, 308 So.2d 182, 184 (Fla. 4th DCA), cert.
dismissed, 312 So.2d 761 (Fla.1975). In this context, intent
may be proved by considering the conduct of the accused and
his colleagues before, during, and after the alleged attempt
along with any other relevant circumstances. Cooper, 308
So.2d at 185.
Here, the Cabanases' testimony established that they departed
the bank, as they did every Friday, with a large sum of
money—$25,000 in cash. A short distance from the bank,
a Suburban stopped in front of them. A second Suburban
pulled alongside them at a high rate of speed and also stopped,
foreclosing an escape. Two masked men emerged from the
front Suburban and immediately opened fire at the Cabanases.
One person, possibly armed, and also masked, exited the rear
Suburban. The victims returned fire and the attackers fled.
The two Suburbans, subsequently determined to be stolen,
were found nearby, abandoned beside an expressway.
We find that the evidence in this case is sufficient to establish
that the attackers did intend a robbery, did some physical act
which was intended to accomplish the commission of this
crime, and unlawfully used a firearm during the commission
of a felony. We find that the corpus delicti of the crimes
was shown independently of the confession. We therefore
conclude that the trial court did not err in failing to exclude
portions of Franqui's confession.

San Martin's Statement
Franqui also asserts that the trial court erred by admitting
into evidence at their joint trial codefendant San Martin's
confession incriminating Franqui and by denying his motion
to have his trial severed from that of San Martin. Specifically,
he argues that the trial court's failure to grant a severance
violated his federal constitutional right to confront San
Martin, who did not testify at their joint trial, as to those
portions of San Martin's confession admitted at trial which
incriminated Franqui in the crime and in the shooting death
of Lopez.
While the issue which Franqui raises on appeal is the denial of
the motion to sever the codefendants' cases, the admissibility
of the codefendant's confession is a subissue within this
issue. Franqui argued that he was prejudiced by having a
joint trial with San Martin in which San Martin's verbal
confession was admitted as direct evidence against Franqui.

Franqui's argument was that because San Martin's verbal
confession was not sufficiently interlocking with Franqui's
own confession, San Martin's confession failed to meet the
indicia of reliability required by the United States Supreme
Court in Lee v. Illinois, 476 U.S. 530, 106 S.Ct. 2056, 90
L.Ed.2d 514 (1986), as interpreted by the same Court in Cruz
v. New York, 481 U.S. 186, 107 S.Ct. 1714, 95 L.Ed.2d 162
(1987). In opposition, the State argued that *1318 the two
confessions did sufficiently interlock to provide that indicia
of reliability.
In Lee, the Court confronted the situation in which the
trier of fact used a codefendant's confession as substantive
evidence against the defendant when the defendant's own
confession also was admitted into evidence. The Lee court
stated that the issue before it was “whether [the] substantive
use of the hearsay confession denied Petitioner [Lee] rights
guaranteed her under the Confrontation Clause.” Lee, 476
U.S. at 539, 106 S.Ct. at 2061 (quoting respondent's brief
at 11). In holding that the codefendant's confession did not
bear sufficient indicia of reliability to be directly admissible
under the Confrontation Clause, the Court rejected the State's
argument that because the two confessions interlocked on
some points, the codefendant's confession was reliable. Id. at
545, 106 S.Ct. at 2064. The Court stated:
If those portions of the codefendant's purportedly
“interlocking” statement which bear to any significant
degree on the defendant's participation in the crime
are not thoroughly substantiated by the defendant's own
confession, the admission of the statement poses too
serious a threat to the accuracy of the verdict to be
countenanced by the Sixth Amendment. In other words,
when the discrepancies between the statements are not
insignificant, the codefendant's confession may not be
admitted.
Id. (emphasis added).
The Cruz Court held that the giving of a limiting instruction
cannot cure the Confrontation Clause violation resulting from
the admission of a codefendant's interlocking confession
which implicates the other defendant in the crime even in
cases in which the defendant's own confession is properly
before the jury. Cruz, 481 U.S. at 191–92, 107 S.Ct. at 1718–
19. The Court reasoned that the codefendant's confession
which implicated the defendant was all the more harmful
to the defendant if it interlocked with the defendant's own
confession. Notwithstanding, the Court also stated:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

Of course, the defendant's confession may be considered at
trial in assessing whether his codefendant's statements are
supported by sufficient “indicia of reliability” to be directly
admissible against him (assuming the “unavailability” of
the codefendant) despite the lack of opportunity for crossexamination, see Lee ....
Id. at 193–94, 107 S.Ct. at 1719–20. Thus, the citation in Cruz
to Lee appeared to suggest the possibility that a codefendant's
confession still may be admitted under some circumstances
as direct evidence against a defendant upon a showing of
sufficient indicia of reliability resulting from the interlocking
nature of the confessions. Lee, 476 U.S. at 545, 106 S.Ct. at
2064.
It was upon this analysis of Cruz that we held in Grossman v.
State, 525 So.2d 833, 838 (Fla.1988):
Taylor's [the codefendant's] statement interlocks with and
is fully consistent in all significant aspects with all three
statements that [defendant] made to Hancock, Allen,
and Brewer and which were directly admissible against
[defendant]. The indicia of reliability are sufficient to have
permitted introduction of Taylor's statement as evidence
against [defendant].
However, in 1990 the United States Supreme Court modified
its earlier indicia of reliability analysis and held that to be
admissible under the Confrontation Clause, hearsay evidence
used to convict a defendant must possess indicia of reliability
by virtue of its inherent trustworthiness rather than by
reference to other evidence introduced at trial. Idaho v.
Wright, 497 U.S. 805, 110 S.Ct. 3139, 111 L.Ed.2d 638
(1990).
In Wright, the Court addressed the issue of whether admission
of certain hearsay statements made by a child declarant to
an examining pediatrician violated the Confrontation Clause.
The Court found that to be admissible under the Confrontation
Clause, the hearsay statements must possess sufficient indicia
of reliability from either their admission through a firmly
rooted exception or by a showing of particularized guarantees
of trustworthiness. Id. at 816, 110 S.Ct. at 3147 (quoting
Ohio v. Roberts, 448 U.S. 56, 66, 100 S.Ct. 2531, 2539, 65
L.Ed.2d 597 (1980)). In determining what constitutes such
a showing, the Court held that the relevant circumstances
only include those *1319 that surround the making of the
statement and those that render the declarant worthy of belief.
Wright, 497 U.S. at 819, 110 S.Ct. at 3148. The Court
observed that the presence of corroborating evidence would
more appropriately indicate that the error in admitting the

statement was harmless than provide a basis for presuming the
declarant to be trustworthy. Justice Kennedy, writing for the
four dissenting justices, pointed out how the majority opinion
had altered the rationale of Lee and Cruz.
In any event, the bottom line of Wright is that the interlocking
nature of the confessions cannot provide a basis upon which to
determine whether there are sufficient indicia of reliability to
introduce the codefendant's hearsay confession as substantive
evidence of the defendant's guilt. Wright 's impact on this
case is obvious because it was the interlocking nature of the
confession which prompted the trial court to conclude that
San Martin's confession had sufficient indicia of reliability
to overcome the presumption of unreliability which attaches
to accomplices' hearsay confessions that incriminate the
defendant. Lee, 476 U.S. at 541, 106 S.Ct. at 2062.
Having determined that the interlocking nature of the
confessions did not provide sufficient indicia of reliability to
avoid the Confrontation Clause, we proceed to the question
of whether San Martin's confession possesses inherent
trustworthiness to be directly admissible on another basis. In
Wright, the Court gave the following guidance:
We think the “particularized guarantees of trustworthiness”
required for admission under the Confrontation Clause
must likewise be drawn from the totality of circumstances
that surround the making of the statement and that
render the declarant particularly worthy of belief. Our
precedents have recognized that statements admitted under
a “firmly rooted” hearsay exception are so trustworthy that
adversarial testing would add little to their reliability.
Wright, 497 U.S. at 820–21, 110 S.Ct. at 3149–50.
Thus, the question of the admissibility of San Martin's
confession against Franqui becomes whether San Martin's
confession comes within a firmly-rooted hearsay exception
or whether the totality of the circumstances in which San
Martin's confession was made makes the statement inherently
trustworthy and renders the declarant particularly worthy of
belief.
While a statement against penal interest is an exception
to the hearsay rule under section 90.804(2)(c), Florida
Statutes (1995), we cannot say that it is a firmly rooted
exception. Prior to the adoption of the Evidence Code, this
Court first recognized the statement-against-penal-interest
exception in Baker v. State, 336 So.2d 364 (Fla.1976).1
The exception was thereafter codified as section 90.804(2)
(c), and included the following sentence: “A statement or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

confession which is offered against the accused in a criminal
action, and which is made by a co-defendant or other
person implicating both himself and the accused, is not
within this exception.” See also Nelson v. State, 490 So.2d
32 (Fla.1986). However, in 1990, the legislature deleted
this sentence, thereby allowing for the admission of selfinculpatory statements of nontestifying codefendants. See
generally Charles W. Ehrhardt, Florida Evidence § 804.4
(1995). Since that section of the Evidence Code specifically
excluded such a statement as being an exception to the hearsay
rule until 1990, see Nelson, this exception is not firmly rooted.
Finally, we cannot say that the totality of the circumstances
under which San Martin made his confession demonstrated
the particularized guarantee of trustworthiness sufficient to
overcome the presumption of unreliability of a codefendant's
statement which implicates the defendant.
1

At early common law, the exception applied only to
statements against pecuniary or proprietary interest;
however, the Court noted that there was no reason not to
extend the exception to statements against penal interest.
Baker at 369.

Moreover, our analysis of the decisions of the United States
Supreme Court now requires us to recede from that portion
of Grossman which relied upon the interlocking nature of
the confession to provide the requisite *1320 indicia of
reliability. For the same reason, we also recede from that
portion of Farina v. State, 679 So.2d 1151 (Fla.1996), in
which we indicated that the defendant's confession could be
considered in assessing whether a codefendant's statements
are supported by sufficient indicia of reliability. Id. at
1155. However, in Farina, because the defendant and the
codefendant discussed the crime with each other, that case is a
unique example of when a codefendant's statements, although
implicating the defendant, had a particularized guarantee of
trustworthiness so as to be introduced against him based
solely upon the circumstances under which the statements
were made. See also Puiatti v. State, 521 So.2d 1106
(Fla.1988) (reliability clearly established by joint confession).
San Martin was interviewed a second time after his arrest by
Detective Albert Nabut. San Martin's statement to Detective
Nabut was also admitted against Franqui at their joint trial.
In this instance, the statement was essentially limited to San
Martin's actions in disposing of the weapons used in the crime
which further implicated him in the crime and his efforts to
destroy evidence connecting him to the crime. He made no
reference to Franqui in this statement.

The decision of the United States Supreme Court in
Williamson v. United States, 512 U.S. 594, 114 S.Ct. 2431,
129 L.Ed.2d 476 (1994), is instructive with respect to whether
San Martin's statement to Detective Nabut was admissible.
In Williamson, the Court clarified the scope of the hearsay
exception for statements against penal interest, see Fed
R.Evid. 804(b)(3), in determining the admissibility of an
accomplice's confession. The Court narrowly construed this
exception to the hearsay rule and found only the selfinculpatory portions of the statement contained within the
confession would be admissible. Id. at 602–03, 114 S.Ct. at
2436–37.
While Williamson dealt with a hearsay question and the
instant case deals with a Confrontation Clause objection,
Williamson is significant for the purpose of this discussion
because it naturally follows that if the self-inculpatory
portions of an accomplice's confession meet this hearsay
exception, then these portions can be found to have sufficient
inherent trustworthiness to also meet the test of admissibility
under the Confrontation Clause as announced in Wright. The
Court in Williamson stated that “[e]ven the confessions of
arrested accomplices may be admissible if they are truly
self-inculpatory, rather than merely attempts to shift blame
or curry favor.” Williamson, 512 U.S. at 603, 114 S.Ct.
at 2436. Similarly, Justices O'Connor and Scalia directly
recognized in Williamson that the very fact that a statement is
genuinely self-inculpatory is itself a particularized guarantee
of trustworthiness that makes a statement admissible under
the Confrontation Clause. Williamson, 512 U.S. at 605, 114
S.Ct. at 2437–38 (plurality opinion of O'Connor, J.) (citing
Lee v. Illinois ).2
2

The tenor of Justice Kennedy's concurring opinion,
in which Chief Justice Rehnquist and Justice Thomas
joined, suggests that at least five justices agreed with this
pronouncement.

Accordingly, we hold that the substance of San Martin's
interview with Detective Nabut concerning the whereabouts
of the weapons used in the crime was admissible because
it was individually self-incriminatory. While the weapons
recovered provided the State with additional evidence against
Franqui, San Martin's statement as to the disposition of
the weapons was focused on his own actions and bore the
requisite “sufficient indicia of reliability” and “particularized
guarantees of trustworthiness” to render it admissible against
Franqui at their joint trial.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

Having determined that the admission of San Martin's initial
confession was error because it contained statements which
were incriminating as to Franqui, we move to the issue
of whether the admission of that confession was harmless
error. Though there is language in Cruz which may lend
to an argument that error in the admission of interlocking
confessions prohibits the error from being harmless, upon
close analysis we conclude that both Cruz and Wright
authorize a harmless-error review. We point specifically to
that portion of Cruz which states:
We hold that, where a nontestifying codefendant's
confession incriminating the defendant is not directly
admissible against the defendant, the Confrontation
*1321 Clause bars its admission at their joint trial, even
if the jury is instructed not to consider it against the
defendant, and even if the defendant's own confession is
admitted against him. Of course, the defendant's confession
may be considered ... on appeal in assessing whether any
Confrontation Clause violation was harmless.
Cruz, 481 U.S. at 193–94, 107 S.Ct. at 1719–20 (emphasis
added) (citation omitted).
Our conclusion is bolstered by recognizing that in an
earlier portion of the Cruz opinion Justice Scalia pointed
out that the Court was adopting the approach espoused
by Justice Blackmun in Parker v. Randolph, 442 U.S.
62, 99 S.Ct. 2132, 60 L.Ed.2d 713 (1979). In that case,
a plurality of four justices held that where interlocking
confessions were introduced, there was no Confrontation
Clause violation. Three other justices subscribed to the view
expressed by Justice Blackmun that while the introduction of
the defendant's own interlocking confession might render the
violation of the Confrontation Clause harmless, it could not
prevent the introduction of the nontestifying codefendant's
confession from constituting a violation. See id. at 81, 99 S.Ct.
at 2143–44 (Stevens, J., dissenting). Justice Blackmun alone
went on to find that the interlocking nature of the confessions
in that case made the error harmless so as to produce a
majority for affirmance of the convictions. In fact, Justice
Blackmun observed “that in most interlocking-confession
cases, any error in admitting the confession of a nontestifying
codefendant will be harmless beyond a reasonable doubt.”
442 U.S. at 79, 99 S.Ct. at 2142 (Blackmun, J., concurring in
part and in the judgment).
The Cruz decision suggested the obvious question of why
be concerned about whether an interlocking confession is
admissible against the defendant if its admission is always
going to be harmless error because it is interlocking.

The dissenting opinion in Cruz answered the question by
explaining how the Cruz opinion would affect future trials.
That the error the Court finds may be harmless and the
conviction saved will not comfort prosecutors and judges.
I doubt that the former will seek joint trials in interlocking
confession cases, and if that occurs, the judge is not likely
to commit error by admitting the codefendant's confession.
481 U.S. at 198, 107 S.Ct. at 1721–22 (White, J., dissenting).
Our analysis with respect to harmless error is reaffirmed in
Wright, which states:
[W]e think the presence of corroborating evidence more
appropriately indicates that any error in admitting the
statement might be harmless rather than that any basis
exists for presuming the declarant to be trustworthy.
497 U.S. at 823, 110 S.Ct. at 3151 (footnote omitted). In sum,
it is now clear that a nontestifying codefendant's confession
which implicates the defendant cannot be introduced simply
because it interlocks with the defendant's confession. On the
other hand, it is equally clear that the interlocking nature of
the confession is likely to render the Confrontation Clause
violation harmless on appellate review.
Thus, while that portion of San Martin's confession which
implicated Franqui should not have been introduced into
evidence, the fact that it mirrors Franqui's confession in so
many respects strongly indicates that the error was harmless.
Of course, Franqui's confession is powerful evidence of
his guilt.3 Further, Franqui's confession is corroborated by
other evidence in the case, including the manner in which
the crime was committed. Further, as noted previously, the
evidence relating to the police having recovered the guns
at San Martin's direction was properly admitted. The State's
forensic expert testified that the bullet that killed Lopez was
fired from a revolver. One of the guns the police recovered
was a revolver, and Franqui confessed that he was the only
one of the codefendants armed with that kind of gun. The
other two guns recovered by the police and all of the guns
carried by the victims were inconsistent with the fatal bullet.
Because the revolver was rusty, the expert *1322 could not
say with certainty that the fatal bullet came from that revolver.
However, he did say that the bullet which killed Lopez came
from the same gun as another bullet which was lodged in
the passenger mirror of the grey Suburban, and the trajectory
of a hole in the passenger window lined up with that bullet,
thereby indicating that it was fired from within the vehicle.
Franqui was the only occupant of the grey Suburban, and he
admitted firing a .357 revolver toward Lopez's vehicle.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

3

While Franqui's attorney questioned the reliability of
Franqui's confession at closing argument, there is no
competent evidence in the record to support that
argument.

The jury specifically found Franqui guilty of first-degree
murder either by premeditated design or in the course of a
felony,4 and evidence supporting both theories is extensive.
At the very least, we are convinced beyond a reasonable doubt
that the Confrontation Clause violation was harmless beyond
a reasonable doubt as it relates to Franqui's conviction of
first-degree felony murder. State v. DiGuilio, 491 So.2d 1129
(Fla.1986).
4

The jury found Franqui guilty of first-degree murder
“as charged in Count I of the Indictment.” Count I of
the indictment charged that Franqui “did unlawfully and
feloniously kill a human being ... from a premeditated
design to effect the death of the person killed or any
human being and/or while engaged in the perpetration
of ... any robbery.”

(Fla.1959) (no error where prosecutor propounded question
to prospective jurors on voir dire concerning their attitudes
toward a finding of guilt on a homicide charge based solely
on a theory of felony murder); Pope v. State, 84 Fla. 428,
438, 94 So. 865, 869 (1922) (no error where prosecutor
explained legal doctrine of criminal responsibility of aiders
and abettors to prospective jurors and then asked them
if they would render a verdict of guilty of all necessary
elements for conviction under doctrine present).
Lavado v. State, 469 So.2d 917, 919–20 (Fla. 3d DCA 1985).
Judge Pearson also noted the importance of “the nature and
purpose of the question” in each case, and indicated that
asking whether jurors would acquit based on hypothetical
testimony rather than asking jurors about their attitudes
towards a particular defense would be improper. See id. at 920
n. 3; compare Pope v. State, 84 Fla. 428, 94 So. 865 (1922)
with Dicks v. State, 83 Fla. 717, 93 So. 137 (1922).5
5

As his third issue, Franqui claims two errors were made
in the jury selection process. First, he contends that the
trial court abused its discretion by prohibiting Franqui's voir
dire examination of the jury regarding specific mitigating
circumstances.
The scope of voir dire questioning rests in the sound
discretion of the court and will not be interfered with unless
that discretion is clearly abused. Vining v. State, 637 So.2d
921, 926 (Fla.), cert. denied, 513 U.S. 1022, 115 S.Ct. 589,
130 L.Ed.2d 502 (1994). In Lavado v. State, 492 So.2d 1322
(Fla.1986), the issue presented was whether the trial court
erred in refusing defense counsel's request to ask prospective
jurors about their willingness and ability to accept the defense
of involuntary intoxication. See also Brown v. State, 614
So.2d 12 (Fla. 1st DCA 1993) (similar issue). We decided that
the trial court's restriction of defense counsel's questioning on
voir dire denied Lavado his right to a fair and impartial jury.
Lavado, 492 So.2d at 1323. We adopted the reasoning of the
dissent of Judge Pearson where he stated:
[W]here a juror's attitude about a particular legal doctrine
(in the words of the trial court, “the law”) is essential
to a determination of whether challenges for cause or
peremptory challenges are to be made, it is well settled that
the scope of the voir dire properly includes questions about
and references to that legal doctrine even if stated in the
form of hypothetical questions. Pait v. State, 112 So.2d 380

In earlier cases, we have stated this same rule. In
Dicks, we asserted that it is improper to ask jurors
hypothetical questions purporting to embody testimony
that is intended to be submitted for the purpose of
ascertaining from the jurors how they will vote on
such a state of the testimony. 93 So. at 138. Counsel
may not have jurors indicate, in advance, what their
decision will be under a certain state of evidence or
upon a certain state of facts. Id. Vining v. State, 637
So.2d at 921, also provides some guidance. In that case,
we held that, although the trial judge did not permit
questioning about the prospective jurors' personal views
of what constitutes a mitigating circumstance, it was
not an abuse of discretion since defense counsel was
able to explore the potential jurors' understanding of the
two-part procedure involved and their ability to follow
the law as instructed by the judge in the penalty phase.
Id. at 926. Additionally, we found that the questioning
was comprehensive enough to permit defense counsel to
strike several prospective jurors for cause.

*1323 In this case, during voir dire, defense counsel asked:
“Do you feel that the defendant's young age would be a factor
you would take into effect, take into your mind in deciding
whether or not to impose the death penalty?”6
6

In Franqui's supplemental motion for a new trial, he
proffered that, had he been permitted, he would have
inquired into each and every mitigating factor relevant to
Franqui's case.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

The State objected and the court sustained the objection
directing defense counsel to “[a]sk the question generically.”
In sustaining the objection the court explained:
I think that you can ask them hypotheticals. If the court
were to say to you that the fact that the Defendant has never
had a traffic infraction, is a mitigating circumstance, do you
follow up an instruction even if you did not feel that it was
a mitigating circumstance, or any subject like that? That is
what I mean by generic. Not specifically addressing any
particular mitigating circumstance.
The State argues that this explanation meant that defense
counsel “was welcome to inquire regarding the process so
long as the questions were put in the context of the jurors'
ability to follow the law, rather than eliciting a promise that
the juror would factor in a specific mitigating circumstance.”
We agree. Our examination of the record reflects that the trial
court left defense counsel with plenty of latitude to discuss
mitigating circumstances with the jurors in the context of the
legal instructions that would be given by the court. We find
no abuse of discretion.
As his second jury selection issue, Franqui maintains that the
trial court abused its discretion by denying him access to the
jury questionnaires after they were returned by the potential
jurors. The State responds that this claim is procedurally
barred, and even if it were not, it would be meritless. We
agree that this claim is procedurally barred but find that
in the absence of the bar, the error would nevertheless be
harmless since appellant was not prejudiced. The very same,
and limited, information in the questionnaires was elicited
from the prospective jurors by the trial court in appellant's
presence before the trial began.
Finally, Franqui asserts that his convictions for attempted
murder must be reversed on the authority of State v. Gray, 654
So.2d 552 (Fla.1995). In Gray, this Court held that the crime
of attempted felony murder no longer existed in the State of
Florida and directed that our decision would be applied to all
cases pending on direct review or not yet final. Consequently,
the effect of State v. Gray upon Franqui's convictions for
attempted murder must be considered.
On each of the two counts, the jury was instructed on both
attempted premeditated murder and attempted felony murder,
and the jury returned a verdict of guilt on both charges. Thus,
Franqui's convictions for attempted murder must be reversed
upon the authority of Valentine v. State, 688 So.2d 313, 317
(Fla.1996), petition for cert. filed, No. 96–9047 (U.S. May 16,
1997), in which this Court held:

Valentine next argues that his conviction for attempted
first-degree murder is error. We agree. The jury was
instructed on two possible theories on this count, attempted
first-degree felony murder and attempted first degree
premeditated murder, and the verdict fails to state on which
ground the jury relied. After Valentine was sentenced, this
Court held that the crime of attempted first-degree felony
murder does not exist in Florida See State v. Gray, 654
So.2d 552 (Fla.1995). Because the jury may have relied
on this legally unsupportable theory, the conviction for
attempted first-degree murder must be reversed. See Griffin
v. United States, 502 U.S. 46, 112 S.Ct. 466, 116 L.Ed.2d
371 (1991).

Sentencing Phase
Franqui claims that the trial court erred in finding the cold,
calculated, and premeditated aggravator. See § 921.141(5)(i),
Fla. Stat. (1991). Specifically, *1324 Franqui argues that
the State failed to prove beyond a reasonable doubt that the
murder, rather than the robbery, was committed in a cold,
calculated, and premeditated manner without any pretense of
moral or legal justification.
In the instant case, the trial court's sentencing order sets out
the basis for its finding:
The evidence established that the defendant was aware of
the method in which the Cabanas [sic] went to the bank
to make their cash withdrawals. The defendant Franqui
himself, in his confession, explained that he was aware of
the Cabanas' [sic] schedule up to five to six months before
the attempted robbery, murder and attempted murder in
this case occurred. The co-defendant Abreu testified that
the robbery was carefully planned but that the issue of
how to handle the “bodyguard” the Cabanas [sic] had hired
was also discussed. The defendant and his co-defendants
decided that in order to successfully execute the robbery
of the Cabanas [sic] the “bodyguard” would have to be
murdered. At some point in time the defendants decided
that the defendant Franqui would be the one to distract
and assassinate the “bodyguard”. It was planned that
Franqui would drive his car in such a way as to force the
“bodyguard's” car off the road and then he would kill him.
...

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

The defendant Franqui's passenger window was open and
the evidence shows that immediately upon stopping his
vehicle Franqui opened fire on Raul Lopez. Consistent with
their intentions Franqui killed Raul Lopez before the latter
could in any way help his friends.
The State cites codefendant Abreu's testimony as support for
the court's finding:
Q. And what did Franqui tell you about the bodyguard,
what would he have [to do] with him?
A. He said not to worry about it, that the only one that could
shoot there was the bodyguard, not the others.
Q. And what did Franqui tell you or Pablo they were going
to do to the bodyguard, if anything?
A. That it would be better for him to be dead first than
Franqui.
Q. What did Franqui tell you that they were going to do
with the bodyguard during the crime?
A. First he was going to crash against him and throw him
down the curb side, and then he would shoot at him, but he
didn't do it that way.
The record also reflects that Franqui told Abreu that he,
Franqui, would “take care of the escort.”
We agree this evidence supports the trial court's finding
that not only was the robbery carefully planned in advance,
but there was also a plan for Franqui to shoot and kill the
bodyguard, the victim here. In sum, we conclude that the
trial court did not err in finding the cold, calculated, and
premeditated aggravator.7
7

See, e.g., Jackson v. State, 648 So.2d 85, 89 (Fla.1994);
Crump v. State, 622 So.2d 963, 972 (Fla.1993); Rogers
v. State, 511 So.2d 526, 533 (Fla.1987), cert. denied, 484
U.S. 1020, 108 S.Ct. 733, 98 L.Ed.2d 681 (1988).

Next, Franqui claims that the cold, calculated, and
premeditated jury instruction given in this case is
unconstitutionally vague. At the outset, we note that this claim
has not been preserved for review. “Claims that the instruction
on the cold, calculated, and premeditated aggravator is
unconstitutionally vague are procedurally barred unless a
specific objection is made at trial and pursued on appeal.”
Jackson v. State, 648 So.2d 85, 90 (Fla.1994). In the case at
bar, defense counsel's objections were directed towards the
standard instruction, which was subsequently disapproved of

in Jackson, and not to the more detailed instruction which
was ultimately given in this case. We find that the instruction
approved in Jackson and the instruction given in this case8
are virtually *1325 identical. Thus, the instruction given in
this case was not unconstitutionally vague.
8

In this case, the trial judge gave the following instruction
on the cold, calculated and premeditated aggravator:
The crime for which LEONARDO FRANQUI and/
or PABLO SAN MARTIN are to be sentenced was
committed in a cold, calculated and premeditated
manner without any pretense of moral or legal
justification.
“Cold” means calm and cool reflection, not
prompted by wild emotion.
“Calculated” means a careful plan or prearranged
design.
“Premeditated” means that the killing was
committed after consciously deciding to do so. The
decision must be present in the mind at the time of
the killing. The premeditated intent to kill must be
formed before the killing. The period of time must
be long enough to allow reflection by the defendant.
Although the law does not fix the exact period of
time that must pass between the formation of the
premeditated intent and the killing, this aggravating
factor requires that the premeditation be of a
heightened degree, more than what is necessary to
prove first degree premeditated murder.
“Pretense of moral or legal justification” means
any claim of justification or excuse that, though
insufficient to reduce the degree of homicide,
nevertheless rebuts the otherwise cold and
calculating nature of the homicide.

As his next claim, Franqui argues that the trial court erred
in failing to find the non-statutory mitigators of marginal
or retarded intelligence and brain damage and the statutory
mitigators of age and impaired capacity. See § 921.141(6)(f),
(g), Fla. Stat. (1991).
A mitigating circumstance must be “reasonably established
by the greater weight of the evidence.” Nibert v. State, 574
So.2d 1059, 1061 (Fla.1990) (quoting Campbell v. State, 571
So.2d 415, 419 (Fla.1990)).
The trial court's sentencing order rejected low intelligence as
a mitigator in the following fashion:
The court has considered the results of Dr. Toomer's test
as concerns the defendant's IQ. Since it is impossible for
the court to verify the accuracy or validity of such a test,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

the court must consider it in light of the facts known to the
court. In making this analysis the court is conscious of the
fact that although an individual's performance on such a
test may be unable to exceed his true abilities it may easily
reflect less than his best efforts.
The defense suggests that this court should accept, as
a non-statutory mitigating factor the fact that, according
to Dr. Toomer, Mr. Franqui is mentally retarded. Every
piece of evidence presented in this trial, penalty phase and
sentencing hearings, with the exception of Dr. Toomer's
testimony, definitively establishes that Mr. Franqui is
not mentally retarded. The crimes he has committed,
as described above, reflect an unshakable pattern of
premeditation, calculation and shrewd planning that are
totally inconsistent with mental retardation. Mr. Franqui's
“good employment background” (one of the asserted
non-statutory mitigating circumstances) as established by
witness Michael Barecchio shows that he was not only a
good employee but that on many occasions he displayed
initiative and a capacity to finish his assigned tasks and
move on to others without direction or supervision. His
ability to establish a meaningful relationship with a woman,
to have and raise children with her and to support a family
further suggest that he is not mentally retarded.
In order to find that this defendant is mentally retarded the
court would have to accept Dr. Toomer's test result and
ignore the clear and irrefutable logic of the facts in this case.
The court is unwilling to do this and therefore rejects the
existence of this non-statutory mitigating circumstance.
In addition, the State's expert witness, Dr. Mutter, expressly
rejected Dr. Toomer's findings and opined that Franqui was
not mentally retarded. Dr. Mutter also found that Dr. Toomer's
reliance on the Beta IQ test result was questionable, since it
was inconsistent with both the Wechsler test result and with
the mental status examination which he conducted.
With respect to the existence of the organic brain damage
mitigator, the trial court stated:
Dr. Toomer testified that there were factors in his
evaluation of the defendant that indicated the existence of
organicity. However, there is no direct proof of this and the
court is not reasonably convinced of the existence of this
mitigator. It is therefore rejected.
*1326 Again, Dr. Mutter disputed Dr. Toomer's finding that
Franqui may suffer from organic brain damage.

As set out above, we find that there was competent,
substantial evidence to support the trial court's conclusion that
the non-statutory mitigators of low intelligence and organic
brain damage were not established.
As to the statutory mitigators, Franqui argues that the trial
court should have found that he failed to appreciate the
criminality of his conduct and that his capacity to conform
his conduct to the requirements of the law was substantially
impaired. See 921.141(6)(f), Fla. Stat. (1993). With regard to
the first mitigator, the sentencing order stated:
The court recalls no expert testimony establishing the
existence of this mitigating factor nor does the court feel
that any evidence presented on the defendant's behalf
established it. Accordingly, the court rejects the existence
of this statutory mitigating circumstance.
Upon review, the record supports the trial court's conclusion.
Franqui also claims that the court should have found his age,
21, at the time of the crime as a statutory mitigator. See id.
§ 921.141(6)(g). The trial court considered, but rejected, the
defendant's age as a mitigating factor. In Peek v. State, 395
So.2d 492, 498 (Fla.1980), cert. denied, 451 U.S. 964, 101
S.Ct. 2036, 68 L.Ed.2d 342 (1981), we posited that “[t]here is
no per se rule which pinpoints a particular age as an automatic
factor in mitigation. The propriety of a finding with respect to
this circumstance depends upon the evidence adduced at trial
and at the sentencing hearing.” We find that the trial court did
not err in properly considering, but ultimately rejecting, the
age mitigator under the circumstances of this case.9
9

In fact, the trial court cited to eight cases which support
its finding. See, e.g., Scull v. State, 533 So.2d 1137
(Fla.1988), cert. denied, 490 U.S. 1037, 109 S.Ct. 1937,
104 L.Ed.2d 408 (1989); Kokal v. State, 492 So.2d 1317
(Fla.1986); Cooper v. State, 492 So.2d 1059 (Fla.1986),
cert. denied, 479 U.S. 1101, 107 S.Ct. 1330, 94 L.Ed.2d
181 (1987).

As his next issue, Franqui asserts that the trial court erred by
prohibiting him from informing the jury about two things: (1)
the court's power to impose consecutive sentences for all the
counts; and (2) the likelihood of lifelong imprisonment as an
alternative to death for the capital offense. In Nixon v. State,
572 So.2d 1336, 1345 (Fla.1990), cert. denied, 502 U.S. 854,
112 S.Ct. 164, 116 L.Ed.2d 128 (1991), we held that a capital
murder defendant, who had also been convicted of three other
offenses which carried lengthy maximum penalties, was not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

entitled to an instruction informing the jury of the maximum
sentences for other crimes as a mitigating factor.
We addressed a similar issue in Marquard v. State, 641 So.2d
54 (Fla.1994), cert. denied, 513 U.S. 1132, 115 S.Ct. 946,
130 L.Ed.2d 890 (1995). In that case, the trial court, after
the State's objection, cut off defense counsel's penalty phase
concluding argument at the point where he began discussing
hypothetical sentencing on an armed robbery count. Id. at 57–
58. We held no error existed where sentencing on that charge
was not before the jury, but rather, the sole issue before them
was the proper sentence on the murder charge. Id. at 58; cf.
Jones v. State, 569 So.2d 1234, 1239–40 (Fla.1990) (holding
that fact that defendant would be removed from society for at
least fifty years if he received life sentences for two murders
could be argued to and considered by jury as mitigating factor
in penalty phase of capital murder prosecution). We conclude,
under Nixon and Marquard, that the trial court did not abuse
its discretion.10
10

Appellant relies on Simmons v. South Carolina, 512
U.S. 154, 114 S.Ct. 2187, 129 L.Ed.2d 133 (1994), in
which the United States Supreme Court held that “where
the defendant's future dangerousness is at issue, and
state law prohibits the defendant's release on parole, due
process requires that the sentencing jury be informed
that the defendant is parole ineligible.” Id. at 156, 114
S.Ct. at 2190. However, Simmons is inapposite here
since this case does not involve any direct effort to
impose the death penalty based on the defendant's future
dangerousness.

As to the second point, the trial judge instructed the jury that
“the punishment for *1327 this crime [first-degree murder]
is either death or life imprisonment without the possibility of
parole for 25 years.” Thus, Franqui's claim is without merit.
As his next issue on appeal, Franqui contends that the death
penalty is unconstitutional facially and as applied. The State,
however, argues that this claim is procedurally barred since
it was never raised in the trial court. We agree. In addition,
this claim has been previously rejected. See e.g., Fotopoulos
v. State, 608 So.2d 784, 794 n. 7 (Fla.1992), cert. denied, 508
U.S. 924, 113 S.Ct. 2377, 124 L.Ed.2d 282 (1993).
As his last issue on appeal, Franqui argues that the death
sentence is a disproportionate penalty in this case compared
to others. In reviewing a death sentence, we must consider
the circumstances revealed in the record in relation to
other decisions and then decide if death is the appropriate

penalty, considering that this penalty is reserved for the most
aggravated and least mitigated cases. Livingston v. State,
565 So.2d 1288, 1292 (Fla.1988). In the case at bar, the
trial court found four aggravators: (1) prior violent felony
convictions for aggravated assault, attempted armed robbery,
armed robbery, armed kidnapping, and attempted first-degree
murder; (2) murder committed during the course of an
attempted robbery; (3) murder committed for pecuniary gain
(merged with prior aggravator); and (4) murder committed
in a cold, calculated, and premeditated manner, without
any pretense of moral or legal justification. There were
no statutory mitigating circumstances. The non-statutory
mitigation consisted of: (1) hardships during the defendant's
youth, including abandonment by his mother, the death of a
younger brother, and a father's drug and alcohol abuse, and
(2) the fact that the defendant was a caring husband, father,
brother, and provider.
Franqui first argues that murders committed during armed
robberies, such as the one committed by Franqui, are
generally not death cases, citing Caruthers v. State, 465 So.2d
496 (Fla.1985). However, Caruthers and other cases cited
are clearly factually distinguishable from the circumstances
found to exist as aggravation and mitigation in this case.11
11

In Caruthers, the defendant fatally shot a store clerk
while attempting to rob a convenience store. We found a
death sentence not appropriate where there was only one
valid aggravator (commission of murder during armed
robbery), one statutory mitigator (no significant history
of prior criminal activity), and several non-statutory
mitigators (voluntary confession, conditional guilty plea
subject to a life sentence, mutual love and affection of
family and friends, remorse, encouragement of younger
brother to do well and avoid violating the law). Id. at 499;
see also Rembert v. State, 445 So.2d 337 (Fla.1984).

Next, the Defendant relies on Cannady v. State, 427 So.2d
723 (Fla.1983), and the consolidated cases of McCaskill v.
State, and Williams v. State, 344 So.2d 1276 (Fla.1977).
However, his reliance on those cases is also misplaced. Those
cases involve an override of a jury recommendation of life
imprisonment which entails a wholly different legal principle
and analysis. Watts v. State, 593 So.2d 198, 204 (Fla.), cert.
denied, 505 U.S. 1210, 112 S.Ct. 3006, 120 L.Ed.2d 881
(1992).
Third, Franqui contends that this Court has consistently
reversed death sentences in cases where similar mitigating
circumstances outweighed even significant aggravating

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

circumstances. Here also, the cases do not support Franqui's
position. For example, in Livingston v. State, 565 So.2d
1288 (Fla.1988), the defendant entered a convenience store,
fatally shot the female attendant, fired a shot at another
woman inside the store, and carried off the cash register.
Id. at 1289. The extensive mitigating circumstances included
the following: (1) defendant's childhood was marked by
severe beatings by his mother's boyfriend; (2) defendant's
intellectual functioning was, at best, marginal; (3) defendant
was only seventeen; and (4) defendant had used cocaine
and marijuana extensively. With respect to aggravators, there
were two: (1) previous conviction of a violent felony; and
(2) commission of murder during armed robbery. This Court
found that the death penalty was not warranted because
the mitigating circumstances outweighed the aggravating
circumstances.
*1328 In Livingston and other cases like Nibert v. State,
574 So.2d 1059, 1061 (Fla.1990), the mitigating factors
were significant in comparison to the limited aggravators. In
Franqui's case, however, there is minimal mitigation when
considered in conjunction with the substantial aggravation.
Conversely, several recent cases support a conclusion that
death is not a disproportionate penalty for Franqui. See, e.g.,
Lowe v. State, 650 So.2d 969 (Fla.1994), 516 U.S. 887,
116 S.Ct. 230, 133 L.Ed.2d 159 (1995); Smith v. State, 641
So.2d 1319 (Fla.1994), cert. denied, 513 U.S. 1163, 115 S.Ct.
1129, 130 L.Ed.2d 1091 (1995); Mordenti v. State, 630 So.2d
1080 (Fla.), cert. denied, 512 U.S. 1227, 114 S.Ct. 2726,
129 L.Ed.2d 849 (1994). After considering Smith, Lowe,
Mordenti, and other relevant cases, we find that we cannot
conclude that death is a disproportionate penalty here.
We note that the two attempted murder convictions imposed
in this case were among the prior violent felonies enumerated
by the trial court in finding the statutory aggravator of prior
conviction of a felony involving the use or threat of violence
to the person. Because we are reversing the attempted murder
convictions, the trial court's reliance upon them in finding
the existence of this aggravator was error. However, we are
convinced that the error was harmless beyond a reasonable
doubt because the trial court also found that Franqui had been
previously convicted of the crimes of aggravated assault and
attempted armed robbery in one case and armed robbery and
armed kidnapping in another.

III. CONCLUSION
Campbell v. State, 571 So.2d 415 (Fla.1990), and its
progeny12 established our firm adherence to the rule that
the trial court must scrupulously follow the statutory and
case law guidelines in the sentencing process, and “[w]hen
addressing mitigating circumstances, the sentencing court
must expressly evaluate in its written order each mitigating
circumstance proposed by the defendant to determine whether
it is supported by the evidence and whether, in the case of
nonstatutory factors, it is truly of a mitigating nature.” Id.
at 419 (footnote omitted) (citing Rogers v. State, 511 So.2d
526 (Fla.1987), cert. denied, 484 U.S. 1020, 108 S.Ct. 733,
98 L.Ed.2d 681 (1988)); see also § 921.141(3), Fla. Stat.
(1991). We have also stressed that the trial court must weigh
the aggravating circumstances against the mitigating and
must expressly consider in its written order each established
mitigating circumstance. Campbell, 571 So.2d at 420.
12

See, e.g., Ferrell v. State, 653 So.2d 367 (Fla.1995);
Crump v. State, 622 So.2d 963 (Fla.1993).

The Campbell procedure was not intended to be a mere
formality, but rather to serve as a substantive guide for
the most serious of sentencing evaluations and decisions.
The procedure mandated was intended to ensure the overall
quality and integrity of the complex and delicate sentencing
process in death penalty cases. It forces the trial court to
consider, with calm and deliberate reflection, the evidence
adduced, and to carefully consider and apply the legal
standards for determining an appropriate sentence. The
process should also promote the uniform application of
aggravating and mitigating circumstances in reaching the
individualized decision required by law. Id. It also facilitates
our appellate review of the trial court's decision. Id.
In this case, we note that the trial court's detailed
sentencing order stands as a model of compliance with
the Campbell requirement. In a 22–page order,13 the
trial court carefully and deliberately evaluated every
mitigating circumstance proposed by the defendant and
every aggravating circumstance proposed by the State. In a
well-reasoned analysis, the trial court considered counsel's
sentencing memorandum, the trial testimony and evidence,
and relevant case law to reach its conclusions. In short, it is
the epitome of what should be done by a trial court in order
to determine an appropriate sentence.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

13

of-court statements before even getting to the federal
constitutional issue. Only if San Martin's confession was
admissible under the state Evidence Code, would we then
jump to the majority's focus on whether the trial court's
failure to grant the severance violated Franqui's Sixth
Amendment constitutional right to confront witnesses
against him.
Under the Florida Evidence Code, I conclude that
the testimony of Detective Michael Santos relating to
the jury the oral confession of Franqui's codefendant,
Pablo San Martin, was inadmissible as a statement
against penal interest, the only possible hearsay
exception applicable here. On this point, I find the
U.S. Supreme Court's interpretation of the virtually
identical provision in the Federal Evidence Code to
be compelling. The United States Supreme Court's
construction of the statement against penal interest
exception to the hearsay rule set out in Williamson
v. United States, 512 U.S. 594, 114 S.Ct. 2431,
129 L.Ed.2d 476 (1994), limited this exception to
statements that “are individually self-inculpatory.”
While some of Detective Santos' testimony at trial
concerned solely self-inculpatory statements made by
San Martin during his oral confession, the majority
of San Martin's statements related by Detective
Santos also implicated the accused, Leonardo Franqui.
Moreover, some of San Martin's statements, as
told by Detective Santos, also served to exonerate
San Martin. There was no attempt here to limit
San Martin's statement or eliminate any portions
particularly inculpatory as to Franqui or exculpatory
as to San Martin. Thus, I find that the detective's
testimony concerning San Martin's oral confession
does not make it over even the first hurdle of
admissibility—the Florida Evidence Code—let alone
the Sixth Amendment Confrontation Clause.

We note, however, that there is no “magic” number of
pages for a compliant sentencing order.

We conclude that the error in admitting San Martin's
confession was also harmless *1329 in the penalty phase
because San Martin said nothing in his confession that
was adverse to Franqui that was not contained in Franqui's
confession. San Martin stated that because his vision was
obscured he was unable even to say whether Franqui fired his
gun, and he did not characterize Franqui as the leader in the
enterprise.
Finding no reversible error, we affirm all the judgments
and sentences except those of attempted murder. The two
convictions of attempted murder are hereby vacated and the
pending charges on these crimes are remanded for further
proceedings.
It is so ordered.

OVERTON, SHAW, GRIMES, HARDING and WELLS, JJ.,
concur.
ANSTEAD, J., concurs in part and dissents in part with an
opinion, in which KOGAN, C.J., concurs.
ANSTEAD, Justice, concurring in part and dissenting in part.
While I disagree with much of the majority's framework
for analyzing Franqui's claim that his right to confront the
witnesses against him was violated in this case,14 I agree with
the majority's conclusion that the trial court erred under the
Sixth Amendment in admitting against Franqui the testimony
of Detective Santos concerning codefendant San Martin's
initial confession.15 I write in dissent to emphasize my
disagreement with the majority's holding that a constitutional
error of such major proportions was somehow harmless to
Franqui in his trial for capital murder.
14

In my view, Franqui's claim of error can be properly
analyzed only by first determining whether, under
Florida evidence law, the confession of the nontestifying
codefendant San Martin was admissible at trial under
a hearsay exception. In fact, it is this Court's previous
failure to deal with this issue that underlies our prior
misinterpretation of Cruz and Lee that we are receding
from today. Because of our prior misinterpretations,
trial courts too have overlooked the necessity to apply
a state evidentiary standard for the admission of out-

15

I concur fully in the majority opinion's acknowledgment
that the trial court's sentencing order stands as a model
for compliance with our directives in Campbell and other
cases.

In Cruz, the United States Supreme Court specifically
addressed the application of the harmless error standard in
exactly the situation we have before us in this case. First,
the Court expressly noted that the defendant's own confession
may be considered in determining, on appeal, the harmfulness
of the admission of a codefendant's confession implicating
the defendant, but also emphasized that the reviewing court
must consider for harmless error purposes the similarity of the
codefendants' confessions. 481 U.S. at 193–94, 107 S.Ct. at
1719–20.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

Further, in Cruz, the defendant attempted to avoid the
damaging nature of his alleged confession at trial by showing
that his friend had a motive to falsely report to police a
confession the defendant allegedly never made. The Court,
through Justice Scalia, pointedly explained:
*1330 A codefendant's confession will be relatively
harmless if the incriminating story it tells is different
from that which the defendant himself is alleged to
have told, but enormously damaging if it confirms, in
all essential respects, the defendant's alleged confession.
It might be otherwise if the defendant were standing
by his confession, in which case it could be said that
the codefendant's confession does no more than support
the defendant's very own case. But in the real world
of criminal litigation, the defendant is seeking to avoid
his confession—on the ground that it was not accurately
reported, or that it was not really true when made....
In such circumstances a codefendant's confession that
corroborates the defendant's confession significantly harms
the defendant's case, whereas one that is positively
incompatible gives credence to the defendant's assertion
that his own alleged confession was nonexistent or false.
Id. at 192, 107 S.Ct. at 1718–19. In short, I read the Cruz
opinion to mean that where the accused attempts to avoid his
own confession at trial on grounds that it was false or never
made, the “interlocking” nature of a codefendant's confession
bears a positive relationship to its “devastation.” Id.
Here, of course, Franqui gave a confession which implicated
himself in this crime; and San Martin's confession serves
to corroborate Franqui's account. Without San Martin's
confession, however, the State's case against Franqui consists
only of the fact of the crime itself, Franqui's own statement,
and the weapons recovered based upon San Martin's
admission as to their location. Neither of the surviving victims
could identify Franqui as one of their assailants, and his
fingerprints were not found at the scene or on the guns. Like
the defendant in Cruz, Franqui attempted to avoid his own
confession at trial on grounds that his confession was false,
unreliable and should not be believed.16
16

In closing argument, Franqui's defense counsel argued to
the jury:
Now, the State will argue I'm sure that Mr. Franqui
admits that there was a plan to rob in his statement
but it's going to be for you to consider the reliability
of that statement.

Because that statement when considered in light of all
the evidence in this case is not reliable and cannot be
believed.
In fact, Franqui's own confession was the subject of a
pretrial motion to suppress alleging numerous grounds
for its suppression and unreliability.

The State, on the other hand, relied on the corroborating,
or “interlocking,” nature of San Martin's confession to
prove its case against Franqui. On numerous occasions
throughout her closing argument, the prosecutor argued to
the jury that San Martin's confession was a critical piece
of evidence of Franqui's guilt, and repeatedly emphasized
how it “corroborated” Franqui's own statement. Among these
many references, two of the prosecutor's comments are
particularly noteworthy as they illustrate that the Cruz test for
“devastation,” i.e., harmfulness, has been met here. Early in
her closing remarks, the prosecutor argued:
We have two people in separate rooms who confess to
the homicide detectives [,] to two different homicide
detectives, what a coincidence that they both happened
to say the exact same thing in those two separate rooms.
I mean what do they want you to believe? Mr. Cohen
[Franqui's defense counsel] wants you to believe that he's
falsely confessing and Mr. DeAguero [San Martin's defense
counsel] wants you to believe that he [San Martin] didn't
even confess, but we have two people, in two separate
rooms telling the same story.
The prosecutor reiterated this point again and again
throughout her closing argument to the jury. On another
occasion, for instance, she argued:
But see, Technician Kennington wasn't the only witness
we called, you have to consider all the evidence that you
heard and when you put what he said together with what the
crime victims tell you about who had which guns on their
side, and together with the confessions of the defendants,
that Abreu and Pablo San Martin, both [had] their semiautomatics, there is only one person who could have fired
that bullet. Leonardo Franqui.
Yet another comment to the jury, similar to the others, was:
*1331 But you know what, they weren't identified by the
victims because they wore masks, they were identified by
each other because they both admitted that the other was
there and they both admitted that they were there and they
both said that they had exactly the same role as the other
one says it.
In view of the way the prosecution explicitly relied upon San
Martin's confession to prove its case against Franqui, I simply

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Franqui v. State, 699 So.2d 1312 (1997)
22 Fla. L. Weekly S373

cannot conclude that the State has met its burden of showing
that the improper admission of San Martin's confession at this
joint trial was harmless to Franqui.
In State v. DiGuilio, 491 So.2d 1129 (Fla.1986), we explained
that:
The harmless error test, as set forth in Chapman and
progeny, places the burden on the state, as the beneficiary
of the error, to prove beyond a reasonable doubt that the
error complained of did not contribute to the verdict, or,
alternatively stated, that there is no reasonable possibility
that the error contributed to the conviction.
Id. at 1135. It would be naive to say here that the jury, although
it was repeatedly implored to do so by the prosecutor, did not
use the codefendant's statement as a major building block in
the case against Franqui. We do not have to wonder if this is a
“possibility” since we have the prosecutor's explicit pleas to
confirm its prejudicial use as a certainty.
In addition, the majority has in essence adopted a per se
rule that any error, no matter how serious, will be deemed
harmless, if a defendant's confession is allowed into evidence.
The majority forgets that it is the role of the jury to evaluate
the reliability and weight of the evidence, and not the
role of this Court. The majority has found the confession
“overwhelming” and, in doing so, has fallen into the trap
explicitly warned of by Justice Shaw in DiGuilio:
The [harmless error] test must be conscientiously applied
and the reasoning of the court set forth for the guidance
of all concerned and for the benefit of further appellate
review. The test is not a sufficiency-of-the-evidence, a
correct result, a not clearly wrong, a substantial evidence, a
more probable than not, a clear and convincing, or even an
overwhelming evidence test. Harmless error is not a device
for the appellate court to substitute itself for the trier-of-fact
by simply weighing the evidence. The focus is on the effect
End of Document

of the error on the trier-of-fact. The question is whether
there is a reasonable possibility that the error affected the
verdict. The burden to show the error was harmless must
remain on the state. If the appellate court cannot say beyond
a reasonable doubt that the error did not affect the verdict,
then the error is by definition harmful. This rather truncated
summary is not comprehensive but it does serve to warn of
the more common errors which must be avoided.
Id. at 1139. This case is analogous to the situation in Cruz
where the Supreme Court expressly concluded:
It seems to us illogical, and therefore contrary to common
sense and good judgment, to believe that codefendant
confessions are less likely to be taken into account by the
jury the more they are corroborated by the defendant's
own admissions; or that they are less likely to be harmful
when they confirm the validity of the defendant's alleged
confession.
Cruz, 481 U.S. at 193, 107 S.Ct. at 1719. By emphasizing to
the jury that San Martin's confession corroborated Franqui's
own account of his involvement and, therefore, that Franqui's
confession was reliable and must be believed, Franqui, like
Cruz, was significantly harmed in his effort to avoid his own
confession at trial. Had testimony concerning San Martin's
confession been properly excluded from the trial, the jury
might have concluded that Franqui's own confession was
not credible and, consequently, his guilt was not proved
beyond a reasonable doubt. Instead, the testimony concerning
San Martin's confession, which corroborated Franqui's own
statement, might well have tipped the balance in the jurors'
minds in favor of conviction.

KOGAN, C.J., concurs.
All Citations
699 So.2d 1312, 22 Fla. L. Weekly S373
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

